No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

NIKOLAI BOSYK,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
-------------------------- ♦ --------------------------

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

William D. Ashwell
Counsel of Record
MARK B. WILLIAMS & ASSOCIATES, PLC
27 Culpeper Street
Warrenton, Virginia 20186
(540) 347-6595
wdashwell@mbwalaw.com
Counsel for Petitioner

Dated: January 7, 2020

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTION PRESENTED
The Fourth Amendment establishes “[t]he
right for people to be secure in their persons, houses,
papers, and effects, against unreasonable searches
and seizures” and continues “no Warrants shall issue,
but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to
be searched, and the persons or things to be seized.”
U.S. Const. amend. IV.
Whether the single click of a URL link to child
pornography by someone using an individual’s IP
address can provide probable cause to support a
search warrant without any additional substantive
factual information related to the suspect.

ii
PARTIES TO PROCEEDING AND
RULE 26.6 STATEMENT
Petitioner is Nikolai Bosyk. Respondent is the
United States of America. No party is a corporation.
RELATED PROCEEDINGS
The following proceedings are directly related
to this petition:
United States v. Bosyk, No. 1:17-cr-00302LMB-1 (E.D.V.A.) (Bosyk Judgment entered May 7,
2018; aff’d, United States v. Bosyk, No. 18-4302 (4th
Cir. August 1, 2019) (reported at 933 F.3d 319);
Petition for Rehearing En Banc denied October 9,
2019.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
PARTIES TO PROCEEDING AND RULE 26.6
STATEMENT.............................................................. ii
RELATED PROCEEDINGS ...................................... ii
TABLE OF CONTENTS............................................iii
TABLE OF AUTHORITIES .................................... viii
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 3
JURISDICTION ......................................................... 3
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED......................................... 3
STATEMENT OF THE CASE ................................... 3
REASONS FOR GRANTING PETITION ................ 10
I.

THE
FOURTH
CIRCUIT’S
DECISION HIGHLIGHTS THE
SPLIT
AND
SUBSTANTIVE
DISCREPENCIES BETWEEN THE
CIRCUIT’S AS TO PROBABLE
CAUSE DETERMINATIONS IN
FACTUALLY SIMILAR CASES .............. 10
A.

There now exists a split
between the circuits based on
the Bosyk court’s holding
which warrants a grant of the
petition ........................................... 11

iv
B.

The Eastern District of
Virginia itself is split on the
appropriate
analysis
and
criteria for the trial court’s
consideration
of
identical
search warrants that further
supports the grant of the
petition in this case ........................ 18

II.

THIS CASE RAISES ISSUES OF
CONSIDERABLE IMPORTANCE .......... 20

III.

THE FOURTH CIRCUIT ERRED IN
RULING ON THE QUESTION
PRESENTED IN THIS PETITION ......... 23

CONCLUSION ......................................................... 32
APPENDIX:
Published Opinion of
The United States Court of Appeals
For the Fourth Circuit,
With Attachments,
entered August 1, 2019 ....................... 1a
Attachments:
Todd Spangler, ‘Avengers:
Endgame’ Trailer Smashes
24-Hour Video Views Record,
Variety (Dec. 8, 2018, 11:02 a.m.),
https://variety.com/2018/digital/
news/avengers-endgame-recordtrailer-worldwide-24-hour-views1203085074 ...................................... 104a

v
Chloe Taylor, A Japanese Billionaire
Now Has Most Retweeted Tweet
Ever After Offering a $923,000
Prize, CNBC (Jan. 7, 2019),
https://www.cnbc.com/2019/01/07/
yusaku-maezawa-has-mostretweeted-tweet-ever-afteroffering-923000.html ....................... 107a
Abby Ohlheiser, I Can’t Believe
This Is Why People Are
Tweeting Fake Celebrity News,
Wash. Post (Oct. 18, 2018),
https://www.washingtonpost.com/
technology/2018/10/18/i-cantbelieve-this-is-why-people-aretweeting-fake-celebritynews/?utm_term=.e9c493b7234d.... 109a
Adam Levin, The 5 Deadly Clicks:
The Links You Should Never
Touch, ABC News (Oct. 6, 2013),
https://abcnews.go.com/Business/
links-click/story?id=20461918 ........ 116a
Quinn Norton, Phishing Is the
Internet’s Most Successful Con,
Atlantic (Sept. 12, 2018),
https://www.theatlantic.com/techn
ology/archive/2018/09/phishing-isthe-internets-most-successfulcon/569920........................................ 122a

vi
Jonnelle Marte, Can You Tell the
Real TurboTax Email from the
Scam?, Wash. Post (Mar. 1, 2016),
https://www.washingtonpost.com/
news/get-there/wp/2016/03/01/
can-you-tell-which-of-theseturbotax-emails-is-real-andwhich-one-is-from-a-scam-artist/
?utm_term=.7ba2976355cb ............. 131a
Compound Probability,
Investopedia (Apr. 29, 2019),
http://www.investopedia.com/term
s/c/compound-probability.asp.......... 134a
Viruses Frame PC Owners for Child
Porn, CBS News (Nov. 9, 2009,
12:49 PM), https://www.cbsnews.
com/news/viruses-frame-pc-ownersfor-child-porn .................................. 138A
Robert Siciliano, Why Is Child
Pornography on Your PC?,
HuffPost (Dec. 6, 2017),
https://www.huffpost.com/entry/wh
y-is-child-pornography_b_356539? . 145a
Judgment of
The United States Court of Appeals
For the Fourth Circuit
entered August 1, 2019 ................... 148a
Judgment of
The United States District Court
For the Eastern District of Virginia
entered May 7, 2018 ........................ 149a

vii
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for
Rehearing En Banc
entered October 9, 2019 .................. 159a

viii
TABLE OF AUTHORITIES
Page(s)
CASES
Boyd v. United States,
116 U.S. 616, 6 S. Ct. 524,
29 L. Ed. 746 (1886) ....................................... 11
Carpenter v. United States,
138 S. Ct. 2206 (2018) .................... 2, 11, 20, 22
In re Application of U.S. for an Order Directing
a Provider of Elec. Commc’n Serv. to Disclose
Records to Gov’t,
620 F.3d 304 (3d Cir. 2010) ........................... 21
Kyllo v. United States,
533 U.S. 27 (2001) .......................... 2, 11, 20, 22
McColley v. Cty. of Rensselaer,
740 F.3d 817 (2d Cir. 2014) ........................... 31
Riley v. California,
573 U.S. 373 (2014) ........................................ 20
Rosencranz v. United States,
356 F.2d 310 (1st Cir. 1966) ...................... 9, 25
United States v. Coreas,
419 F.3d 151 (2d Cir. 2005) ......... 15, 16, 17, 18
United States v. Di Re,
332 U.S. 581, 68 S. Ct. 222,
92 L. Ed. 210 (1948) ....................................... 11
United States v. Falso,
544 F.3d 110 (2d Cir. 2008) ......... 13, 14, 19, 31

ix
United States v. Farmer,
370 F.3d 435 (4th Cir. 2004) .......................... 30
United States v. Gourde,
440 F.3d 1065 (9th Cir. 2006) ............ 12, 13, 31
United States v. Jackson,
415 F.3d 88 (D.C. 2005) ................................. 13
United States v. Johnson,
461 F.2d 285 (10th Cir. 1972) ........................ 30
United States v. Leon,
468 U.S. 897 (1984) .......................................... 8
United States v. Martin,
426 F.3d 68 (2d Cir. 2005) ....................... 13, 14
United States v. Raymonda,
780 F.3d 105 (2d Cir. 2015) ........................... 30
United States v. Reece,
No. 2:16cr104,
2017 U.S. Dist. LEXIS 220176
(E.D. Va. Mar. 1, 2017) .......................... passim
United States v. Riccardi,
405 F.3d 852 (10th Cir. 2005) ........................ 30
United States v. Richardson,
607 F.3d 357 (4th Cir. 2010) .................... 29, 30
United States v. Sims,
553 F.3d 580 (7th Cir. 2009) .......................... 31
United States v. Underwood,
725 F.3d 1076 (9th Cir. 2013) ........................ 28
Vieth v. Jubelirer,
541 U.S. 267 (2004) ........................................ 21

x
CONSTITUTIONAL PROVISION
U.S. CONST. amend. IV ..................................... passim
STATUTES
18 U.S.C. § 2252(a)(2) ................................................. 8
18 U.S.C. § 2252(a)(4)(b) ............................................ 8
18 U.S.C. § 2252(b)(1) ................................................. 8
18 U.S.C. § 2252(b)(2) ................................................. 8
28 U.S.C. § 1254(1) ..................................................... 3
OTHER AUTHORITIES
Wayne R. LaFave,
2 Search & Seizure § 3.7(d) (5th ed. 2018) .... 28

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Nikolai Bosyk respectfully petitions
for a writ of certiorari to review the judgment of the
United States District Court for the Eastern District
of Virginia and the Fourth Circuit Court of Appeals.
Petition Appendix at 148a (“Pet. App.”). The relevant
order of the trial court is published.
INTRODUCTION
The principals of the Fourth Amendment are
paramount to the basic freedoms enjoyed by every
citizen, and provide “no Warrants shall issue, but
upon probable cause, supported by Oath or
affirmation, and particularly describing the place to
be searched, and the persons or things to be seized.”
U.S. Const. amend. IV. As stated by Judge Wynn’s
dissent stemming 70 pages, “[t]his case presents a
textbook example of why we must guard against the
slow whittling away of constitutional rights,
particularly as we apply constitutional rights adopted
in an analog era to the new challenges of the digital
age.” Pet. App. 27a. This case presents the everexpanding problem modern jurisprudence faces in
adapting classic constitutional and legal principals to
modern technology. While the temptation to adhere
steadfastly to traditional principals in the application
of precedent to modern legal issues, this approach
fails to withstand constitutional scrutiny. In the
instant case, as Judge Wynn’s dissent continues, “[a]
basic understanding of the technology at issue
demonstrates that the government’s bare-bones
affidavit supporting a warrant to search the residence
of Defendant … failed to establish a fair probability
that, when clicking on a link to download child
pornography, someone using Defendant’s IP address

2
knew and sought out that illicit content. Indeed,
rather than confronting the difficult technological
questions courts must address in assessing warrant
applications premised on online conduct, the majority
opinion rests on analog frameworks that fail to
account for the meaningful differences between the
Internet and the physical world. With due respect to
my colleagues in the majority, I believe the majority
opinion displays a troubling incomprehension of the
technology at issue in this matter.” Id.
The immediate threat and risk of continued
constitutional derogation stemming from the Fourth
Circuit’s analysis and precedent established in this
matter cannot be overstated. The Fourth Circuit’s
majority opinion in Bosyk marks a stark deviation
from precedent established throughout the circuits
related to probable cause determinations in similar
factual scenarios. Concerns abound in the majority’s
fundamental misunderstanding of technical issues
that are pervasive throughout the subject search
warrant. Further, the Fourth Circuit’s decision is
replete with error when the technology and facts at
issue are properly analyzed and the inferences
depended upon by the majority are appropriately
placed in contact. To let the Bosyk decision stand
would be in direct contravention of this Court’s
mandate that “‘mechanical interpretation[s]’” of the
Fourth Amendment that would allow the government
to “capitalize” on such technology to invade the
reasonable expectations of privacy and security
protected by that Amendment. Carpenter v. United
States, 138 S. Ct. 2206, 2214 (2018) (quoting Kyllo v.
United States, 533 U.S. 27, 35 (2001)). The Petition
for Certiorari should be granted.

3
OPINIONS BELOW
The Fourth Circuit’s opinion (Pet. App. 1a148a) is reported at 933 F.3d 319.
JURISDICTION
The United States District Court for the
Eastern District of Virginia issued its final order on
May 7, 2018. Pet. App. 149a. On August 1, 2019, the
United States Court of Appeals for the Fourth Circuit
entered its published opinion. Pet. App. 148a. On
October 9, 2019, the Fourth Circuit denied Mr.
Bosyk’s Petition for Rehearing En Banc. Pet. App.
159a. This Court’s jurisdiction rests on 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourth Amendment states in pertinent
part “[t]he right for people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures” and continues
“no Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons
or things to be seized.” U.S. Const. amend. IV.
STATEMENT OF THE CASE
On April 8, 2016, the government sought a
warrant to search Mr. Bosyk’s residence located at
10966 Harpers Ferry Road, Purceville, Virginia
20132. Pet App. 5a. In support thereof, Homeland
Security Special Agent Kristina Eyler provided a
sworn affidavit in support of the application for a
search warrant. Pet. App. 5a-6a. In the 10 page
affidavit, less than a page of the subject affidavit

4
addresses any specific conduct or investigation
specifically tailored to Mr. Bosyk. Id.
The affidavit, in and of itself, is dedicated
largely to a description of the government’s
involvement and investigation into a website known
as “Bulletin Board A.” Pet App. 27a-31a. The
affidavit specifically alleges Bulletin Board A is a file
sharing internet based bulletin board where its users
are primarily engaged in the sharing of child
pornography images.” Pet. App. 3a. There are
actively 1,500 “approved users” posting new content
on the forum; the affidavit describes “sub forums”
which were investigated and believed to contain child
pornography; the affidavit describes, in general
terms, several posts investigated by the Department
of Justice where a member of Bulletin Board A posted
or otherwise shared a clip believed to depict child
pornography and included a thumbnail of the video
with a link for the user to access; according to the
government’s affidavit, this post and similar posts
required the input of a password in order to access the
suspected child pornography file. Pet App. 27a-31a.
The affidavit further outlines Bulletin Board A
hosts files in various formats, including a storage
service known as File Sharing Site (or “FSS”). Pet
App. 4a. Further, the affidavit states in general terms
that “law enforcement has reason to believe that
FSS’s service was used by members to store files
containing child pornography and make them
accessible to other members.”
Id. The affidavit
alleges no specific conduct by Mr. Bosyk related to the
posting, collection or sharing of child pornography on
the FSS website or network, nor does it include facts
constituting membership on Bulletin Board A. Id.

5
In the only section pertaining directly to Mr.
Bosyk, under the header “IDENTIFICTION OF THE
SUBJECT PREMISES,” the government outlines Mr.
Bosyk’s de minimis connection to a single unique
URL, to which the government alleges an IP address
identified as 208.89.176.122 was “used to download or
attempt to download file content associated with that
URL.” Id.
The affidavit does not match the subject unique
URLs outlined in para. 7 through 8 and para. 16. Pet.
App. 28a.
From the government’s receipt of
information and IP addresses from FSS, a search was
conducted related to the aforementioned IP addresses
“download or attempt to download” which was found
to be belonging to subscriber “Nik and Jennifer
Bosyk” at 10966 Harpers Ferry Road, Purceville,
Virginia 20132. Pet. App. 4a. There is no other
specific information, allegations of conduct, specific
recitations of behavior, information as to the
collection or dissemination of items believed to be
child pornography related to Mr. Bosyk. Pet. App.
30a. Crucially, the government’s affidavit supporting
the search warrant never alleges or associates Mr.
Bosyk’s IP address as being associated with Bulletin
Board A. Id.
Specifically, the affidavit fails to allege Mr.
Bosyk clicked any link in Bulletin Board A or that
Bulletin Board A was the means that his IP address
attempted to access the subject URL. Pet. App. 30a.
The affidavit fails to allege Mr. Bosyk is a registered
user of Bulletin Board A, despite the affidavit’s
general provisions related to the website having
over “1,500 users,” there is no allegation that
Mr. Bosyk ever specifically visited Bulletin Board A,

6
and the affidavit instead alleges some individual
associated with the subject IP address navigated to
URL [http://[redacted].comxu5me9erdipp/brochure.
rar.htmll.] Pet. App. 28a-31a.
The URL specifically referenced in the affidavit
by the government contains no specific identifiers or
indicators that the link contains illegal content or
child pornography. Pet App. 28a. Further, the specific
URL identified by the government as allegedly
accessed by someone using Mr. Bosyk’s IP address
differs from the URL identified in the government’s
affidavit as containing child pornography on Bulletin
Board A.1 Pet. App. 28a. The affidavit itself contains
absolutely no information on how the individual
associated with Mr. Bosyk’s IP address found or
landed on the subject URL, and failed at any point to
establish Mr. Bosyk accessed or attempted to access
the subject URL through Bulletin Board A. Pet. App.
30a. There is no evidence or accusation that the
actual content, alleged to contain child pornography,
was ever accessed, viewed, downloaded, or otherwise
utilized in any fashion by Mr. Bosyk or any person
using his IP address. Id. The affiant for the
government makes clear in the subject affidavit that
the alleged illicit content must be accessed by the use
of a password as a form of encryption, however fails
at any point in the affidavit to establish or even allege
that Mr. Bosyk or the individual using the subject IP

The government identified a specific file posted on Bulletin
Board A, believed to contain child pornography, however the
subject affidavit does not indicate or establish this file was
accessed or even attempted to be accessed by Mr. Bosyk or
someone using his IP address. The only allegation pertained to
the click of a URL. Pet. App. 4a; 30a.
1

7
address used any password, attempted to use a
password, or ever gained access to the illegal content
beyond clicking the subject URL. Pet. App. 3a; 9a.
There is, in fact, an omission in the affidavit of facts
substantiating any individual using the subject IP
address entered any password in accessing or
attempting to access the subject URL and the illicit
content. Id. The only fact established by the affidavit
supporting the search warrant was Mr. Bosyk’s IP
address, on one occasion, came upon the subject URL
that appeared on its face to be absolutely harmless.
Pet. App. 4a. There are no facts or circumstances
supporting the government’s position that the
individual using the IP address knew of the website’s
contents, that the individual went to the website for a
specific purpose or on purpose at all, or received,
downloaded or otherwise gained access to illegal child
pornography.
The final section of the subject affidavit
contains sweeping and generalized “characteristics”
of persons who collect child pornography. Pet. App.
4a-5a. Nothing in the affidavit contains any facts to
establish or support the position that Mr. Bosyk or the
person using the subject IP address is a collector of
child pornography and, indeed, the only real
accusation is a single instance of attempted access to
purported child pornography. Pet. App. 57a. The
subject search warrant was issued the same day as its
application, and on April 12, 2016 the search warrant
was executed on Mr. Bosyk’s residence. Pet. App. 5a.
A total of 14 items were removed from Mr. Bosyk’s
residence as a result of the subject search warrant,
including computers and tablets. Id.

8
Over a year later, on December 14, 2017, the
Defendant, Mr. Bosyk was charged with one count of
receipt of child pornography in violation of Title 18,
United States Code, Section 2252(a)(2) & (b)(1) and
one count of possession of child pornography in
violation of Title 18. United States Code, Section
2252(a)(4)(b) and (b)(2). Pet. App. 5a-6a. On January
3, 2018, Mr. Bosyk filed a Motion to Suppress which
was ultimately denied by the trial court, with the
district court finding the warrant was supported by
probable cause and that suppression would be
unwarranted under United States v. Leon, 468 U.S.
897 (1984). Id. On May 7, 2018, Mr. Bosyk was
convicted consistent with a plea agreement
permitting him the ability to challenge the denial of
his motion to suppress on appeal. Pet. App. 6a.
An intensely divided panel from the Fourth
Circuit affirmed the district court. Judge Diaz
writing for the majority concluded, “[w]e are sensitive
to the privacy interest at stake here. But we also
cannot ignore that many crimes are committed with
just a few clicks of a mouse—including the very
serious crime of downloading child pornography. In
cases like this, our job is to ask precisely what ‘a
single click’ reveals under the circumstances
presented, and whether that information justifies
searching a person’s most private places for evidence
of a crime.” Pet. App. 26a. In support of affirming the
district court’s denial of Mr. Bosyk’s motion to
suppress, the majority identifies the “critical fact” as
being the timing the subject URL link was posted.
Pet. App. 8a. The majority relies on the argument
advanced by the government that “the close timing
between the link’s appearance on Bulletin Board A
and the click by a user’s IP address is highly relevant:

9
because the was accessed on the same day it appeared
on Bulletin Board A, it is at least reasonable probable
that the user clicked the link having encountered it
on that website. Pet. App. 8a-9a.
As noted in the dissent’s 70 page thorough and
detailed analysis, Judge Wynn identifies the false
assumptions relied upon by the majority in finding
this “critical fact” established probable cause in the
subject search warrant. Pet. App. 41a-45a. Namely,
the government’s temporal proximity argument rests
on the “critical fact” that someone using Defendant’s
IP address clicked on the URL after the post
containing the URL appeared on Bulletin Board A—a
premise that the government repeatedly asserted in
its briefing and argument to the district court and this
Court.” Pet. App. 41a-42a. Noting this key factual
finding necessary to bolster the majority’s reliance on
this “critical fact,” the dissent captures the key fallacy
in the majority’s reliance – that the subject affidavit
fails to establish this “critical fact.” Judge Wynn
notes, “whereas the affidavit reports the time
someone using Defendant’s IP address clicked on the
File Sharing Site URL—3:23 pm on November 2,
2015—it does not report at what time that day the
post first appeared on Bulletin Board A.” Pet. App.
42a. The dissent notes, in order for the majority to
accept this “critical fact” as supportive of its position,
the majority opinion impermissibly draws inferences
on inferences to uphold the warrant. Pet. App. 44a.
(quoting Rosencranz v. United States, 356 F.2d 310,
317 (1st Cir. 1966); noting that a magistrate may not
“reach for external facts and . . . build inference upon
inference in order to create a reasonable basis for his
belief that a crime is presently being committed”).

10
In identifying the multiple flaws and issues
with the factual premise advanced by the majority,
Judge Wynn grapples with the complex technological
issues at hand and contextualizing the technological
referenced included in the subject affidavit, and those
that are omitted. The dissent importantly notes,
“there are myriad ways users can encounter and
navigate to a URL— including unintentionally,
particularly when, as here, the text of the URL
provides no indication as to the nature of the content
to which it navigates. Pet. App. 53a.
REASONS FOR GRANTING PETITION
I.

THE FOURTH CIRCUIT’S DECISION
HIGHLIGHTS
THE
SPLIT
AND
SUBSTANTIVE
DISCREPENCIES
BETWEEN THE CIRCUIT’S AS TO
PROBABLE CAUSE DETERMINATIONS
IN FACTUALLY SIMILAR CASES.

There exists an unsettled landscape and split
circuits on the application of the probable cause
standard to search warrants related to internet
related criminal investigation and activity. In part,
this is due to advancing technology and the complex
nature of applying analog constitutional standards to
a digital world. The clarity and analysis from this
Court will provide pivotal guidance and clarity to trial
court application of Fourth Amendment standards to
evolving, complex issues related to digital and
internet based fact patterns in order to ensure
individual liberty is protected and improper
government intrusion is kept at bay.

11
A.

There now exists a split between the
circuits based on the Bosyk court’s
holding which warrants a grant of
the petition.

This Court has previously recognized the
crucial aspects of ensuring Fourth Amendment
principals remain intact with the onset of new
technology. In doing so, this Court has rejected
“‘mechanical interpretation[s]’” of the Fourth
Amendment that would allow the government to
“capitalize” on such technology to invade the
reasonable expectations of privacy and security
protected by that Amendment. Carpenter v. United
States, 138 S. Ct. 2206, 2214 (2018) (quoting Kyllo v.
United States, 533 U.S. 27, 35 (2001)). In so finding,
this Court reiterated courts must, “assure []
preservation of that degree of privacy against
government that existed when the Fourth
Amendment was adopted.” Id.
This Court in
Carpenter stated, “our cases have recognized some
basic guideposts. First, that the Amendment seeks to
secure ‘the privacies of life’ against ‘arbitrary power.’
Second, and relatedly, that a central aim of the
Framers was ‘to place obstacles in the way of a too
permeating police surveillance.’” Id. (quoting Boyd v.
United States, 116 U.S. 616, 630, 6 S. Ct. 524, 29 L.
Ed. 746 (1886); and United States v. Di Re, 332 U.S.
581, 595, 68 S. Ct. 222, 92 L. Ed. 210 (1948)).
The Second, Fourth, and Ninth Circuits all
provide varying approaches and analysis to search
warrants related to online child pornography.
Despite the varying approaches by the Circuits, prior
to Bosyk the appellate court analysis focused on
particularized inquiries in search of established

12
probable cause in a subject search warrant. Further,
in direct conflict with the Fourth Circuit’s opinion in
Bosyk, the Eastern District of Virginia has produced
two diametrically opposed decisions to an identical
search warrant in the United States v. Reece, 2017
U.S. Dist. LEXIS 220176 (E.D. Va. March 1, 2017)
decision. The ability of two Court’s in the same
jurisdiction to produce such diametrically opposed
decisions on the exact same issues highlights the
importance that this Court address the issues raised
in this appeal. The foregoing splits warrant the
granting of the petition by this Court in order to settle
the mechanical, legal and technical principals to
apply when analyzing a search warrant involving
complicated internet age concepts.
As stated by
Judge Wynn in the Fourth Circuit’s order denying
Appellant’s Petition for Rehearing En Banc, “[t]he
Government in this matter leads this Court to depart
from the wisdom of our sister circuits and endorse an
unsustainable approach to evaluating evolving
technology.” Pet. App. 160a.
The Ninth Circuit in United States v. Gourde,
440 F.3d 1065 (9th Cir. 2006) (en banc), established
criteria for determining probable cause to search a
defendant’s residence in the landscape of child
pornography. The Court in Gourde found probable
cause based on facts set forth in affidavit establishing
a fair probability that the suspect “inten[ded] and
desire[d] to obtain illegal images,” Id. at 1070. The
facts relied upon included (1) the suspect paid for a
subscription to the website Lolitagirls.com that “was
a child pornography site whose primary content was
in the form of images; (2) credit card records of the
suspect revealed that in order to subscribe to the
website the suspect has to submit “his home address,

13
email address and credit card data, and he consented
to have $19.95 deducted from his credit card every
month”; and (3) the suspect “became a member [of the
website] and never looked back – his membership
ended because the FBI shut down the site” after
several months. Id. at 1070-71. In finding probable
cause existed, the Court relief upon the premise that
the defendant “could not have become a member by
accident or by a mere click of a button[.]” Id. (emphasis
added). The circumstantial evidence related to the
defendant was crucial in the Court’s determination of
probable cause and the “countervailing probability”
that the defendant innocently visited the website was
low. See United States v. Jackson, 415 F.3d 88, 94
(D.C. 2005); see also, e.g., United States v. Martin, 426
F.3d 68, 78 (2d Cir. 2005) (finding probable cause to
search a residence when electronic records revealed
that an individual with a particular email address
“joined . . . voluntarily and never cancelled his
membership” to a child pornography website and that
the user of the email address lived at the residence for
which the warrant was sought).
In contrast to Gourde, other circuits have
declined to find probable cause in instances where the
government fails to include facts that diminish the
likelihood that child pornography website was
accesses innocently or unintentionally. The Second
Circuit in United States v. Falso held a forensic
analysis of a website server believing to host child
pornography - revealing the identity of a suspect who
has been charged 18 years earlier for sexually abusing
a minor – had “either gained access of attempted to
gain access” to a child pornography website did not
establish probable cause to search his home. 544 F.3d
at 114. In authoring the Second Circuit’s opinion,

14
now-Justice Sotomayor held facts were insufficient to
find probable cause because, unlike Martin, the
search warrant affidavit included “no allegation that
[the suspect] in fact gained access to the [child
pornography] website, much less that he was a
member or subscriber of any child-pornography
website.” Id. at 124.
In coming to its holding, the Falso Court
identified several criteria that would satisfies the
“fair probability” standard accompanying a warrant
application, including that the suspect (1) took actions
“tend[ing] to negate the possibility that his
membership or subscription was unintended,” such as
being a member of multiple forums or child
pornography website memberships; (2) use of an “email address [] or screen name [] suggestive of an
interest in collecting child pornography; or (3) a
“criminal history relating to child pornography.” Id.
at 120.
Further, the government could have
“monitored the traffic of [the child pornography]
website and ascertained whether [the suspect] (and
others) actually downloaded pornography from the
site.” Id. at 124.
The Falso Court identified key factual
distinctions in search warrants related to child
pornography that the majority in Bosyk willingly
chose to ignore. In justifying the departure from
established criteria in the analysis of sufficient facts
accompanying a search warrant application, the
Bosyk court attempts to distinguish the holding from
the Falso without success. As highlighted by the
dissent in Bosyk, the majority relies on the premise
that the affidavit in Falso, “contained no allegation
that the defendant in fact gained access to a website

15
containing child pornography, nor any allegation that
images of child pornography were downloadable from
the site.” Pet. App. 17a. This differed, according to
the majority, because the Bosyk affidavit “alleged that
[Defendant]’s IP address accesses a URL” containing
child pornography.
Id.
The Bosyk majority
misinterprets the meaning behind the click of a URL
to facts establishing actual access of child
pornography. The Court below in this matter has
created a new test and criteria, different from other
circuits, in no longer requiring the government allege
actual receipt and/or accessing of illicit material, but
instead simply requiring the click of a link. The link,
which in and of itself, does not establish a suspect
actually downloaded or accessed child pornography.
Disturbingly absent from the majority’s
opinion is a reference or analysis to the precedent
established by the United States v. Coreas, 419 F.3d
151, 156 (2d Cir. 2005) (Rakoff, J.). In Coreas, the
Defendant was investigated and the affidavit
supporting an application for a search warrant issued
after the Defendant clicked on a link to subscribe to a
group with an invitation that read, “[t]his group is for
People who love kids. You can post any type of
messages you like too or any type of pics and vids you
like too. P.S. IF WE ALL WORK TOGETHER WE
WILL HAVE THE BEST GROUP ON THE NET.” Id.
at 152. In analyzing the sufficiency of probable cause
based on the single click of the Defendant, the Second
Circuit found:
Once these allegations are excised, what
is left to support the search in this case?
Simply the allegation that Coreas logged
onto the Candyman website and, by

16
clicking
a
button,
responded
affirmatively to a three-sentence
invitation (quoted supra) to join its egroup. The alleged “proclivities” of
collectors of child pornography, on which
the district court relied, are only
relevant if there is probable cause to
believe that Coreas is such a collector.
But the only evidence of such in the
excised affidavit is his mere act of
responding
affirmatively
to
the
invitation to join Candyman.
Coreas, 419 F.3d at 156. The Coreas court focused on
the same factual deficiencies contained in the instant
search warrant, related to the boilerplate information
describing “collectors” of child pornography, without
any factual contentions or facts related to the
Defendant actually being a collector. Like the instant
case, the only facts relied upon in the issuance of the
search warrant, and seemingly in the investigation of
the Defendant altogether, was the click of one URL
without evidence of collection.
The Coreas court went on:
In the view of this panel, that does not
remotely satisfy Fourth Amendment
standards. We had thought it was well
settled that a “person’s mere propinquity
to others independently suspected of
criminal activity does not, without more,
give rise to probable cause to search that
person.” All that Coreas did, so far as the
excised affidavit shows, was to respond
to a three-sentence suggestive invitation
from Candyman to join its e-group by

17
clicking a button that added his e-mail
address to its roll of members but in no
way committed him to in any of its
various activities, lawful or unlawful, or
even to receiving its e-mails (which he
had the option to refuse from the outset).
The notion that, by this act of clicking a
button, he provided probable cause for
the police to enter his private dwelling
and rummage through various of his
personal effects seems utterly repellent
to core purposes of the Fourth
Amendment. (Emphasis added).
Id. at 156.
The instant case rests on the same proposition
as the conclusion reached by the Coreas court – the
single click on a URL, in and of itself, is insufficient
as a matter of law to establish probable cause to a
degree justifying the issuance of a search warrant of
a person’s premises. Even in Coreas, the Defendant
had an idea that the link or content may be illicit or
inappropriate – however, that fact standing alone
does not establish the government’s burden in
establishing probable cause to search for child
pornography.2
In comparing the obvious invitation to access
illicit content in Coreas, the instant case contains no
causal connection between the knowing actions of Mr.
Bosyk, or some individual, in attempting to access the
subject content on Bulletin Board A. Here, the motion
The Second Circuit noted the invitation on its face was
“suggestive,” however, the Court focused on the actions taken by
the Defendant pursuant to the affidavit – simply clicking on a
link supplied in an email.

2

18
to suppress should have been granted on remarkably
similar grounds as the Reece and Coreas courts. The
subject affidavit was issued predicated on the scant
facts contained in the affidavit related to Mr. Bosyk’s
URL attempting to access a URL that contained
password protected alleged illicit content. Pet. App.
3a. This, in and of itself, fails to satisfy the probable
cause and constitutes sufficient basis for grant of this
petition. The majority’s failure to consider the
precedent established by its sister circuit constitutes
a willful omission in order to come to the holding
affirming the trial court.
B.

The Eastern District of Virginia
itself is split on the appropriate
analysis and criteria for the trial
court’s consideration of identical
search warrants that further
supports the grant of the petition in
this case.

The Eastern District of Virginia itself has
generated a split in application of Fourth Amendment
standards to the same affidavit at issue in Bosyk,
identifying the further need for this Court to grant the
instant petition to establish uniform analysis of the
increasing volume of internet centered search
warrants. In United States v. Reece, the Court
granted defendant’s motion to suppress an analogous
search warrant to the one at issue in this petition,
finding:
In light of the totality of the
circumstance
and
Special
Agent
Julsrud’s knowledge that there was no
evidence that a password was entered,
this information must be deemed

19
recklessly omitted. The omission likely
contributed to a finding of probable
cause, and the practice of omitting
such essential information suggests
systematic flaws in how these sensitive
investigations are undertaken.
2017 U.S. Dist. LEXIS 220176 at 30. The Reece Court
identified the key functional concern with adopting
the Bosyk court’s position of accepting inference upon
inference to find probable cause in the subject search
warrant. The majority’s analysis below rewards the
government’s willful omission of key facts from an
affidavit in order to obtain the issuance of a search
warrant to invade a citizens dwelling and seize
property. This is a stark departure from both the
safeguards intended from the Fourth Amendment
itself and the other circuits that have analyzed this
issue under similar fact patterns.
In sum, the decision below represents a shift
and deepening division between the circuits on crucial
questions related to the Fourth Amendment.
Although the majority in Bosyk attempts to
distinguish the facts from Falso, its holding is nothing
more than a deviation and split from the other circuits
that have taken up this issue. Such a pivotal subject
matter in everyday practice and a subject area that
impacts the lives of countless citizens daily, the
functional misapplication of the technical and legal
principals in Bosyk cannot be ignored and the
precedent cannot stand.

20
II.

THIS
CASE
RAISES
ISSUES
CONSIDERABLE IMPORTANCE.

OF

The importance of this case and issues raised
herein cannot be overstated. As identified by the
majority below, the privacy interests at stake here are
of crucial importance to American jurisprudence
moving forward. Pet. App. 26a. However, even more
important than the privacy interests identified by the
majority, as the dissent proclaims, “[t]his case
presents a textbook example of why we must
guard against the slow whittling away of
constitutional rights, particularly as we apply
constitutional rights adopted in an analog era
to the new challenges of the digital age.” Pet.
App. 27a. (Emphasis added).
The Fourth Amendment itself represents the
Framers’ “response to the reviled ‘general warrants’
and ‘writs of assistance’ of the colonial era, which
allowed British officers to rummage through homes in
an unrestrained search for evidence of criminal
activity.” Riley v. California, 573 U.S. 373, 403 (2014).
This Court has routinely rejected “‘mechanical
interpretation[s]’” of the Fourth Amendment that
would allow the government to “capitalize” on such
technology to invade the reasonable expectations of
privacy and security protected by that Amendment.
Carpenter v. United States, 138 S. Ct. 2206, 2214
(2018) (quoting Kyllo v. United States, 533 U.S. 27, 35
(2001)). When confronted with new technology, this
Court confirmed courts must seek to “assure []
preservation of that degree of privacy against
government that existed when the Fourth
Amendment was adopted.” Id. (quoting Kyllo, 533
U.S. at 34). “Technology is both a threat and a

21
promise.” Vieth v. Jubelirer, 541 U.S. 267, 312 (2004)
(Kennedy, J., concurring in the judgment). Although
new technologies can foreclose certain avenues for the
government to show probable cause—such as through
geographic proximity—”new technologies [also] may
produce new methods” of demonstrating probable
cause. Id. at 312–13.
As the Court below noted, cases with technical
issues similar to the facts at hand in this petition
warrant significant input from litigants and others to
explain technical issues and nuances. “This is why
courts depend on amici curiae and, more importantly,
the parties themselves, to explain technical issues in
cases like this one, and to explain them well.” See, e.g.,
In re Application of U.S. for an Order Directing a
Provider of Elec. Commc’n Serv. to Disclose Records to
Gov’t, 620 F.3d 304, 306 n.1 (3d Cir. 2010) (thanking
a group of amici led by the Electronic Frontier
Foundation, who provided amici curiae below, for
participating in a case involving an ex parte
application by the government and an issue of first
impression related to the Stored Communications Act
and cell site location information). Pet. App. 163a.
This case presents a unique and compelling
vehicle to bring the Fourth Circuit and other courts in
line with this Court’s precedents surrounding the
Fourth Amendment and advancing technological
influence on everyday life. Undoubtedly evolving
technology will continually impact and question legal
standing precedent at any given moment – and the
goal, as stated by this Court, is to continually
ensure that new technology does not hamper the
Fourth Amendment protections and privacy concerns
that existed when the Fourth Amendment was

22
adopted. See Kyllo, 533 U.S. at 34. This case provides
an outstanding opportunity to take existing
constitutional principles and apply them to the
unique technological issues in order to provide clarify
to trial and appellate courts forced to confront these
issues on a daily basis. The issue presented is stark
and clear: whether the single click of a URL link to
child pornography by someone using an individual’s
IP address can provide probable cause to support a
search warrant without any additional substantive
factual information related to the suspect. In the
instant case, like other court’s referenced herein
analyzing Fourth Amendment principles related to
child pornography search warrants, there is little to
no dispute on the content of the subject affidavit and
what is and is not included by the affiant.
The Court dealt with a similar dilemma in
addressing the advanced ability for the government to
operate surveillance on individuals through GPS
monitoring of individual cellular phones.
In
Carpenter v. United States, 138 S. Ct. 2206 (2018), the
Court dealt with “how to apply the Fourth
Amendment to a new phenomenon: the ability to
chronicle a person’s past movements through the
record of his cell phone signals.” Id. at 2216. In
recognizing the advancements of technology and the
needs to constantly review and analyze the applicable
standards of reviewing Fourth Amendment conduct,
the Court opined, “[a]fter all, when Smith was decided
in 1979, few could have imagined a society in which
a phone goes wherever its owner goes, conveying to
the wireless carrier not just dialed digits, but a
detailed and comprehensive record of the person’s
movements.” Id. at 2217. Similar to the concepts
outlined by Justice Sotomayor above, nearly identical

23
principles are at issue in the instant petition. Few
could imagine the advancements in technology that
would constitute a world wide web with nearly every
available video, image, webpage, or piece of
information available with a simple search and click
of a mouse from the comfort of one’s home. With these
technological luxuries comes the gigantic risk, at
issue here, of the government’s ability to use these
technological advancements to abuse, infringe, and
otherwise trample of individual constitutional rights
and the privacy each citizen enjoys.
In short, the dissent below identifies the
tremendous importance of the issues at hand in this
appeal and the permeating error committed by the
majority, stating, “our ‘judicial duty’ is to guard
against infringements on our constitutional rights.
Unfortunately, the majority’s ‘judicial choice’ to use
layers of unsupported inferences that do not
meaningfully grapple with the technology at issue
diminishes the constitutional rights of those who use
the Internet—I say woe unto all users of the Internet.”
Pet. App. 103a.
III.

THE FOURTH CIRCUIT ERRED IN
RULING
ON
THE
QUESTION
PRESENTED IN THIS PETITION.

Certiorari should be granted in this case
because, on the question at issue in this petition, the
Fourth Circuit erred. A clear reading of the Fourth
Amendment and the principles therein contained
render the majority’s opinion below clear error and
this Court must overturn the precedent created by the
Bosyk court. The majority’s steadfast desire to ignore
guidance from sister circuits, precedent from this
Court, and the facts of the case are egregious errors

24
that cannot go ignored. With significant individual
privacy and liberty issues at stake, the petition should
be granted.
First and crucially, the majority below
demonstrated a basic misunderstanding of facts
material to the case and crucial to deciding the case
on the merits versus mere speculation. The “critical
fact” in the majority’s analysis, and perpetrated
repeatedly by the government at the district court and
in the Fourth Circuit, was the alleged temporal
connection between the posting of the link in Bulletin
Board A and the URL being clicked by someone
associated with Mr. Bosyk’s IP address. Pet. App.
41a. Further, the government asserts – and the
majority accepted – that the subject link “originated
on a dark web forum dedicated to sharing sexual
abuse content. Pet. App. 3a; 41a. The foregoing
assumptions accepted by the majority are false and
verifiably unsupported by the content of the subject
affidavit in support of the search warrant.
The temporal proximity argument put forth by
the majority – and the primary basis for the court
affirming the trial court – is without support from the
plain language of the affidavit. Indeed, if the subject
URL was clicked before being posted on Bulletin
Board A, then the person using the Defendant’s IP
address did not click the link on Bulletin Board A. As
highlighted by Judge Wynn below, whereas the
affidavit reports the time someone using Defendant’s
IP address clicked on the File Sharing Site URL—3:23
pm on November 2, 2015—it does not report at what
time that day the post first appeared on Bulletin
Board A. Pet. App. 42a. Rather, it simply states that
the post appeared on Bulletin Board A sometime on

25
November 2, 2015. Id. Crucially, the post could have
appeared on Bulletin Board A anytime within a
window of 8 hours, 37 minutes after someone using
Defendant’s IP address downloaded or attempted to
download the child pornography from File Sharing
Site. Id. What was missing from the subject affidavit
– and accepted as fact by the majority below at the
insistence of the government – was any factual
support for the premise that the subject URL link was
posted on Bulletin Board A before being clicked by
someone using the defendant’s IP address.
The dissent below points out the government’s
repeated argument and explanation of the sequence
of events related to the link posting in its brief at all
levels, which finds no direct support in the facts set
forth in the warrant application at issue. Pet. App.
43a. The inability to establish by discernable facts
included in the subject affidavit are fatal to the
majority’s reliance on the “critical fact” which is the
temporal proximity argument. The majority even
goes so far as to consider this assumption as fact,
instead of the unsubstantiated inference that it is.
Pet. App. 8a-9a.3 As stated in See Rosencranz v.
United States, 356 F.2d 310, 317 (1st Cir. 1966), a
magistrate may not reach for external facts
and . . . build inference upon inference in order to
create a reasonable basis for his belief that a crime is
presently being committed.”
With the majority’s reliance on the temporal
timing fact misplaced as explained above, the
majority further fails to appreciate the complexity of
Indeed, the majority asserts, “[t]hat chronology of the URL click
following the Bulletin Board A post] sets in motion the series of
plausible inferences described above.” Pet. App. 10a-11a; 44a.

3

26
the technical nuances at hand and the facts in the
record. With the click of a URL at issue, the majority
seemingly overlooks or misunderstands how URLs
work, as the Bosyk court concluded, “the randomness
of the URL helps the government, as internet users
aren’t likely to type a truly random string of
characters into their web browser by mistake.” Pet.
App. 15a. This concept that the URL was typed, of
course, does not support the probable cause theory
advanced by the government and relied upon by the
majority that the link was intentionally clicked in
Bulletin Board A because the individual believed it
led to child pornography.
Fundamentally, the
majority’s examples and factual assumptions
demonstrate a fundamental misunderstanding of
URLs, their purpose, and the content behind them.
As the dissent articulates:
[T]here are myriad ways users can
encounter and navigate to a URL—
including unintentionally, particularly
when, as here, the text of the URL
provides no indication as to the nature of
the content to which it navigates.
Accordingly, even if the Bulletin Board
A post preceded the attempt by someone
using Defendant’s IP address to
download child pornography from File
Sharing Site—again, a fact not
established by the affidavit—there are
potentially millions of paths through
which someone using Defendant’s IP
address could have encountered and
navigated to the File Sharing Site URL
hosting the child pornography other
than through Bulletin Board A. Put

27
simply, the affidavit does not establish
the probability of the single sequence of
events upon which the majority opinion
relies—that someone using Defendant’s
IP address navigated to the File Sharing
Site URL after encountering it on
Bulletin Board A. See Figure B at 54a
(contrasting the majority opinion’s
myopic focus on one pathway between
Defendant’s IP address and the File
Sharing Site URL with the myriad
pathways, only some of which are
reflected by the dashed lines, consistent
with the affidavit). Pet. App. 53a.4
The foregoing argument and the detailed
analysis included in the dissent below establish the
majority ignored the realities of the facts and
information included in the subject search warrant in
order to affirm the trial court. In doing so, the
majority has created precedent with disturbing and
far-reaching consequences.
Second, the majority relies on the generalized
and boilerplate language included in the affidavit in
support of their holding. In large part, the majority
ignores the special agent affiant’s failure to follow the
“go-by” language provided by Homeland Security in
preparing the subject affidavit. For issuance of a
search warrant, the Fourth Amendment permits
courts to rely on “the affiant-officer’s experience” and
knowledge regarding given crimes only when the
affidavit contains sufficient evidence linking an
See Pet. App. 54a-56a for a detailed analysis of the
mathematical probabilities that relate to the majority’s “crucial
fact” as to the click timing sequence explained herein.

4

28
individual to that crime. Wayne R. LaFave, 2 Search
& Seizure § 3.7(d) (5th ed. 2018).5
In the instant case, the special agent’s directive
in conducting the investigation and issuing the
subject search warrant directed the boilerplate
“collector” language be included in the affidavit be
included “ONLY if” the affiant can “tie [collector]
characteristics to the specific offender. Pet. App. 59a;
quoting United States v. Reece, No. 2:16cr104, 2017
U.S. Dist. LEXIS 220176, at 22 (E.D.Va. Mar. 1,
2017); an Eastern District of Virginia case that dealt
with the identical investigation and search warrant).
The special agent affiant in this case chose to include
the boilerplate language without particularized facts
related to the subject and collecting activity, further
calling into question the majority’s reliance on this
language as supporting a probable cause
determination. Pet. App. 13a; 59a. The subject
boilerplate language was not only misleading to the
magistrate below issuing the search warrant, but also
mislead the majority into ignoring the facts in the
record in favor of pure speculation.
The Reece court, having analyzed the instant
issue regarding the search warrant in March of 2017,
is not factually distinguishable from the instant case.
In fact, the Reece affidavit established the posting of
the subject link in Bulletin Board A before it was
clicked by the subject’s IP address. Pet. App. 64a;
Reece, No. 2:16cr104, 2017 U.S. Dist. LEXIS 220176.
See United States v. Underwood, 725 F.3d 1076, 1082–83 (9th
Cir. 2013), holding when individualized information connecting
an individual to a crime is absent, an affiant—much less a
court—cannot rely on generalized, boilerplate assumptions
about criminal habits.

5

29
Trying to distinguish the Reece facts from the Bosyk
affidavit, the government and the majority
continually rely on the false temporal timing
argument – as explored herein – in support of their
position and ignoring the analysis put forth in Reece.
This logic is fallacious and contrary to a correct
reading of the two search warrants, as the Reece
affidavit establishes the very “critical fact” the Bosyk
affidavit does not – that the subject URL was posted
on Bulletin Board A before it was accessed by the
suspect. Pet. App. 64a-65a.
Authority from other circuits support the Reece
court’s decision and highlights the error of the Bosyk
court. Related to the majority’s reliance below on the
temporal proximity and “collector” language
inclusion, the court in Richardson contradicted this
misplaced reliance. United States v. Richardson, 607
F.3d 357, 370 (4th Cir. 2010). The court highlighted:
Although “there is no question that time
is a crucial element of probable cause,”
the existence of probable cause cannot be
determined “by simply counting the
number of days between the occurrence
of the facts supplied and the issuance of
the affidavit,” Instead, we “look to all the
facts and circumstances of the case,
including the nature of the unlawful
activity alleged, the length of the
activity, and the nature of the property
to be seized.” In the context of child
pornography cases, courts have largely
concluded that a delay--even a
substantial delay--between distribution
and the issuance of a search warrant

30
does not render the underlying
information stale. This consensus
rests on the widespread view among
the courts--in accord with Agent
White’s affidavit--that “collectors and
distributors of child pornography value
their sexually explicit materials highly,
‘rarely if ever’ dispose of such material,
and store it ‘for long periods’ in a secure
place, typically in their homes.”
Id. at 370 (quoting United States v. Johnson, 461 F.2d
285, 287 (10th Cir. 1972)); see also United States v.
Farmer, 370 F.3d 435, 439 (4th Cir. 2004) (Emphasis
added). None of the criteria highlighted by the
Richardson court was present in the Bosyk affidavit,
and the inferential leaps from the court below are
simply without support.6
Third, the majority demonstrated an
unfortunate departure from established precedent
from sister circuits and a deviation from the
principles perpetuated by this Court in affirming the
trial court.7 While advancing and evolving technology
create unique problems for a court to address in a
Fourth Amendment context, other circuits have
grappled with internet age issues in similar if not
identical fact patterns and carved out criteria and
precedent that was ignored by the Bosyk majority.

6 See also United States v. Raymonda, 780 F.3d 105, 114-15 (2d
Cir. 2015); establishing delineated criteria for a court’s
consideration of whether an individual should be considered a
“collector” of child pornography; see also United States v.
Riccardi, 405 F.3d 852, 861 (10th Cir. 2005).
7

See also Section I herein.

31
As previously addressed herein, the Ninth
Circuit in Gourde established delineated criteria in
finding probable cause in a search warrant related to
internet based child pornography. United States v.
Gourde, 440 F.3d 1065 (9th Cir. 2006) (en banc).
Namely, the holding that supporting facts including
paid membership, the suspect’s email address
associated with the website, and continued
membership up and until the subject website was
shut down established sufficient probable cause to
uphold the validity of the search warrant. Id. at 107071. Crucially, the Court determined a crucial factor
was the membership of the subject to the group – and
the fact this did not occur by the mere clicking of a
button. Id. In comparison, the Bosyk court completely
ignored this established criteria.8
Finally, the majority’s reference to documents
and files, allegedly downloaded from the link on
Bulletin Board A, being recovered from the hard drive
obtained from Mr. Bosyk’s home point to a propensity
to justify the inferences relied upon by the majority in
coming to their conclusion. Pet. App. 31a. While the
majority and dissent agree this fact has no bearing on
the determination of probable cause in the subject
search warrant, this fact pointed out by the majority
in their holding points to a disturbing reliance on the
“ends justifying the means.” McColley v. Cty. of
Rensselaer, 740 F.3d 817, 841 n.3 (2d Cir. 2014)
(“Probable cause is not backward looking. Thus, the
results of a search are immaterial to a determination
of whether the search was supported by probable
cause.”); United States v. Sims, 553 F.3d 580, 583 (7th
Cir. 2009) (“[T]here is a practical reason for requiring
8

See also the United States v. Falso analysis included herein.

32
warrants where feasible: it forces the police to make
a record before the search, rather than allowing them
to conduct the search without prior investigation in
the expectation that if the search is fruitful a
rationalization for it will not be difficult to construct,
working backwards.” (citation omitted)). While it is
well-settled law that the Fourth Amendment analysis
is not backward looking as to the success of the
search, the majority below seems to rely upon this as
to justify upholding the search. The petition for a writ
of certiorari should be granted.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
WILLIAM D. ASHWELL
VSB No. 83131
MARK B. WILLIAMS & ASSOCIATES, PLC
27 Culpeper Street
Warrenton, Virginia 20186
Telephone: 540-347-6595
Facsimile: 540-349-8579
wdashwell@mbwalaw.com
Counsel for Nikolai Bosyk
JANUARY 7, 2020

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Published Opinion of
The United States Court of Appeals
For the Fourth Circuit,
With Attachments,
entered August 1, 2019 .................................. 1a
Attachments:
Todd Spangler, ‘Avengers: Endgame’
Trailer Smashes 24-Hour Video Views
Record, Variety (Dec. 8, 2018, 11:02
a.m.), https://variety.com/2018/digital/
news/avengers-endgame-record-trailerworldwide-24-hour-views-1203085074...... 104a
Chloe Taylor, A Japanese Billionaire
Now Has Most Retweeted Tweet Ever
After Offering a $923,000 Prize, CNBC
(Jan. 7, 2019), https://www.cnbc.com/
2019/01/07/yusaku-maezawa-has-mostretweeted-tweet-ever-after-offering-923
000.html ..................................................... 107a
Abby Ohlheiser, I Can’t Believe This Is
Why People Are Tweeting Fake Celebrity
News, Wash. Post (Oct. 18, 2018),
https://www.washingtonpost.com/techno
logy/2018/10/18/i-cant-believe-this-is-whypeople-are-tweeting-fake-celebrity-news/
?utm_term=.e9c493b7234d ........................ 109a

iia
Adam Levin, The 5 Deadly Clicks:
The Links You Should Never Touch,
ABC
News
(Oct.
6,
2013),
https://abcnews.go.com/Business/linksclick/story?id=20461918............................. 116a
Quinn Norton, Phishing Is the Internet’s
Most Successful Con, Atlantic (Sept.
12, 2018), https://www.theatlantic.com/
technology/archive/2018/09/phishing-isthe-internets-most-successful-con/569920 .. 122a
Jonnelle Marte, Can You Tell the
Real TurboTax Email from the
Scam?, Wash. Post (Mar. 1, 2016),
https://www.washingtonpost.com/news/
get-there/wp/2016/03/01/can-you-tellwhich-of-these-turbotax-emails-is-realand-which-one-is-from-a-scam-artist/?
utm_term=.7ba2976355cb ......................... 131a
Compound Probability, Investopedia (Apr.
29, 2019), http://www.investopedia.com/
terms/c/compound-probability.asp ............ 134a
Viruses Frame PC Owners for Child
Porn, CBS News (Nov. 9, 2009, 12:49
PM),
https://www.cbsnews.com/news/
viruses-frame-pc-owners-for-child-porn ... 138A
Robert Siciliano, Why Is Child
Pornography on Your PC?, HuffPost (Dec.
6, 2017), https://www.huffpost.com/entry/
why-is-child-pornography_b_356539? ....... 145a

iiia
Judgment of
The United States Court of Appeals
For the Fourth Circuit
entered August 1, 2019 .............................. 148a
Judgment of
The United States District Court
For the Eastern District of Virginia
entered May 7, 2018 .................................. 149a
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing En Banc
entered October 9, 2019 ............................. 159a

1a
[ENTERED: August 1, 2019]
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4302
UNITED STATES OF AMERICA,
Plaintiff − Appellee,
v.
NIKOLAI BOSYK,
Defendant – Appellant.
-----------------------------ELECTRONIC FRONTIER FOUNDATION,
Amicus Supporting Appellant.
Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. Leonie M.
Brinkema, District Judge. (1:17-cr-00302-LMB-1)
Argued: January 31, 2019

Decided: August 1, 2019

Before WYNN, DIAZ, and RICHARDSON, Circuit
Judges.

2a
Affirmed by published opinion. Judge Diaz wrote the
majority opinion, in which Judge Richardson joined.
Judge Wynn wrote a dissenting opinion.
ARGUED:
William Davis Ashwell, MARK B.
WILLIAMS & ASSOCIATES, PLC, Warrenton,
Virginia, for Appellant. Fletcher Nathaniel Smith
III, OFFICE OF THE UNITED STATES
ATTORNEY, Alexandria, Virginia, for Appellee.
Stephanie Lacambra, ELECTRONIC FRONTIER
FOUNDATION, San Francisco, California, for
Amicus Curiae. ON BRIEF: G. Zachary Terwilliger,
United States Attorney, Lauren Britsch, Trial
Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, Alexandria, Virginia, for Appellee.
Sophia Cope, Andrew Crocker, Aaron Mackey,
ELECTRONIC FRONTIER FOUNDATION, San
Francisco, California, for Amicus Curiae.
DIAZ, Circuit Judge:
The basic facts are these. One day, a link
appeared on a secretive online message board.
Accompanying the link was a message describing its
contents unmistakably as child pornography, as well
as numerous thumbnail images depicting sexual
molestation of a female toddler. And if you clicked the
link, it took you, as promised, to multiple videos of
child pornography.
On that same day, an IP address associated
with Nikolai Bosyk’s house accessed the link. Based
on these facts, the government obtained a warrant to
search Bosyk’s home for evidence of child
pornography. The primary question before us is

3a
whether that warrant was supported by probable
cause. Concluding that it was, we affirm.
I.
In September 2015, a Department of Homeland
Security cybercrimes unit began investigating an
online message board known as “Bulletin Board A.”
This board was “dedicated to the advertisement,
distribution and production of child pornography,”
and had more than 1,500 “approved users.” J.A. 163–
64. The site contained several forums and subforums
in which members could post and view various genres
of child pornography.1
One such posting occurred on November 2,
2015. That day, an unidentified member of Bulletin
Board A posted a message in the board’s “Pre-teen
Hardcore” section describing in graphic terms the
contents of four videos. J.A. 164. Below the message
were three sets of 20 video thumbnail images
depicting “juvenile females engaged in sexual acts.”
Id. And below those images was a URL link—an
apparently random string of numbers and letters.
The post also contained a password “which
users could input to access and open the content of the
file associated with that unique URL.” J.A. 165.
Using
this
password,
federal
investigators
downloaded and viewed an encrypted file, which
showed a man molesting a young girl, apparently a
In related cases, the government has explained that
Bulletin Board A is a dark web forum, accessible only through
an anonymous web browser that users must download. See
United States v. Reece, No. 2:16cr104, 2017 U.S. Dist. LEXIS
220176, at *4 (E.D. Va. Mar. 1, 2017).
1

4a
toddler. Three other videos associated with the link
also contained child pornography.
This link and its contents were hosted by a
separate filesharing site (referred to as “the File
Sharing Site”). This site allows users to upload and
share various media, and hosts plenty of lawful
content. But the government also knew that Bulletin
Board A’s members used the File Sharing Site (and
similar services) to share sexually explicit content
with one another. So, in December 2015, investigators
subpoenaed the File Sharing Site for business records
related to web pages containing illicit material. In
response, the company produced records showing that
on November 2, 2015, at 3:23 p.m., an IP address “was
used to download or attempt to download file content
associated with” the URL containing the four videos.
J.A. 167–68. In other words, the records showed that
on the same day that the post and link appeared on
Bulletin Board A, someone using this IP address
clicked that same link.
By subpoenaing a broadband provider,
investigators connected the IP address to Bosyk’s
home in Purcellville, Virginia. In April 2016, the
government applied for a warrant to search Bosyk’s
house. It supported the application with an affidavit
sworn by DHS Special Agent Kristina Eyler, which
recounted the facts above.
Eyler’s affidavit also described several
“characteristics of individuals who possess or access
with intent to view child pornography.” J.A. 168.
Such people, she said, may collect explicit materials
and use them for arousal or to groom victims. They
often store these materials electronically “for several

5a
years,” and frequently keep them nearby for ease of
viewing. J.A. 169. Some individuals have been known
to download, view, then delete child pornography
from their electronic devices on a cyclical basis. But
“evidence of such activity, including deleted child
pornography, often can be located on these
individuals’ computers and digital devices through
the use of forensic tools.” J.A. 169.
Based on this information, Agent Eyler
submitted that there was probable cause to suspect
violations of federal laws against distributing,
receiving, possessing, and accessing with intent to
view child pornography, see 18 U.S.C. §§ 2252, 2252A,
and that evidence of those suspected crimes would be
found at Bosyk’s address. A magistrate judge agreed,
issuing a warrant that allowed the search of Bosyk’s
residence and the seizure of computers, digital
devices, storage media, and related evidence.
Investigators executed the warrant four days
later (on April 12, 2016) and recovered devices
containing thousands of images and videos of child
pornography, including the particular video described
in the search warrant affidavit.2 Agents also found
evidence that Bosyk had used an anonymous web
browser to access dark-web child pornography
websites, including Bulletin Board A.
Bosyk was later indicted on child pornography
charges. He moved to suppress the evidence obtained
under the warrant and sought a hearing under
As for the (undisputed) results of the search, our friend
notes that what was found has no bearing on the question of
probable cause.
See Dissenting Op. at 31-32.
But our
substantive analysis is entirely faithful to that principle.
2

6a
Franks v. Delaware, 438 U.S. 154 (1978), to show that
Eyler had misled the magistrate judge. The district
court denied the motion, holding that the warrant was
supported by probable cause and that, in any event,
suppression would be unwarranted.3 Bosyk later
pleaded guilty to one count of receiving child
pornography and was sentenced to five years in
prison.
II.
Having reserved the right to appeal the denial
of his motion to suppress, Bosyk asks us to reverse
that ruling and vacate his conviction. He raises three
Our dissenting colleague posits that the government
duped the district court into ignoring the important distinction
between Bulletin Board A and the File Sharing Site, and into
presuming that Bosyk’s IP address accessed the URL after
(rather than before) its posting on Bulletin Board A. See
Dissenting Op. at 32-35. But we see little indication that the
district court misunderstood the facts. Rather, we think the
court’s oral ruling as transcribed can be read to reflect a proper
understanding both of the chronology of events and of the
relationship between Bulletin Board A and the File Sharing Site.
Regarding the timing, the court said that the URL was clicked
“the same day” that the posting appeared on Bulletin Board A,
J.A. 76, which is perfectly consistent with the affidavit. As for
the distinction between the two websites, the court noted that on
the day in question, “the IP address that is linked to a computer
in the defendant’s home . . . attempts to or at least shows an
interest in that particular site.” J.A. 76–77. It’s admittedly
unclear whether “that particular site” refers (incorrectly) to
Bulletin Board A or (correctly) to the File Sharing Site. But the
preceding sentence includes references to both the “posting” and
“the URL that is linked,” so both readings are possible. J.A. 76.
Furthermore, the district court later noted the delay “between
the time of that contact with the URL” and the warrant’s
issuance, J.A. 77, suggesting the court understood that Bosyk
accessed the URL and not (necessarily) Bulletin Board A.
3

7a
arguments. First, he argues that the search of his
home violated the Fourth Amendment as it wasn’t
supported by probable cause. Second, he contends
that even if the government had cause to search his
home in November 2015 (when the post appeared on
Bulletin Board A and the link was accessed), it didn’t
in April 2016 when it actually obtained and executed
the warrant. Finally, Bosyk argues that suppression
is warranted under United States v. Leon, 468 U.S.
897 (1984), because Eyler’s affidavit was misleading
and lacked any indicia of probable cause.
When considering a district court’s denial of a
suppression motion, we review its legal conclusions de
novo, viewing the evidence in the light most favorable
to the government. United States v. Kolsuz, 890 F.3d
133, 141–42 (4th Cir. 2018). For reasons that follow,
we find no error.
III.
Before searching a home, the government
generally must obtain a warrant, supported by
probable cause. Fernandez v. California, 571 U.S.
292, 298 (2014); see U.S. Const. amend. IV. Probable
cause requires only “a fair probability,” and not a
prima facie showing, that “contraband or evidence of
a crime will be found in a particular place.” Illinois v.
Gates, 462 U.S. 213, 238 (1983). Probable cause is
therefore “not a high bar.” District of Columbia v.
Wesby, 138 S. Ct. 577, 586 (2018) (quoting Kaley v.
United States, 571 U.S. 320, 338 (2014)). And officers
need not “rule out a suspect’s innocent explanation for
suspicious facts” to obtain a warrant. Id. at 588.
Since a magistrate judge issued the challenged
warrant, our task isn’t to assess probable cause de

8a
novo. Gates, 462 U.S. at 236. Instead, we apply a
deferential and pragmatic standard to determine
whether the judge “had a substantial basis for
concluding that a search would uncover evidence of
wrongdoing.” Gates, 462 U.S. at 236 (alterations and
internal quotation marks omitted). In doing so, we
consider only the facts presented in the warrant
application. United States v. Lyles, 910 F.3d 787, 791
(4th Cir. 2018).
A.
Bosyk and his amicus (the Electronic Frontier
Foundation, or “EFF”) argue that the facts recounted
in Agent Eyler’s affidavit didn’t give the government
probable cause to search Bosyk’s house for evidence of
child pornography. They argue that the government
obtained its warrant based on a “single click” of a
URL, which, they say, cannot support a search of
somebody’s home. We disagree. The facts in the
affidavit support a reasonable inference that someone
using Bosyk’s IP address clicked the link knowing
that it contained child pornography. This in turn
makes it fairly probable that criminal evidence would
have been found at Bosyk’s address.
The “critical fact” in this case, as the district
court observed, is the timing. J.A. 76. On the very day
that someone clicked the link, it appeared on a
website whose purpose was to advertise and
distribute child pornography to its limited
membership. And it appeared in a post containing
text and images that unequivocally identified its
contents as child pornography. The close timing
between the link’s appearance on Bulletin Board A
and the click by a user’s IP address is highly relevant:

9a
because the link was accessed on the same day it
appeared on Bulletin Board A, it is at least reasonably
probable that the user clicked the link having
encountered it on that website.
With this fair assumption, several inferences
drop into place to support the magistrate judge’s
decision to issue the warrant. If one assumes, given
the close timing, that the user accessed the link after
seeing it on Bulletin Board A, it’s fair to conclude that
the user also knew it contained child pornography, as
that much was explicit from the posting. On top of
that, one can fairly conclude that the same person
typed the password posted on Bulletin Board A,
downloaded the content, and viewed the video
contained at that URL. For why else would someone
who had seen the pornographic stills and read the
description on Bulletin Board A click the link if not to
access its contents? Thus, if we suppose that someone
accessed the link through Bulletin Board A, it’s fairly
probable that the same person downloaded or viewed
child-pornographic images.
Recall that the magistrate judge knew someone
using Bosyk’s home IP address had clicked the link.
Given that fact—and the permissible inferences
described above—we think it was fairly probable that
child pornography would be found on computers or
other devices within Bosyk’s property. And because
child pornography constitutes contraband or evidence
of a crime, this is all that was needed for probable
cause to search Bosyk’s house.
See 18 U.S.C.
§§ 2252(a)(4), 2252A(a)(5) (crime to knowingly possess
or access with intent to view any video depicting child
pornography); see also, e.g., United States v.
Contreras, 905 F.3d 853, 858 (5th Cir. 2018) (probable

10a
cause to search house based on two child pornography
images uploaded to messaging app); United States v.
Richardson, 607 F.3d 357, 361, 371 (4th Cir. 2010)
(same, based on two emailed images); United States v.
Vosburgh, 602 F.3d 512, 526–28 (3d Cir. 2010) (same,
based on attempt to download one video).
We acknowledge that the probability of this
particular version of events depends on the link being
clicked after it was posted on Bulletin Board A. The
affidavit doesn’t specify what time on November 2,
2015, the post appeared on Bulletin Board A, meaning
that the link (which was accessed at 3:23 p.m. that
day) could have been clicked before its posting.4
This ambiguity, however, is not as fatal to
probable cause as our dissenting colleague suggests.
As his own analysis shows, it was almost twice as
likely that the post preceded the click as the other way
around. See Dissenting Op. at 43 (Figure A) (showing
more than 64% probability that link was clicked after
being posted on Bulletin Board A). Thus, the much
likelier scenario based on the attested facts was that
the link was posted and then accessed hours later
(perhaps even sooner) by Bosyk’s IP address. That
The government has at times represented or implied
that the link was clicked after the post. See, e.g., Appellee’s Br.
at 4 (stating that link was posted “less than 24 hours earlier”
than attempted access). Bosyk has never sought to correct this
impression; indeed, his counsel advanced this chronology at oral
argument. Oral Arg. at 11:15–11:31 (arguing that click “on
November 2 close after the posting on Bulletin Board A” did not
necessarily evidence knowledge of the password (emphasis
added)). Nevertheless, we must “confine our review to the facts
that were before the magistrate judge,” Lyles, 910 F.3d at 791
(quotation omitted), which here do not firmly establish the
timeline.
4

11a
chronology sets in motion the series of plausible
inferences described above.5
In short, although the search relied on a “single
click” of an internet link, the click was to a video of
child pornography in circumstances suggesting the
person behind that click plausibly knew about and
sought out that content. We think the magistrate
judge therefore had a substantial basis for concluding
that searching Bosyk’s address would uncover
evidence of wrongdoing.
B.
Arguing otherwise, Bosyk and EFF train their
sights on the first inference in this chain of reasoning:
that the user at Bosyk’s IP address quite probably
knew the link contained child pornography. They note
that Eyler’s affidavit didn’t say whether the link
existed elsewhere on the internet, or whether the site
linked at the URL contained content other than the
It’s true that in this version of events, the likelihood
that the user at Bosyk’s IP address downloaded child pornography
hinges on two probabilities combined: first, that he clicked the link
after it appeared on Bulletin Board A, and, second, that (if so) he
clicked the link having seen it on Bulletin Board A. Contrary to
our dissenting colleague’s suggestion, however, there’s nothing
wrong with finding probable cause based on compound
probability—provided, of course, that the probabilities taken
together establish a fair likelihood of criminal conduct. But more
fundamentally, we reject the dissent’s apparent premise—that
probable cause is subject to rigid statistical analysis. To the
contrary, the Supreme Court has told us in no uncertain terms
that probable cause isn’t subject to precise articulation but is
instead a “commonsense, nontechnical” conception dealing with
“the factual and practical considerations of everyday life on
which reasonable and prudent men, not legal technicians, act.”
Ornelas v. United States, 517 U.S. 690, 695 (1996) (internal
quotation marks and citation omitted).
5

12a
illegal videos described in the affidavit. And they also
point out that the URL didn’t indicate what it linked
to and that, in general, the act of clicking a URL
doesn’t prove familiarity with its contents. We do not
find these alleged shortcomings fatal to probable
cause.
Bosyk’s main critique is that the affidavit
doesn’t establish whether the user who clicked on the
link accessed it through Bulletin Board A. He and
EFF point out that the affidavit doesn’t exclude the
possibility that the user might have stumbled upon
the link from another, perhaps innocent, source—
especially given how easily and frequently links are
shared over the internet. This is also the essence of
our dissenting colleague’s position. See Dissenting
Op. at 44-55.
The problem with this argument, however, is
that it demands more proof than is required to obtain
a warrant. Probable cause, as the Supreme Court has
reiterated time and again, “does not require officers
to rule out a suspect’s innocent explanation for
suspicious facts.” Wesby, 138 S. Ct. at 588. Instead,
the government needs to demonstrate only a fair
probability that contraband or evidence of a crime will
be found at the place to be searched. To be sure,
innocent reasons may explain why someone accessed
a file sharing page containing child pornography.
Perhaps (as our friend in dissent posits) someone
received the link from a malicious sender, or was
looking for innocuous material hosted at the same
filesharing webpage, or truly stumbled upon the URL
accidentally. But this is all conjecture—no facts in
the affidavit suggested the link existed anywhere on
the internet but Bulletin Board A. And the possibility

13a
that it did doesn’t defeat probable cause when it’s
fairly probable, given the temporal proximity, that
the person clicked on the link because he saw it on
Bulletin Board A and wanted to view child
pornography.6
Indeed, given the nature of the content, we
think the magistrate judge had reason to be skeptical
about possible innocent explanations. The notion
advanced by EFF and accepted by our dissenting
colleague that a link containing child pornography
would spread throughout the internet like more
benign web content seems implausible in light of the
present record and the law’s experience with online
pedophiles. As Eyler’s affidavit explained, people who
possess and view child pornography often take steps
to conceal their contraband material, guard it closely,
and sometimes delete it to avoid detection. Cases
likewise show that consumers of child pornography
frequently employ complex measures to keep their
online activities secret. See, e.g., United States v.
McGarity, 669 F.3d 1218, 1230–31 (11th Cir. 2012)
(child pornography ring used elaborate system of
encryption, codenames, and hidden instructions to
conceal activities from outsiders), abrogated on other
grounds by Paroline v. United States, 572 U.S. 434
(2014); Vosburgh, 602 F.3d at 516–17 (child
pornography website used secret gateways and
cumbersome links to evade detection). Thus, the
likelihood that a specific filesharing page containing
child pornography would find its way to somebody
For similar reasons, the possibility that the linked
filesharing page also contained innocent material doesn’t
destroy probable cause. It is undisputed that clicking this unique
URL led to at least one video of child pornography, so the
circumstances nevertheless warrant suspicion.
6

14a
uninterested in such contraband—thereby exposing
its distributors to detection, capture, and loss of their
materials—is probably quite low.
This point bears emphasis. Our dissenting
colleague is of course right that Bosyk’s IP address
could have connected with a link containing child
pornography in a variety (though probably not
“millions,” see Dissenting Op. at 44) of different ways.
But, contrary to our friend’s suggestion, these many
possible alternative paths aren’t of equal probability;
rather, the likelier avenues incriminate Bosyk.
In the first place, the facts involve material
that, for reasons just explained, is unlikely to travel
widely outside child pornography circles. On top of
that, there is a suspiciously short interval between
such material appearing on a members-only child
pornography forum and being accessed by a user at
Bosyk’s IP address. Given these facts, we believe a
magistrate judge could reasonably think it fairly
likely—if not most likely— that the user found the
link through Bulletin Board A or otherwise received
it knowingly from a member of that site. See J.A. 169
(explaining that people who possess and view child
pornography may “share information and materials”
with one another). Contrary to our colleague’s
suggestion, this belief is not “wholly unsupported
speculation,” Dissenting Op. at 84; rather, it is based
on the contents of the affidavit, the magistrate judge’s
likely familiarity with online child pornography
crimes, and his ability to reach “common-sense
conclusions about human behavior.” Gates, 462 U.S.
231–32 (quoting United States v. Cortez, 449 U.S. 411,
418 (1981)).

15a
Bosyk’s and EFF’s other arguments also miss
the mark. They focus, for instance, on the fact that
the URL looked like a random string of numbers and
letters and therefore betrayed little about its
contents. Certainly, the government could have
established probable cause more easily had the link
been clearer about its illicit content. But here, the
URL appeared in a post that described and depicted
its contents on the same day that somebody clicked it.
This context provides evidence about the probable
knowledge and intent of the user that is otherwise
lacking from the face of the URL.7
EFF and our dissenting colleague’s broader
arguments against the inferential value of URLs
merit the same response. They point out that because
URLs are often randomly generated, shortened, or
masked, they don’t necessarily reveal their contents
to the person accessing them. Thus, EFF says, that
an IP address accessed a URL associated with
contraband doesn’t necessarily provide cause to
search property and devices related to that address.
That may often be true, and in a case based purely on
an IP address connecting with a URL, probable cause
may be hard to establish absent other incriminating
evidence. But that is not the case before us because
such evidence exists here: whoever clicked did so on
the same day that the link was advertised in a closed
forum dedicated to child pornography.
Finally, we are unswayed by the cases Bosyk
and EFF rely on. Bosyk draws heavily from United
And, in a different way, the randomness of the URL
helps the government, as internet users aren’t likely to type a
truly random string of characters into their web browser by
mistake.
7

16a
States v. Reece, an unpublished district court opinion
invalidating a warrant issued as part of the same
investigation of Bulletin Board A. See No. 2:16cr104,
2017 U.S. Dist. LEXIS 220176, at *12–15 (E.D. Va.
Mar. 1, 2017). The Reece court held that because the
affidavit (as here) lacked evidence that the defendant
subscribed to or accessed Bulletin Board A, the only
possible inference was that he “could have” accessed
the video through that website. Id. at *12–14. That
inference, the court said, was “insufficient to support
the resulting search” without the “inferential leap
that Defendant must have accessed Bulletin Board A
to navigate to the illicit material.” Id. at *14 (internal
quotation marks omitted). As we have explained,
however, the law doesn’t require the government to
show that Bosyk “must have” accessed the video via
Bulletin Board A; the fair probability that he did so is
enough to sustain the search. By suggesting
otherwise, the Reece court erred.
In any event, Reece is distinguishable because,
there, two days passed between the post on Bulletin
Board A and an attempt to access the link. See id. at
*5–6. Here, in contrast, those two events happened
on the same day. Whether or not the facts in Reece
supported probable cause, it’s notable that the
connection between the suspect and Bulletin Board A
is much closer in this case. Cf. United States v. Evans,
No. 16-20292, 2018 WL 1773308, at *3 (E.D. Mich.
Apr. 12, 2018) (probable cause to search home when
IP address accessed link within 25 hours of being
posted on Bulletin Board A).
Both Bosyk and EFF also refer frequently to
the Second Circuit’s divided decision in United States
v. Falso, 544 F.3d 110 (2d Cir. 2008). There, the court

17a
invalidated a search warrant based on allegations
that the defendant “appeared” to have “either gained
access or attempted to gain access” to a website
associated with child pornography.
Id. at 114
(alterations omitted). The majority found that the
“inconclusive statements” about whether the
defendant accessed the website, combined with the
lack of details about the website itself, fell short of
establishing probable cause. Id. at 121. Concurring
in the judgment,8 Judge Livingston faulted the
majority’s probable cause analysis for overlooking
that the defendant’s email address was found on the
site, which she (reasonably, in our opinion) thought
“probative evidence that Falso visited that website
and either signed up or attempted to sign up for a
membership.” Id. at 130–31 (Livingston, J.,
concurring in part and concurring in the judgment).
We decline to follow Falso. That case is
distinguishable because there, the affidavit contained
“no allegation that [the defendant] in fact gained
access” to a website containing child pornography, nor
any allegation that “images of child pornography were
downloadable from the site.” Id. at 124 (majority
opinion). Here, by contrast, the affidavit alleged that
Bosyk’s IP address accessed a URL whose content
“consisted of four child pornography videos.” J.A.
167–68. Thus, the inference that someone at Bosyk’s
address “in fact accessed a website” sharing child
pornography—crucially missing from Falso, 544 F.3d
at 124—is readily drawn in this case. See Vosburgh,
602 F.3d at 526–27 (probable cause to search home
Judge Livingston nonetheless agreed that the
government’s good faith reliance on the warrant made suppression
unnecessary. See 544 F.3d at 113, 125–29 (majority opinion).
8

18a
when IP address clicked link purporting to contain
child pornography); cf. United States v. Martin, 426
F.3d 68, 75–76 (2d Cir. 2005) (probable cause to search
home when email address registered there joined
website sharing child pornography); United States v.
Froman, 355 F.3d 882, 890–91 (5th Cir. 2004) (same).
Contrary to the dissent’s suggestion, our
opinion is not “at odds” with out-of-circuit decisions
reviewing search warrants based on online encounters
with child pornography. Dissenting Op. at 71. The
cases our colleague cites differ factually from this one
in meaningful respects, and therefore aren’t useful
precedents. See Ornelas, 517 U.S. at 698. Still, to the
extent our sister circuits have at times emphasized
“additional facts . . . over and above the single click of
a URL that provides for download of child
pornography,” Dissenting Op. at 71, we are all in tune.
Here, an important additional fact is the abbreviated
time frame, which lessens the likelihood that Bosyk’s
IP address accessed the link independently of
Bulletin Board A. Accord, e.g., United States v.
Gourde, 440 F.3d 1065, 1070 (9th Cir. 2006) (en banc)
(suspect’s paid subscription to child pornography
website reduced possibility that visit was accidental).
In sum, the magistrate judge had a substantial
basis for finding probable cause to search Bosyk’s
house given two factual allegations—first, the
appearance on Bulletin Board A of a post
unambiguously promoting a link containing child
pornography videos, and second, an attempt to access
that link on the same day by someone at Bosyk’s
address. The closeness of these two events established
a fair probability that child pornography or evidence of
attempts to access it would be found in Bosyk’s house.

19a
IV.
Alternatively, Bosyk argues that even if Agent
Eyler’s affidavit established probable cause to search
his house in November 2015 when the link was
accessed, it didn’t permit a search in April 2016 when
the warrant issued. “A valid search warrant may
issue only upon allegations of ‘facts so closely related
to the time of the issue of the warrant as to justify a
finding of probable cause at that time.’” United States
v. McCall, 740 F.2d 1331, 1335–36 (4th Cir. 1984)
(quoting Sgro v. United States, 287 U.S. 206, 210
(1932)). Accordingly, Bosyk argues that the warrant
was based on “stale” probable cause, and thus invalid,
because it issued five months after the underlying
events took place.
The existence of probable cause, however, can’t
be determined by “simply counting the number of
days between the occurrence of the facts supplied and
the issuance of the affidavit.” Richardson, 607 F.3d at
370 (quoting McCall, 740 F.3d at 1136). Instead, like
probable cause more generally, staleness is judged
based on “all the facts and circumstances of the case,
including the nature of the unlawful activity” and “the
nature of the property to be seized.” Id.
Importantly for this case, when it comes to
child pornography, courts have largely concluded that
“even a substantial delay” between download or
distribution of child pornography and the issuance of
a search warrant doesn’t render the underlying
information stale. Id. This consensus rests, as we
explained in Richardson, “on the widespread view”
that “collectors and distributors of child pornography
value their sexually explicit materials highly, rarely
if ever dispose of such material, and store it for long

20a
periods in a secure place, typically in their homes.” Id.
(internal quotation marks and citations omitted);
accord United States v. Raymonda, 780 F.3d 105, 114
(2d Cir. 2015) (staleness inquiry is “unique” in child
pornography context); Gourde, 440 F.3d at 1072;
United States v. Riccardi, 405 F.3d 852, 861 (10th Cir.
2005). It also rests, in many cases, on the fact that
digital media files persist for a long time and can often
be forensically recovered even after being “deleted.”
See Richardson, 607 F.3d at 370–71; see also United
States v. Seiver, 692 F.3d 774, 775–78 (7th Cir. 2012)
(“‘Staleness’ is highly relevant to the legality of a
search for a perishable or consumable object, like
cocaine, but rarely relevant when it is a computer
file.”).
As a result, in cases involving online child
pornography, courts (including ours) have sustained
warrants issued many months, and even years, after
the events that gave rise to probable cause. See, e.g.,
Contreras, 905 F.3d at 858–59 (warrant sought 11
months after suspect uploaded two images);
Richardson, 607 F.3d at 371 (warrant sought four
months after suspect emailed child pornography);
Vosburgh, 602 F.3d at 528 (warrant sought four
months after three attempts to access download link);
United States v. Morales- Aldahondo, 524 F.3d 115,
119 (1st Cir. 2008) (warrant sought three years after
last downloads).
In accordance with these cases, Agent Eyler’s
affidavit described the tendency of “individuals who
possess or access with intent to view child
pornography” to collect such material and hoard it for
a long time. J.A. 168–69. But Bosyk says the inference
that child pornography will be found months after

21a
possession or attempted possession applies only when
the suspect is plausibly a “collector” of child
pornography. And, according to Bosyk, nothing in the
affidavit identified him as a “collector.”
We agree with Bosyk to the following extent—
the value of this inference “depends on the preliminary
finding that the suspect is a person interested in
images of child pornography.” Raymonda, 780 F.3d
at 114 (internal quotation marks omitted). Such a
finding, as the Second Circuit has explained, “tend[s]
to negate the possibility that a suspect’s brush with
child pornography was a purely negligent or
inadvertent encounter, the residue of which was long
ago expunged.” Id. at 115. Officials may support this
inference with, say, information that the suspect paid
for access to child pornography, had a history of
possessing pornographic images, was an admitted or
convicted pedophile, took elaborate steps to access
illegal content, or distributed content to others. Id. at
114–15 (collecting cases). In each of these cases, it’s
possible to infer that the suspect is a collector of child
pornography because of “circumstances suggesting
that he had accessed those images willfully and
deliberately, actively seeking them out to satisfy a
preexisting predilection.” Id. at 115.
Where we disagree with Bosyk, however, is in
applying these principles. We think it was possible to
infer from the affidavit that whoever clicked on the
link did so willfully and deliberately because he was
interested in images of child pornography.
Specifically, as we have already explained, the facts
in the affidavit support the inference that somebody
saw the description and video thumbnails on a
website devoted to child pornography, Bulletin Board

22a
A, and then deliberately sought out the video by
clicking the link.9 The magistrate judge could
therefore further infer that someone at Bosyk’s home
likely downloaded, stored, and kept that content,
since people “with an interest in child pornography
tend to hoard their materials and retain them for a
long time.” Vosburgh, 602 F.3d at 528. We therefore
find the warrant valid even though it issued five
months after the underlying events took place.
V.
Finally, we note that regardless of the
warrant’s validity in this case, we would nonetheless
affirm as we may not suppress evidence “obtained in
objectively reasonable reliance on a subsequently
invalidated search warrant.” United States v. Leon,
468 U.S. 897, 922 (1984).10
That was not so in Raymonda. There, the government
sought a warrant based entirely on the fact that, nine months
earlier, an IP address had accessed a webpage containing
thumbnails of child pornography. Nothing suggested that the
suspect discovered the site while searching for child
pornography, or that he clicked on the thumbnails to view the
full-size images. 780 F.3d at 117. Rather, the facts were “equally
consistent with an innocent user inadvertently stumbling upon
a child pornography website, being horrified at what he saw, and
promptly closing the window.” Id. The Second Circuit therefore
held that the evidence was too stale to create probable cause.
9

Principles of judicial restraint often support skipping
the probable cause question when Leon bars suppression. But
“when a Fourth Amendment case presents a novel question of
law whose resolution is necessary to guide future action by law
enforcement officers and magistrates, there is sufficient reason
for [a court] to decide the violation issue before turning to the
good-faith question.” Gates, 462 U.S. at 264 (White, J.,
concurring) (italics omitted). As demonstrated by the divergent
decisions of district courts, this is one such case.
10

23a
Bosyk, however, invokes two exceptions that
the Supreme Court has carved out of this rule. First,
he argues that the issuing judge “was misled by
information in an affidavit that the affiant knew was
false or would have known was false except for [her]
reckless disregard for the truth.” Id. at 923 (citing
Franks v. Delaware, 438 U.S. 154 (1978)). Second, he
and EFF maintain that the affidavit was “so lacking
in indicia of probable cause as to render official belief
in its existence entirely unreasonable.” Id. (quoting
Brown v. Illinois, 422 U.S. 590, 611 (1975) (Powell, J.,
concurring)). Neither exception applies.
The first exception is inapplicable because
Bosyk doesn’t actually identify any omitted or
misstated facts in Eyler’s affidavit. Instead, he
complains that Eyler didn’t note the absence of certain
facts, such as the lack of any allegation that a user at
his IP address was a member of Bulletin Board A,
accessed the link through that site, or entered the
password displayed there. But we agree with the
government that agents need not include disclaimers
specifically pointing out facts absent from the
affidavit to obtain a warrant. A warrant application
is “judged on the adequacy of what it does contain, not
on what it lacks, or on what a critic might say should
have been added.” United States v. Allen, 211 F.3d
970, 975 (6th Cir. 2000) (en banc). Here, the affidavit
accurately explained that Bulletin Board A had
members, that a URL was posted there, and that an
IP address at Bosyk’s residence accessed the URL.
From these facts, along with the absence of other
allegations, the magistrate judge could fairly assess
the strength of the government’s evidence.

24a
Our dissenting friend believes the affidavit was
materially misleading because, in his view, most
factual material was unrelated to Bosyk and,
therefore, served only to lend the affidavit a false
appearance of substance. Dissenting Op. at 90-91
(citing United States v. Wilhelm, 80 F.3d 116, 123 (4th
Cir. 1996)). This is a blinkered reading of the
affidavit. Our colleague apparently believes it
“irrelevant,” id. at 90, that Bulletin Board A was a
dedicated child pornography site; that a link appeared
on this site next to pornographic images; and that the
link contained videos of a girl being sexually abused.
True, these facts don’t literally “address allegedly
unlawful conduct of someone using [Bosyk’s] IP
address.” Id. at 91. But as our analysis above makes
plain, they are nonetheless crucial to understanding
why the government believed Bosyk’s home would
contain evidence of criminal activity. These details
are hardly irrelevant “puffing.” Contra id.
Neither is the dreaded “boilerplate” about
collectors. But see id. at 91-92. This information drew
on accepted case law and served to establish that
Bosyk’s computer would contain child pornography
(or at least its remnants) some months after the
attempted access. Our colleague clearly disagrees
with us about whether, at the end of the day, the
information in the affidavit established probable
cause. But he cannot seriously think these facts are
so immaterial to the probable cause inquiry that the
sole purpose for their inclusion was to put one over on
the magistrate judge. Cf. Wilhelm, 80 F.3d at 123
(suppressing evidence when affidavit distracted from
lack of probable cause by describing anonymous
informant as “a concerned citizen,” and “a mature
person” with a “truthful demeanor”).

25a
Our dissenting colleague would also vacate
Bosyk’s conviction because of an allegedly omitted
fact—the exact timing of the post on Bulletin Board
A—that isn’t in the record and, for all we know, may
not even exist. Dissenting Op. at 93-94. We cannot
do so. As our colleague well knows, a defendant can’t
suppress evidence on grounds that the affiant
intentionally or recklessly omitted facts without first
making “a substantial preliminary showing” to that
effect. United States v. Tate, 524 F.3d 449, 454–55
(4th Cir. 2008) (quoting Franks, 438 U.S. at 155–56).
And, importantly, that showing requires “a detailed
offer of proof” of the missing information. Id. at 455
(quotation marks omitted); see also Franks, 438 U.S.
at 171 (“Affidavits or sworn or otherwise reliable
statements of witnesses should be furnished, or their
absence satisfactorily explained.”).
Yet despite
moving for a Franks hearing in the district court,
Bosyk never offered proof of any omitted fact, nor
explained why he couldn’t offer such proof. That
failure precludes suppression on the basis of
intentional or reckless omissions.
Alternatively, Bosyk argues for suppression
because, he says, the affidavit lacked any indicia of
probable cause. This argument also fails.
Suppression on such grounds is “inappropriate” when
an affidavit produces “disagreement among
thoughtful and competent judges as to the existence
of probable cause.” Leon, 468 U.S. at 926. That’s the
case here. District court judges have reasonably
disagreed on the constitutionality of warrants like
this one. Compare J.A. 74–79 (probable cause to
search home months after IP address accessed link
posted on Bulletin Board A), Evans, 2018 WL
1773308, at *3 (same), and United States v. Seitter,

26a
No. 17-10041-JTM, 2017 WL 4516909, at *3–4 (D.
Kan. Oct. 10, 2017) (same), with Reece, 2017 U.S.
Dist. LEXIS 220176, at *19–20 (no probable cause).
And, as evidenced by our separate opinions, the
judges on this panel are also divided on the question.
In such circumstances, we cannot say that it was
objectively unreasonable for the government to rely
on the warrant. Leon, 468 U.S. at 926 (declining to
suppress evidence when court of appeals panel split
on probable cause question); Falso, 544 F.3d at 128–
29 (same).
Accordingly, even if there hadn’t been probable
cause to search Bosyk’s house, suppression would be
inappropriate because the government obtained a
warrant and reasonably relied on it to execute the
search. For this independent reason also, we must
affirm the district court’s judgment.
VI.
We are sensitive to the privacy interests at
stake here. But we also cannot ignore that many
crimes are committed with just a few clicks of a
mouse—including the very serious crime of
downloading child pornography. In cases like this,
our job is to ask precisely what “a single click” reveals
under the circumstances presented, and whether that
information justifies searching a person’s most
private places for evidence of a crime. Here, the
magistrate judge who issued the warrant had a
substantial basis for concluding that it did. For that
reason, the district court’s denial of Bosyk’s motion to
suppress is
AFFIRMED.

27a
WYNN, Circuit Judge, dissenting:
This case presents a textbook example of why
we must guard against the slow whittling away of
constitutional rights, particularly as we apply
constitutional rights adopted in an analog era to the
new challenges of the digital age.
A basic understanding of the technology at
issue demonstrates that the government’s bare-bones
affidavit supporting a warrant to search the residence
of Defendant Nikolai Bosyk (“Defendant”) failed to
establish a fair probability that, when clicking on a
link to download child pornography, someone using
Defendant’s IP address knew and sought out that
illicit content. Indeed, rather than confronting the
difficult technological questions courts must address
in assessing warrant applications premised on online
conduct, the majority opinion rests on analog
frameworks that fail to account for the meaningful
differences between the Internet and the physical
world. With due respect to my colleagues in the
majority, I believe the majority opinion displays a
troubling incomprehension of the technology at issue
in this matter. Accordingly, I respectfully dissent.
I.
This matter arose from the government’s
monitoring of Bulletin Board A, an “Internet-based
bulletin board . . . dedicated to the advertisement,
distribution and production of child pornography”
with over “1500 ‘approved users.’” J.A. 163–64.
According to an affidavit submitted by the
government in support of the challenged search
warrant, the government began “observ[ing] various

28a
postings” and “captur[ing] content” on Bulletin
Board A in October 2015. J.A. 164; Gov’t Br. at 4,
5, 13. On November 2, 2015, a Bulletin Board A
member posted on a sub-forum of Bulletin Board A.
That post described a particular child pornography
video; posted “three different sets of twenty
video thumbnail images” of the video; and included
a URL1 composed of a largely random sequence
of letters and numbers, described in the
affidavit alternatively as “http://[redacted].rar.html”
and
“http://[redacted].comxu5me9erdipp/brochure.
rar.html.”2 J.A. 49.
The affidavit states that the Bulletin Board A
post also provided a password, which users could
input to access the content of the file associated with
that unique URL. Gov’t Br. at 5. Without the
password, the file could not be opened and viewed.
The affidavit does not identify at what time on
November 2, 2015, the Bulletin Board A member
made the post.
And notwithstanding that the
government was routinely “observ[ing]” and
“captur[ing]” content on Bulletin Board A at that
A Uniform Resource Locator, or “URL,” “provide[s]
Internet users with the ability to access web addresses” and
contains “specific protocol information needed by a web browser
to direct users to a specific image, file, webpage, program, or
other resource on the Internet.” Br. Amicus Curiae Electronic
Frontier Foundation in Supp. of Def.–App. and Reversal
(“Amicus Br.”) at 7. Absolute URLs include “(1) a protocol
designation, (2) a root domain or host name or address, and
(3) a file path or resource location.” Id.
1

The government represented below that the two URLs
reference the same URL, but that the agent “redacted more of
the file name” in paragraph 8 than in paragraph 16 of the
affidavit. J.A. 49. According to the government, the two URLs
are “the same in substance.” Id.
2

29a
time, the affidavit does not state whether the URL
and password had previously or subsequently been
posted on Bulletin Board A or elsewhere on the
Internet. J.A. 164; Gov’t Br. at 4, 5, 13.
Significant to an understanding of the
technology at play in this matter, Bulletin Board A
did not host the URL or the content accessible
through the URL. Rather, a wholly independent
website “offer[ing] online file hosting and sharing
services” (such as DropBox, Google Drive, or Apple
iCloud)—which the affidavit refers to using the
pseudonym “File Sharing Site”—hosted the URL and
content. J.A. 165–66; Gov’t Br. at 14. File Sharing
Site is also used to store and share lawful content.
To that end, File Sharing Site’s “Terms of
Service” expressly prohibit users from storing or
sharing “[p]ornography, nudity, sexual images and
any kind of offensive images or videos.” J.A. 166.
According to the affidavit, law enforcement officers
nonetheless had “reason to believe” that File Sharing
Site “was used by [Bulletin Board A] members to store
files containing child pornography and make them
accessible to other members.” J.A. 165–66; Gov’t Br.
at 14. In addition to File Sharing Site, Bulletin Board
A members used “several” other “cloud-based storage
services” to store and share files “depicting minors
engaging in sexually explicit conduct.” J.A. 165; Gov’t
Br. at 6.
Sometime after the November 2, 2015, post,
law enforcement officers monitoring Bulletin Board A
clicked on the URL, navigated to File Sharing Site,
and then downloaded an encrypted video file from File
Sharing Site.
The officers used the password

30a
provided in the post to open the video file, which
depicted child pornography.
Thereafter, the officers obtained an order
directing File Sharing Site to disclose business
records pertaining to unique URLs containing files
that law enforcement knew to depict minors engaging
in sexually explicit conduct.
In response, File
Sharing Site produced the “dates, times, and IP
addresses connected to the downloading of the file
content associated with the URLs specified in the
application for the Order.” J.A. 167; Gov’t Br. at 6.
These records revealed that at 3:23 pm on November
2, 2015, an IP address associated with Defendant’s
residence was “used to download or attempt to
download file content associated with that URL.” J.A.
167–68.
The affidavit does not explain what “download”
or “attempt to download” entailed. The affidavit does
not state that Defendant or anyone likely to be using
Defendant’s IP address was a member of Bulletin
Board A—or had ever even visited Bulletin Board A—
and the government subsequently conceded that
“membership in Bulletin Board A could not be
definitively established.” Gov’t Br. at 30. Nor does
the affidavit state whether someone using
Defendant’s IP address ever used the password to
open the files hosted and shared on File Sharing Site.
In addition to describing the Bulletin Board A
investigation and someone using Defendant’s IP
address to “download or attempt to download” the
child pornography stored on File Sharing Site, the
affidavit does include several paragraphs describing
certain characteristics of “individuals who possess or

31a
access with intent to child pornography”—
individuals commonly referred to as “collectors.” J.A.
168–69. But the affidavit does not state that
Defendant or someone likely to be using Defendant’s
IP address was a “collector” of child pornography or
exhibited any of the particular behaviors associated
with collectors set forth in the affidavit.
Based on the foregoing information, on April 8,
2016, the magistrate judge issued a warrant
authorizing the government to search Defendant’s
residence, including any electronic devices found
therein. On April 12, 2016, law enforcement officers
executed the warrant. A forensic examination of the
hard drive of a laptop computer found in Defendant’s
residence revealed thousands of images and videos of
minor children engaged in sexually explicit conduct,
in folders created from April 14, 2012, to November
18, 2015.
I note that the majority opinion points out that
the video available through the File Sharing Site URL
was among the files found on the hard drive of
Defendant’s laptop. Ante at 5–6. But the majority and
I agree that fact is irrelevant to the issue at hand
because it is well-settled law that what an illegal
search ultimately reveals has no bearing on whether
the evidence the government provided to the
magistrate was adequate to establish probable cause
to conduct the search in the first place. Ante at 6 n.2.
See United States v. Ramirez, 523 U.S. 65, 71 (1998)
(“[I]n determining the lawfulness of entry and the
existence of probable cause we may concern ourselves
only with what the officers had reason to believe at
the time of their entry.” (citation omitted) (emphasis
in original)); United States v. Di Re, 332 U.S. 581, 595

32a
(1948) (“We have had frequent occasion to point out
that a search is not to be made legal by what it turns
up. In law it is good or bad when it starts and does not
change character from its success.” (citation
omitted)); Byars v. United States, 273 U.S. 28, 29–30
(1927) (“Nor is it material that the search was
successful in revealing evidence of a violation of a
federal statute. A search prosecuted in violation of
the Constitution is not made lawful by what it brings
to light; and the doctrine has never been recognized
by this court, nor can it be tolerated under our
constitutional system, that evidences of crime
discovered by a federal officer in making a search
without lawful warrant may be used against the
victim of the unlawful search where a timely
challenge has been interposed.”); A.M. v. Holmes, 830
F.3d 1123, 1139 (10th Cir. 2016) (“Neither the officer’s
subjective beliefs nor information gleaned post-hoc
bear on this inquiry.” (emphasis added)); McColley v.
Cty. of Rensselaer, 740 F.3d 817, 841 n.3 (2d Cir. 2014)
(“Probable cause is not backward looking. Thus, the
results of a search are immaterial to a determination
of whether the search was supported by probable
cause.”); United States v. Sims, 553 F.3d 580, 583 (7th
Cir. 2009) (“[T]here is a practical reason for requiring
warrants where feasible: it forces the police to make
a record before the search, rather than allowing them
to conduct the search without prior investigation in
the expectation that if the search is fruitful a
rationalization for it will not be difficult to construct,
working backwards.” (citation omitted)).
On October 17, 2017, the government filed a
criminal complaint against Defendant, alleging one
count of receipt of child pornography in violation of 18
U.S.C. § 2252(a)(2). Homeland Security Investigations

33a
Special Agent Kristina Eyler submitted an affidavit
in support of the complaint, averring that Defendant’s
IP address was “associated with a user attempting to
download child pornography on Bulletin Board A.”
J.A. 11. Put differently, Special Agent Eyler’s
affidavit represented, without qualification, that
someone using Defendant’s IP address “attempt[ed]
to download child pornography on Bulletin Board A,”
id. (emphasis added), not File Sharing Site.
On December 14, 2017, a grand jury issued an
indictment charging Defendant with one count of
receipt of child pornography in violation of 18 U.S.C.
§ 2252(a)(2) and (b)(1) and one count of possession
of child pornography in violation of 18 U.S.C.
§ 2252(a)(4)(B) and (b)(2). On January 3, 2018,
Defendant filed a motion to suppress all evidence
seized during the April 12, 2016, search as well as the
fruits of that search. Defendant’s motion to suppress
argued, in part, that the affidavit provided
insufficient evidence to establish probable cause to
search Defendant’s residence because it failed to
establish a fair probability that someone using
Defendant’s IP address navigated through the URL
posted on Bulletin Board A to the contraband stored
on File Sharing Site. See, e.g., J.A. 27 (“The instant
affidavit contains no information or contentions as to
[Defendant]’s involvement, access, or membership to
Bulletin Board A. In fact, the affidavit makes no
contention that the subject URL, purportedly
containing child pornography, could have only been
accessed through Bulletin Board A.”).
In its opposition to Defendant’s motion to
suppress, the government claimed that the affidavit
did, in fact, connect Defendant’s IP address to the

34a
Bulletin Board A post given “the close proximity in
time between the posting at Bulletin Board A and
attempt to download its child pornographic content.”
J.A. 45 (emphasis added). By characterizing the
content as the property of Bulletin Board A—not as
content stored by File Sharing Site—the government
invited the district court to not draw a distinction
between Bulletin Board A and File Sharing Site,
notwithstanding that the affidavit connected
Defendant’s IP address with only File Sharing Site,
not Bulletin Board A.
Additionally, an unstated, but essential,
premise of the government’s temporal proximity
argument was that someone using Defendant’s IP
address attempted to download the child pornography
from File Sharing Site after the Bulletin Board A post
prompting the investigation—a premise that the
government invited the district court to indulge by
relying on a case in which a district court found
probable cause to issue a warrant when the
allegations in the affidavit established that the
download of contraband occurred soon after a link to
the contraband was posted to a child pornography
message board. See J.A. 45 (citing United States v.
Evans, 2:16-cr-20292, Doc. No. 69, report and
recommendation, at 14 (E.D. Mich. Nov. 20, 2017).
The government further rejected Defendant’s
argument that the File Sharing Site URL “could have
been accessed through innocent means” because
“there was no reason for the agent to believe the link
was available anywhere other than on Bulletin Board
A.” J.A. 44–45.
On February 2, 2018, the district court denied
Defendant’s suppression motion. Ruling from the

35a
bench, the district court accepted the key factual
premises relied on by the government to connect
Defendant’s IP address with Bulletin Board A:
What is clearly in the affidavit is that
Bulletin Board A is a dedicated bulletin
board to advertising distribution and
production of child pornography and
that it therefore, already anybody who
might be on that site, there would be a
reasonable belief that that person was
interested in accessing that kind of
information.
Then there was the posting of that
particular section [of Bulletin Board A]
that was clearly advertising video clips of
what would absolutely be unequivocally
child pornography, and the critical
fact . . . is that the same day that posting
went up, the URL that is linked—or the
IP address that is linked to a computer
in the defendant’s home . . . attempts to
or at least shows an interest in [Bulletin
Board A]. In my view, that’s enough for
probable cause to believe that there
would be a computer in that residence
that would have child pornography on it.
J.A. 76–77. In other words, in accordance with the
government’s invitation, the district court drew no
distinction between Bulletin Board A and File
Sharing Site and presumed that someone using
Defendant’s IP address clicked on the URL navigating
to the child pornography stored on File Sharing Site
after seeing the URL posted on Bulletin Board A.

36a
But the majority maintains that it is “unclear”
whether the district court was referring to Bulletin
Board A or File Sharing Site because the district court
could have been referring to File Sharing Site, rather
than Bulletin Board A when it referred to “both the
‘posting’ and ‘the URL that is linked.’” Id. That
reading is simply implausible. Clearly, the district
court did not refer to the Bulletin A Board “posting”
and the “URL that is linked” as two separate
websites, i.e., Bulletin Board A and File Sharing Site.
Instead, the district court stated that on the “same
day that posting went up, the URL that is linked—or
the IP address that is linked to a computer in the
defendant’s home . . . attempts to or at least shows an
interest in that particular site.” J.A. 76–77 (emphases
added). The district court therefore considered both
the “posting” and the “URL that is linked,” on Bulletin
Board A, to be referencing a single website: Bulletin
Board A. The district court discussed the URL only in
the context of it being linked on Bulletin Board A,
rather than it being hosted by File Sharing Site.
Accordingly, the district court incorrectly assumed
that Defendant’s IP address demonstrated an interest
in Bulletin Board A.
In short, the district court did not expressly
contemplate the possibility that someone using
Defendant’s IP address navigated to the URL by any
means other than the Bulletin Board A post.
Defendant timely appealed the denial of his
suppression motion.
II.
The Fourth Amendment protects “[t]he right of
the people to be secure in their persons, houses,

37a
papers, and effects, against unreasonable searches
and seizures.” U.S. Const. amend. IV. It represents
the Framers’ “response to the reviled ‘general
warrants’ and ‘writs of assistance’ of the colonial era,
which allowed British officers to rummage through
homes in an unrestrained search for evidence of
criminal activity.” Riley v. California, 573 U.S. 373,
403 (2014).
Recognizing that the advent of new
technology—like the Internet and the ability to store
vast amounts of information in small electronic
devices—“enhance[s] the Government’s capacity to
encroach upon areas normally guarded from
inquisitive eyes,” the Supreme Court has rejected
“‘mechanical interpretation[s]’” of the Fourth
Amendment that would allow the government to
“capitalize” on such technology to invade the
reasonable expectations of privacy and security
protected by that Amendment. Carpenter v. United
States, 138 S. Ct. 2206, 2214 (2018) (quoting Kyllo v.
United States, 533 U.S. 27, 35 (2001)). Rather, when
applying the Fourth Amendment in the context of
new or advancing technology—like the URL click at
issue in this case—courts must seek to “assure []
preservation of that degree of privacy against
government that existed when the Fourth
Amendment was adopted.” Id. (quoting Kyllo, 533
U.S. at 34).
In doing so, courts must keep in mind at least
two basic Fourth Amendment “guideposts”—that the
Amendment seeks “to secure the privacies of life
against arbitrary power” and “to place obstacles in the
way of a too permeating police surveillance.” Id.
(internal quotation marks and citations omitted).

38a
That is particularly true when, as here, the
government seeks authority to search a home
because, “when it comes to the Fourth Amendment,
the home is first among equals.” Florida v. Jardines,
569 U.S. 1, 6 (2013).
“Although the text of the Fourth Amendment
does not specify when a search warrant must be
obtained,” the Supreme Court repeatedly has
recognized that “‘[i]t is a basic principle of Fourth
Amendment law . . . that searches and seizures inside
a home without a warrant are presumptively
unreasonable.’” Kentucky v. King, 563 U.S. 452, 459
(2011) (quoting Brigham City v. Stuart, 547 U.S. 398,
403 (2006)). Warrants are “constitutionally sound
when issued by a neutral magistrate and supported
by probable cause.” United States v. Montieth,
662 F.3d 660, 664 (4th Cir. 2011); see U.S. Const.
amend. IV. The government bears the burden of
demonstrating probable cause to support a search
warrant. See, e.g., id. at 665; Walczyk v. Rio, 496 F.3d
139, 161 (2d Cir. 2007); United States v. Abboud, 438
F.3d 554, 569 (6th Cir. 2006).
To determine whether a warrant is supported
by probable cause, a magistrate must “make a
practical, common-sense decision whether, given all
the circumstances set forth in the affidavit[,] . . . there
is a fair probability that contraband or evidence of a
crime will be found in a particular place.” Illinois v.
Gates, 462 U.S. 231, 238 (1983). When a magistrate
judge issues the challenged warrant, this Court must
determine “whether the magistrate judge had a
‘substantial basis’ for finding probable cause.” United
States v. Lyles, 910 F.3d 787, 791 (4th Cir. 2018).
Accordingly, the question before this Court is

39a
whether, based on the information set forth in the
affidavit, the magistrate judge had a “substantial
basis” for finding that there was a “fair probability”
that contraband or evidence of a crime would be found
within Defendant’s residence.
A.
The majority opinion concludes—and I agree—
that even a “single click” of an internet link to
download3 child pornography can provide probable
cause to support a search warrant if the facts set forth
in the warrant application establish that “the person
behind that click plausibly knew about and sought out
that content.” Ante at 11. According to the majority
opinion, the affidavit established that someone using
Defendant’s IP address “plausibly knew” that the
URL linked to child pornography because the
November 2, 2015, post on Bulletin Board A, in which
a copy of the URL appeared, “contain[ed] text and
images that unequivocally identified its contents as
child pornography.” Id. at 8. The majority opinion’s
finding of probable cause, therefore, rests entirely on
the premise that the affidavit established a fair
probability that someone using Defendant’s IP
address “clicked the link having encountered it on
[Bulletin Board A].” Id. at 9.
That factual premise finds no direct support in
the materials considered by the magistrate judge in
I take no position on whether evidence that someone
using a particular IP address clicked on a link navigating to a
website that displays child pornography—as opposed to a link to
download child pornography—can provide probable cause to
search a residence associated with that IP. See United States v.
Falso, 544 F.3d 110, 124 (2d Cir. 2008).
3

40a
granting the warrant. The affidavit does not assert
that Defendant, or someone likely to be using
Defendant’s IP address, was a member of Bulletin
Board A. Indeed, the government conceded that it
could not establish whether Defendant or someone
using his IP address was a member of Bulletin Board
A. Gov’t Br. at 30.
The affidavit also does not provide any direct
evidence that Defendant or someone using
Defendant’s IP address had ever visited Bulletin
Board A. On the contrary, the government conceded
before the district court that because Bulletin Board
A “was only accessible on the dark web via a special
web-browser called TOR,” it could not provide an
electronic record establishing whether Defendant’s IP
address ever visited Bulletin Board A. J.A. 37–38.
Instead of relying on direct evidence, the
government contends, as it did before the district
court, that circumstantial evidence makes it fairly
probable that someone using Defendant’s IP address
navigated through the Bulletin Board A post to
attempt to download the child pornography hosted by
File Sharing Site. In support of that argument, the
government’s brief makes several representations.
First, the government repeatedly represents
that the post appeared on Bulletin Board A before
someone using Defendant’s IP address sought to
access the child pornography stored by File Sharing
Site. Gov’t Br. at 4 (“On November 2, an IP address
that resolved back to [Defendant]’s residence was
recorded to trying to access a link containing child
pornography that had been posted on Bulletin Board
A less than 24 hours earlier.” (emphasis added)); id. at

41a
30 (“The short duration from when the link appeared
on Bulletin Board A until someone at the defendant’s
residence clicked on the link established a fair
probability that the link had been accessed through
Bulletin Board A.” (emphases added)).
Second, the government represents that the
“link . . . originated on a dark web forum dedicated to
sharing child sexual abuse content,” id. at 10–11
(emphasis added), meaning Bulletin Board A. See also
id. at 9 (“Probable cause existed to search
[Defendant]’s home on April 12, 2016, because law
enforcement determined that a computer at
[Defendant]’s residence accessed a link to
downloadable child pornography, which originated on
a website that caters to individuals seeking child
pornography.”
(emphasis
added)).
That
“originat[ion]” contention serves to reinforce the
government’s assertion that someone using
Defendant’s IP address attempted to download the
child pornography from File Sharing Site after
encountering the URL on Bulletin Board A—if the
URL “originated” on Bulletin Board A, then someone
using Defendant’s IP address had to have clicked on
the URL after it appeared on Bulletin Board A.
For two principal reasons, the government’s
temporal proximity argument fails to establish a fair
probability that someone using Defendant’s IP
address navigated to the URL via the post in Bulletin
Board A. First, the government’s temporal proximity
argument rests on the “critical fact” that someone
using Defendant’s IP address clicked on the URL after
the post containing the URL appeared on Bulletin
Board A—a premise that the government repeatedly
asserted in its briefing and argument to the district

42a
court and this Court. But if that “critical fact” lacks
support—if the click on the URL occurred before the
post on Bulletin Board A—then the person using
Defendant’s IP address could not have encountered
the URL on Bulletin Board A, and therefore could not
have viewed the text and images in the Bulletin
Board A post indicating the URL linked to child
pornography.
That is the case. Contrary to the government’s
repeated representations in its briefing, the affidavit
does not assert, much less establish, that someone
using Defendant’s IP address clicked the URL after
the post containing the URL appeared on Bulletin
Board A. On the contrary, whereas the affidavit
reports the time someone using Defendant’s IP
address clicked on the File Sharing Site URL—3:23
pm on November 2, 2015—it does not report at what
time that day the post first appeared on Bulletin
Board A. Rather, it simply states that the post
appeared on Bulletin Board A sometime on November
2, 2015. Accordingly, the post could have appeared on
Bulletin Board A anytime within a window of 8 hours,
37 minutes after someone using Defendant’s IP
address downloaded or attempted to download the
child pornography from File Sharing Site.
Significantly, notwithstanding that the
government represented to both this Court and the
district court that—as a matter of fact, not
inference—the Bulletin Board A post appeared before
someone using Defendant’s IP address attempted to
download the child pornography from File Sharing
Site, the affidavit nowhere addressed whether the
government knew, or could have known, the time of
the Bulletin Board A post as a result of its ongoing

43a
observation and capturing of content on Bulletin
Board A. Gov’t Br. at 13. Indeed, the government
never has explained to this Court or the district court
why the repeated representations in its briefing as to
the sequence of events does not find direct support in
the facts set forth in the affidavit it submitted with
the warrant application. Of course, in assessing
probable cause, we do not look to the representations
the government makes after the fact, but the facts the
government presented to the magistrate.
Because the government’s circumstantial
causation argument rests on the attempted download
from File Sharing Site occurring after the post
appeared on Bulletin Board A, the government’s
failure to establish that sequence of events fatally
undermines its effort to rely on temporal proximity as
a circumstantial basis for proving that someone using
Defendant’s IP address navigated to the URL through
Bulletin Board A.
Notwithstanding this fatal flaw, the majority
opinion accepts the government’s temporal proximity
argument—and the government’s crucial factual
representations underlying that argument—hook,
line, and sinker. Although the majority recognizes
that the affidavit does not establish whether the
Bulletin Board A post preceded the “attempted
download” by someone using Defendant’s IP address,
it nevertheless contends that the “critical fact”
supporting probable cause is “[t]he close timing
between the link’s appearance on Bulletin Board A
and the click by a user’s IP address.” Ante at 8–9
(emphasis added). According to the majority, “because
the link was accessed on the same day it appeared on
Bulletin Board A, it is at least reasonably probable

44a
that the user clicked the link having encountered it
on that website.” Id. at 9. Yet, even as it acknowledges
that the affidavit failed to establish the “critical fact”
supporting its theory of probable cause, the majority
opinion nevertheless accepts that theory wholesale.
See id. at 10 (“That chronology [of the URL click
following the Bulletin Board A post] sets in motion the
series of plausible inferences described above.”).
Notably, the majority opinion distinguishes
that “critical fact”—that the click occurred after the
appearance of the Bulletin Board A post—from the
“inferences” it draws from that fact—most notably,
that someone using Defendant’s IP address
encountered the link in the Bulletin Board A post, not
via some other electronic pathway. Ante at 8–9, 12
(reasoning that “it’s fairly probable, given the
temporal proximity, that the person clicked on the
link because he saw it on Bulletin Board A and wanted
to view child pornography” (emphasis added)). Put
differently, rather than relying on an inference from
an established fact, the majority opinion
impermissibly draws inferences on inferences to
uphold the warrant. See Rosencranz v. United States,
356 F.2d 310, 317 (1st Cir. 1966) (noting that a
magistrate may not “reach for external facts and . . .
build inference upon inference in order to create a
reasonable basis for his belief that a crime is
presently being committed”). The majority opinion
therefore improperly draws an inference of causality
based on a sequence of events the government failed
to establish. See Figure A (illustrating the 35.9%
probability that the Bulletin Board A post followed
the IP address’s click of the URL).

45a
Figure A

But that is not the only flaw with the temporal
proximity argument advanced by the government and
embraced by the majority opinion. The government’s
temporal proximity argument also rests on the wholly
unsupported premise that—even if someone using
Defendant’s IP address had clicked on the File
Sharing Site URL after the post appeared on Bulletin
Board A (which, again, the affidavit does not
establish)—the user navigated to the URL through
the post appearing on Bulletin Board A. Indeed, the
facts set forth in the affidavit fail to address, much
less rule out, a multitude of ways someone using
Defendant’s IP address could have navigated to the
File Sharing Site URL without encountering the URL
on Bulletin Board A, and therefore without observing
the text and images that would have put that person
on notice of the download link’s content. The majority
nowhere meaningfully contemplates the significance
of this internet technology in our role to assess
probable cause.

46a
To begin, users can encounter URLs, or
hyperlinks to URLs,4 in myriad ways— including
through websites, emails, chats, text messages,
comment threads, discussion boards, File Sharing
Sites (such as DropBox, Google Drive, or Apple
iCloud), tweets, Facebook posts, Instagram captions,
Snapchat messages, embedded images or videos,
unwanted pop-up windows, any combination thereof,
or by any other digital means. And because a URL,
or a hyperlink to a URL, can be copied with only a
click of a button, a single URL can be copied and
further disseminated through any or all of these ways
millions of additional times, often in a matter of
seconds.
Thus, it is no exaggeration to state that
URLs, or hyperlinks to URLs, can be posted and
disseminated millions of times anywhere by anyone.
Take for example, the trailer for the movie
Avengers: Endgame—which was shared through
multiple online platforms such as YouTube,
Facebook, and Twitter—was viewed 289 million times
in the first 24 hours after it was posted online.
Todd Spangler, ‘Avengers: Endgame’ Trailer Smashes
24-Hour Video Views Record, Variety (Dec. 8, 2018,
11:02 a.m.), https://variety.com/2018/digital/news/
avengers-endgame-record-trailer-worldwide-24-hourviews-1203085074; see also Crosby v. Twitter, Inc.,
921 F.3d 617, 625 (6th Cir. 2019) (citing sources
“The definition of a hyperlink is text or an image within
a file on your computer that you can click on that gives access to
another document or image. Words on a website that are
underlined and highlighted in blue and that you can click on in
order to open a new web page are an example of a hyperlink.”
Berkson v. Gogo LLC, 97 F. Supp. 3d 359, 373 n.2 (E.D.N.Y.
2015) (citation omitted).
4

47a
observing that “third parties upload 300 hours of
content to YouTube every minute” and Twitter
“boasts hundreds of millions of users . . . with over 500
million tweets per day . . . [or] 6,000 tweets per
second” (citations omitted)); Chloe Taylor, A
Japanese Billionaire Now Has Most Retweeted Tweet
Ever After Offering a $923,000 Prize, CNBC (Jan.
7, 2019) (reporting that a single tweet—only one
of the numerous online vehicles for sharing a
URL—was retweeted nearly five million times
in a two-day period), https://www.cnbc.com/2019/01/
07/yusaku-maezawa-has-most-retweeted-tweet-everafter-offering-923000.html. In this matter, none of
the facts alleged in the affidavit rule out any of these
potentially millions of alternative paths—wholly
unconnected to the Bulletin Board A post—through
which someone using Defendant’s IP address could
have encountered the URL navigating to the child
pornography on File Sharing Site.5
Relatedly, the content to which a URL navigates and
the link itself could “originate[]” in numerous places. Because
electronic content often can be easily duplicated and stored,
content that first appears at one URL may appear, in short order
or over a longer time horizon, at numerous other URLs and may
be stored on numerous other servers. Therefore, just because a
URL, or a hyperlink to a URL, appears on one webpage, like
Bulletin Board A, does not mean that the content associated with
that URL first appeared on the webpage. For this reason, the
government’s repeated representation that the child
pornography hosted on File Sharing Site “originated” on Bulletin
Board A finds no support in the affidavit, which establishes only
that a URL navigating to at least one website hosting the
content, File Sharing Site, appeared on Bulletin Board A. It is
entirely consistent with the facts set forth in the affidavit that
the child pornography originated some place other than Bulletin
Board A, meaning that the affidavit provides little factual
support for the government’s theory of causation—that someone
5

48a
Additionally, users can navigate to a URL in
numerous ways beyond clicking on a link included in
a post on a particular webpage, like Bulletin Board A.
For example, a user could click on a copy of the URL
posted to another website, click on a bookmark, type
the URL directly into a browser’s navigation bar, or
click a hyperlink in an email or a news article, to
name only a few. See generally Amicus Br. at 8. That
is particularly true when the URL navigates to a site
on the normal Internet, like File Sharing Site, as
opposed to a site, like Bulletin Board A, that can only
be reached using a specialty browser, like Tor.
The majority opinion maintains that the
“randomness of the URL” in this case— which
contains a string of letters and numbers with no
discernible pattern or meaning— “helps the
government, as internet users aren’t likely to type a
truly random string of numbers and letters into their
web browser by mistake.” Ante at 15 n.7. That
assertion— that someone using Defendant’s address
typed the URL into a web browser—contradicts the
probable cause theory advanced by the government
and otherwise relied on in the majority opinion—that
someone using Defendant’s IP address intentionally
clicked on the URL in the Bulletin Board A post
because they believed it led to child pornography.
Additionally, the randomness of the URL
weighs against a finding of probable cause because it
using Defendant’s IP address likely learned of the child
pornography through Bulletin Board A. Indeed, that the child
pornography videos at issue were hosted on File Sharing Site—
not Bulletin Board A—provides evidence that the child
pornography—a link to that child pornography—did not
“originate[]”]” on Bulletin Board A.

49a
increases the likelihood that someone using
Defendant’s IP address clicked on the URL without
knowing the content to which it navigated. Even
assuming the user actually saw the URL—which, as
explained below, is not necessarily the case— the
random sequence of letters and numbers would
provide a user with no indication that the URL
navigated to child pornography.
And most
significantly, the majority opinion’s myopic focus on
one method of navigating to a URL—typing the URL
into a browser— again ignores the multitude of other
equally plausible—and likely far more plausible—
ways someone using Defendant’s IP address could
have navigated to URL, none of which ways the facts
set forth in the affidavit rule out.
Importantly, users
can
unintentionally
navigate to URLs because—as is the case with the
URL clicked by someone using Defendant’s IP
address—URLs frequently do not provide any
external indication of the content to which they
navigate. For example, services like YouTube and
DropBox generate random URLs that provide no
information about their underlying content. Amicus
Br. at 10. Other services, like Bitly, TinyURL,
and Perma shorten URLs, which may otherwise
provide external indicators of their content, to
generic URLs that include a standard URL base,
such as “https://bit.ly/,” “https://tinyurl.com/,” or
“https://perma.cc/,” followed by a random string of
alphanumeric characters. See generally Robin
Camille Davis, The Future of Web Citation Practices,
35 Behav. & Soc. Sci. Libr. 128–34 (2016) (explaining
different URL shortening services). Such generic
URLs offer no indication of the content to which they
navigate.

50a
Link shortening and disguising often serve
beneficial purposes by, for example, permitting
distribution of password-protected files, facilitating
the sharing of less clunky links, or permitting simpler
citation styles. And link shortening and disguising
can serve other innocuous purposes. URL spoofing,
for example, permits one user to disguise a hyperlink
as directing to specific content or a particular website,
while in reality directing the unwitting user to a
distinct website altogether. See Amicus Br. at 12.
One humorous form of URL spoofing is
“rickrolling,” one of the “Internet’s oldest memes,” in
which individuals click on a link “expecting one thing”
but are instead led to “a video of Rick Astley singing
‘Never Gonna Give You Up.’” Abby Ohlheiser, I Can’t
Believe This Is Why People Are Tweeting Fake
Celebrity News, Wash. Post (Oct. 18, 2018),
https://www.washingtonpost.com/technology/2018/10
/18/i-cant-believe-this-is-why- people-are-tweetingfake-celebrity-news/?utm_term=.e9c493b7234d. The
unsuspecting individual who follows the disguised
URL is said to be “rickrolled.” In fact, “rickrolling” has
become such a mainstream online practice that in the
lead-up to the 2018 midterm elections, an online
campaign aimed to “rick roll” unregistered voters into
registering to vote. Id.
As the Washington Post described, doing so was
easy:
First, create a link to vote.org (or
whatever else you want to trick people
into visiting) using a link shortener such
as bit.ly. Bit.ly works pretty simply: You
enter in a URL, and the site spits out a

51a
shorter version. It’s a relic from a time
when URL length counted toward
characters on Twitter but is now used to
hide the original source of links.
Id. Then, “choose the right piece of gossip,” such as
news of a celebrity couple split, and tweet out an
attention-grabbing headline alongside the disguised
Bit.ly link leading to the voter registration website.
Id. Thus, with a few clicks, anyone—even users with
no advanced computational skills—can disguise a
link and lure an unsuspecting user to click that link.
In such circumstances, the user would learn of the
content to which the URL navigates only after
clicking on the link.
But link shortening and disguising are also
used for malicious purposes. URL spoofing can enable
“phishing,” which redirects a user to a facially
legitimate, but fake, website in order to steal the
user’s personal information. A “decent fake website,”
which a “phisher” can set up with little difficulty,
provides the phisher with complete access to the
user’s information and computer without “expensive
and detectable malware.” Quinn Norton, Phishing
Is the Internet’s Most Successful Con, Atlantic
(Sept. 12, 2018), https://www.theatlantic.com/
technology/archive/2018/09/phishing-is-the-internetsmost-successful-con/569920;
see
also
Jonnelle
Marte, Can You Tell the Real TurboTax Email
from the Scam?, Wash. Post (Mar. 1, 2016),
https://www.washingtonpost.com/news/get- there/wp/
2016/03/01/can-you-tell-which-of-these-turbotax-emailsis-real-and-which-one-is-from-a-scam-artist/?utm_
term=.7ba2976355cb.

52a
Of particular relevance, bad actors can, and have,
innocuously disguised links to child pornography and
then sought to extort internet users who inadvertently
navigate to the child pornography by clicking on the
disguised links. See, e.g., Adam Levin, The 5 Deadly
Clicks: The Links You Should Never Touch, ABC
News (Oct. 6, 2013), https://abcnews.go.com/Business/
links-click/story?id=20461918 (detailing a Russiabased extortion scheme in which unsuspecting users
clicked a link to child pornography). Again, none of
the facts in the affidavit address, much less rule out,
the numerous possible ways in which someone using
Defendant’s IP address could have unintentionally
navigated to the File Sharing Site URL hosting the
child pornography.
The majority opinion adverts to one of the
many alternative paths through which someone using
Defendant’s IP address could have navigated—
intentionally or unintentionally—to the File Sharing
Site URL, acknowledging that Defendant’s IP address
may have “received [the link] knowingly from a
member of [Bulletin Board A],” rather than
“f[i]nd[ing] the link through Bulletin Board A.” Ante
at 13. But the majority opinion fails to recognize that
this alternative path, by itself, materially undermines
its theory of probable cause. If someone using
Defendant’s IP address did not encounter and
navigate to the File Sharing Site URL through the
Bulletin Board A post, then that person did not have
an opportunity to observe the text and pictures in the
post indicating the nature of the content to which the
URL navigated. As the majority opinion concedes,
absent a fair probability that someone using
Defendant’s IP address “clicked the link knowing that

53a
it contained child pornography”—which would not
necessarily be the case if Defendant “received [the
link] knowingly from a member of [Bulletin Board
A]”—then there is no basis to find probable cause.
Ante at 8, 14.
In sum, there are myriad ways users can
encounter and navigate to a URL— including
unintentionally, particularly when, as here, the text
of the URL provides no indication as to the nature of
the content to which it navigates. Accordingly, even
if the Bulletin Board A post preceded the attempt by
someone using Defendant’s IP address to download
child pornography from File Sharing Site—again, a
fact not established by the affidavit—there are
potentially millions of paths through which someone
using Defendant’s IP address could have encountered
and navigated to the File Sharing Site URL hosting
the child pornography other than through Bulletin
Board A. Put simply, the affidavit does not establish
the probability of the single sequence of events upon
which the majority opinion relies—that someone
using Defendant’s IP address navigated to the File
Sharing Site URL after encountering it on Bulletin
Board A. See Figure B (contrasting the majority
opinion’s myopic focus on one pathway between
Defendant’s IP address and the File Sharing Site
URL with the myriad pathways, only some of which
are reflected by the dashed lines, consistent with the
affidavit).

54a
Figure B

The
majority
acknowledges
that
the
probability of the IP address accessing the URL
through Bulletin Board A “depends on the link being
clicked after it was posted on Bulletin Board A” and
that the affidavit does not specify the timing of the
Bulletin Board A post. Ante at 10. But, in the
majority’s view, the “ambiguity” regarding the timing
of the Bulletin Board A post is not fatal to a probable
cause finding because it “was still almost twice as
likely that the post preceded the click as the other way
around.” Id. (citing Figure A). Therefore, the
majority opinion maintains, “the much likelier
scenario” was that the Bulletin Board A post preceded
the URL click and was therefore accessed by
Defendant’s IP address through Bulletin Board A. Id.
at 10.
However, the majority’s analysis ignores that
the probability that the Bulletin Board A post
preceded the File Sharing Site URL click is only one
of several layers of uncertainty governing the

55a
likelihood that someone using Defendant’s IP address
accessed the File Sharing Site URL through the
Bulletin Board A post. Put simply, assessing whether
it is fairly probable that Defendant’s IP address
navigated to the URL via Bulletin Board A involves a
compound probability,6 governed by the probabilities
of at least two independent events: first, whether the
Bulletin Board A post preceded the URL click, and
second, whether Defendant’s IP address encountered
the URL through the Bulletin Board A post. Stated
formulaically,
P{Navigated to URL
via Bulletin Board A}

=

P{Bulletin Board A
Post Preceded Click} *
P{Encountered Link on
Bulletin Board A}

0.641x

=

.641 * x

x≤1
As to the first event, there is a 64 percent
chance that the Bulletin Board A post temporally
preceded the URL click. See supra Figure A. And as
to the second event— whether Defendant’s IP address
accessed the File Sharing Site URL through the
Bulletin Board A post—the affidavit provides no facts
that in any way circumscribe the massive universe of
paths someone using Defendant’s IP address could
have taken to the URL, meaning that that

Compound probability is a “mathematical term relating
to the likeliness of two independent events occurring” and is
“equal to the probability of the first event multiplied by
the probability of the second event.” Compound Probability,
Investopedia (Apr. 29, 2019), http://www.investopedia.com/
terms/c/compound-probability.asp.
6

56a
probability, under the facts set forth in the affidavit,
is necessarily vanishingly small. See Figure C.
Figure C

Without additional facts further limiting the
universe of possibilities, we cannot know whether it is
fairly probable that the IP address encountered the
URL through Bulletin Board A. All but one of these
potentially millions of the paths to the File Sharing
Site URL do not involve the factual scenario that the
majority opinion, at the government’s urging,
credulously accepts—that someone using Defendant’s
IP address encountered the URL in the November 2,
2015, post on Bulletin Board A and, using the link in
that post, sought to download the child pornography
shared on File Sharing Site.
The majority opinion glosses over these myriad
alternative paths of accessing the URL because in its

57a
view, these “aren’t of equal probability; rather, the
likelier avenues incriminate [Defendant].” Ante at 13.
The majority opinion claims that the “avenue[]”
advanced by the government—that someone using
Defendant’s IP address clicked on the File Sharing
Site URL after encountering it in the Bulletin Board
A post—is “likelier” because the “likelihood that
a specific filesharing page containing child
pornography would find its way to somebody
uninterested in such contraband . . . is probably quite
low.” Id.
But the majority opinion identifies no facts in
the affidavit supporting its bald assertion that it is
unlikely that a user would innocently access child
pornography. Instead, it first cites to the affidavit’s
boilerplate language regarding the characteristics of
individuals who “collect” child pornography.
The
Fourth Amendment permits courts to rely on “the
affiant-officer’s experience” and knowledge regarding
given crimes only when the affidavit contains
sufficient evidence linking an individual to that
crime. Wayne R. LaFave, 2 Search & Seizure § 3.7(d)
(5th ed. 2018). For example, because it is “merely
common sense that a drug supplier will keep evidence
of his crimes at his home,” at least one court has found
that informant statements, as well as corroborating
record evidence, setting forth “sufficient evidence”
that a defendant was a drug supplier supported
probable cause to search the supplier’s home. United
States v. Sanchez, 555 F.3d 910, 914 (10th Cir. 2009).
But when individualized information connecting an
individual to a crime is absent, an affiant—much less
a court—cannot rely on generalized, boilerplate
assumptions about criminal habits. See United States
v. Underwood, 725 F.3d 1076, 1082–83 (9th Cir. 2013)

58a
(concluding that a trio of facts—a detective’s
observation of a personal-use sized baggie of
marijuana at a suspect’s home, the suspect’s one-time
delivery of two crates to drug traffickers, and the
affiant’s claims based on “experience and training”
regarding the general habits of drug traffickers—
could not support a finding of fair probability that
drug trafficking evidence would be found at
defendant’s home).
Here, like Underwood, the majority opinion
relies on the affidavit’s explanation of the generalized
habits of collectors of child pornography but points to
no individualized facts in this case demonstrating that
someone using Defendant’s IP address was, in fact, a
collector of child pornography. Ante at 13. For example,
the affidavit does not allege that someone using
Defendant’s IP address viewed or possessed child
pornography—or even successfully downloaded the
illicit content associated with the URL—let alone that
the IP address had ever accessed Bulletin Board A.
Ultimately, the majority’s reasoning is circular:
the IP address must have accessed the URL through
Bulletin Board A because the IP address was
associated with a collector of child pornography, and
in turn, the IP address must be associated with a
collector of child pornography because the IP address
accessed the URL through Bulletin Board A. But
without any affidavit evidence suggesting that the IP
address in fact accessed the URL through Bulletin
Board A or any evidence demonstrating that the IP
address belonged to a collector of child pornography,
the majority opinion cannot permissibly rely on the
generalized habits of those who view and possess
child pornography.

59a
Moreover, even if the majority could
permissibly rely on the affidavit’s boilerplate
language in this case, that language does not describe
the sharing habits of child pornography collectors or
the “complex measures” used to conceal their online
activities, and therefore that language has no bearing
on the likelihood of an innocent user accessing child
pornography inadvertently. Ante at 13. Indeed, the
fact that the government elected not to include such
language is telling. The template for search warrants
in child pornography cases used by law enforcement
officers in the Bulletin Board A investigation directs
affiants that they should include boilerplate
“collector” information in an affidavit “ONLY if” the
affiant can “tie [collector] characteristics to the
specific offender.” United States v. Reece, No.
2:16cr104, 2017 U.S. Dist. LEXIS 220176, at 22
(E.D.Va. Mar. 1, 2017). Accordingly, the government’s
decision not to include boilerplate language related to
the “complex” sharing habits of child pornography
collectors indicates that even it did not believe the
evidence supported inclusion of those boilerplate facts
and therefore the inferences drawn by the majority
opinion. Ante at 13.
In support of its assertion that the “likelihood
that a specific filesharing page containing child
pornography would find its way to somebody
uninterested in such contraband . . . is probably quite
low,” id., the majority opinion further relies on two
out-of-circuit cases to show that “consumers of child
pornography frequently employ complex measures to
keep their online activities secret,” and therefore that
it is unlikely that someone uninterested in child
pornography could, or would, access the URL in
question. Ante at 12–13 (citing United States v.

60a
McGarity, 669 F.3d 1218, 1230–31 (11th Cir. 2012),
abrogated on other grounds by Paroline v. United
States, 572 U.S. 434 (2014); United States v.
Vosburgh, 602 F.3d 512, 516–17 (3d Cir. 2010)).
But both of these cases—neither of which was
referenced by the government in the affidavit—
involve materially different facts from those at issue
here. McGarity dealt with a complex online ring of
child pornography users, which used codenames,
encryption, and other methods of subterfuge to
conceal their activities. 669 F.3d at 1229–31. And
Vosburgh involved an online message board that
directed users to child pornography using constantly
changing gateway websites, complicated access
instructions, and “cumbersome URLs.” 602 F.3d at
516–17.
Unlike McGarity and Vosburgh, the affidavit in
this case contains no analogous case-specific evidence
of a complex child pornography network relying on
complicated electronic concealment and security
measures. Instead, it documents a single click by an
unspecified user of a particular IP address of a URL
containing illicit content. And even if the facts of those
cases were in any way analogous to the facts set forth
the affidavit— which they were not—the government
elected not to reference those cases, or even the type
of conduct at issue in those cases, in its warrant
application. Warrant applications do not implicitly
incorporate, without reference, the entire Federal
Reporter. Rather, the government is obligated to put
the relevant, case-specific facts in the affidavit to
support probable cause. It simply failed to do so here.

61a
Additionally, the approach taken in the
majority opinion—relying on factually dissimilar
cases not referenced in the warrant affidavit as
evidence that there is a fair probability that a suspect
committed a crime in the same manner as those
earlier cases— eviscerates the Fourth Amendment’s
probable cause requirement. The majority opinion’s
reasoning rests on the unsupported, and
unsupportable, premise that if a defendant commited
a crime in a certain way in one case—like, for
example, the McGarity defendants’ use of codenames
and encryption methods—then there is a fair
probability that every other individual suspected of
the same crime committed that crime in the same
manner as the defendant in the first case.
Consider, for example, a case in which the
government suspected a physician’s involvement in
an alleged health care fraud scheme. In an earlier
health care fraud case, the government filed affidavits
and obtained three search warrants, for the
physician’s two medical offices and his personal
residence. See United States v. Srivastava, 540 F.3d
277, 280–81 (4th Cir. 2008). In addressing the
physician’s motion to suppress evidence seized from
his residence, among other challenges, this Court
concluded that the affidavit “made compelling
assertions that documents and records relating to [the
physician’s] medical practice—and that may
constitute evidence of health care fraud—would be
found in [his] residence.” Id. at 289. In particular,
the affidavit demonstrated that the physician
“conducted a substantial part of his medical practice
from [his] residence.” Id. For example, the insurance
billing for the physician’s medical practice was
conducted from his house, and his personal residence

62a
was listed as a billing address. Id. at 281. Therefore,
the affidavit demonstrated probable cause that
evidence of health care fraud would be found at his
residence. Id. at 289. In so doing, this Court
emphasized that the affidavit included case-specific
facts demonstrating a nexus between the physician’s
residence and the evidence of health care fraud.
Under the majority opinion’s analytical
approach—in which one defendant’s conduct may be
imputed to all future individuals suspected of
committing the same crime—there is a fair
probability that every future health care fraud
suspect conducted health care fraud in the same way
as the defendant in Srivastava—namely, from their
personal residence as well as their medical offices,
even if the affidavit alleges no facts to support such a
finding. Accordingly, under the majority opinion’s
flawed analysis, law enforcement would be able to
procure a search warrant for a future health care
fraud suspect’s home, even if the affidavit does not
demonstrate a nexus between her home and health
care fraud, simply because health care fraud has been
previously conducted in that manner. But see United
States v. Brown, 828 F.3d 375, 382 (6th Cir. 2016) (“If
the affidavit does not present sufficient facts
demonstrating why the police officer expects to find
evidence in the residence rather than in some other
place, a judge may not find probable cause to issue a
search warrant.”).
Such an analytical approach violates the
Fourth Amendment’s requirement that the “affidavit
supporting the search warrant . . . demonstrate a
nexus between the evidence sought and the place to
be searched.” Id. Contrary to the majority opinion’s

63a
reasoning, we cannot rely on factually unrelated cases
to ascertain probable cause merely because they
implicate the same crime. Rather, determining if an
affidavit properly establishes a nexus is a “factintensive question resolved by examining the totality
of circumstances presented.” Id. (citations omitted).
In further support of its conclusion that
Defendant’s IP address is unlikely to have innocently
encountered the URL in question, the majority points
to the “suspiciously short interval between” the
Bulletin Board A post and the URL click. Ante at 14
(emphasis added). In the majority’s view, this
temporal proximity is based “on the contents of the
affidavit, the magistrate judge’s likely familiarity
with online child pornography crimes, and his ability
to reach ‘common-sense conclusions about human
behavior.’” Id. (citations omitted).
But as explained previously, the simple fact
that the Bulletin Board A post and the alleged
accessing of the File Sharing Site URL took place on
the same day does not support the majority opinion’s
inferential leap. The naked click of a URL provides
very little information about how a particular IP
address—or individual using that IP address—
actually encountered or navigated to a URL. Simply
because law enforcement officers navigated the URL
through one particular pathway—clicking the URL
included in the Bulletin Board A post—does not
establish, in the absence of additional circumstantial
evidence, a fair probability that Defendant’s IP
address also accessed the URL using the same
pathway through the Bulletin Board A post. Because
the affidavit lacks facts to circumscribe the multitude
of potential paths someone using Defendant’s IP

64a
address could have taken to encounter and navigate
to the File Sharing Site URL, the probability that the
person in fact reached the URL through the Bulletin
Board A post—the foundation of the probable cause
theory embraced by the majority opinion—necessarily
approaches zero. This is not the “fair probability” the
Fourth Amendment demands.
On the contrary, the inference advanced by the
government and made up out of whole cloth by the
majority opinion—that someone using Defendant’s IP
address navigated to the File Sharing Site URL after
encountering the URL on Bulletin Board A—
amounts to the type of “improbable leap” that the
Fourth Amendment does not countenance. Lyles, 910
F.3d at 795. Put differently, that inference is not the
“usual inference [from] which reasonable men draw
from evidence” and therefore does not constitute a
“substantial basis” for issuing a warrant. Johnson v.
United States, 333 U.S. 10, 14 (1948).7
The majority opinion—like the district court—
distinguished this case from an analogous case, United States v.
Reece, No. 2:16cr104, 2017 U.S. Dist. LEXIS 220176 (E.D.Va.
Mar. 1, 2017). In Reece, the defendant challenged a search
warrant supported by an affidavit nearly identical to the
affidavit at issue here—the key difference being that the Reece
affidavit unambiguously established that the Bulletin Board A
post at issue appeared before someone using the suspect’s IP
address clicked on the URL included in the post. The Reece court
held that the government failed to establish probable cause to
support issuance of a warrant to search the suspect’s home. Id.
at *36.
7

The majority opinion attempts to distinguish Reece on
the basis that the time between the Bulletin Board A post and
the click on the File Sharing Site URL is shorter in this case than
in Reece (on the same day versus two days apart), thereby
rendering “the connection between the suspect and Bulletin

65a
B.
The most troubling aspect of the majority
opinion—most clearly evidenced by its reliance on the
government’s unsupported factual theory—is its
failure to grapple with the complex and novel
questions courts face when assessing probable cause
premised on conduct on the Internet.
1.
Probable cause is not a “[f]inely-tuned
standard[]” but rather “turn[s] on the assessment of
probabilities in particular factual contexts.” Gates,
462 U.S. at 232, 235. These probabilities are
“incapable of precise definition or quantification
into percentages” because they depend on the “totality
of the circumstances.” Maryland v. Pringle, 540
U.S. 366, 371 (2003).
Nevertheless, the term
“probabilities” necessarily contemplates that courts
try to estimate (at least) outer bounds on the
likelihood that contraband or evidence will be found
in a particular location at a particular time.
Otherwise, the probable cause inquiry would be
devoid of guardrails, opening the door to the general
warrants the Framers feared. To estimate those
outer bounds, courts rely on facts—facts that
Board A . . . much closer.” Ante at 16. Again, however, the
majority opinion underplays that the affidavit does not establish
that the Bulletin Board A post preceded the click, materially
weakening the purported “connection” between Defendant’s IP
address and Bulletin Board A. That stands in sharp contrast to
the affidavit in Reece, which unambiguously established that the
IP address attempted to download content from the URL after
the Bulletin Board A post, meaning that the still- insufficient
facts in Reece provided a stronger basis for finding a “connection”
between the suspect and the Bulletin Board A post.

66a
circumscribe the universe of potential explanations
and therefore allow the court to make an estimate
as to the numerator and denominator determining
the probability. See Lyles, 910 F.3d at 793 (“The
question, as so often in Fourth Amendment cases, is
what precisely the facts show.”); see generally Richard
Posner, Against Constitutional Theory, 73 N.Y.U.
L. Rev. 1, 3 (1998) (observing that “the greatest
need of constitutional adjudicators” is “empirical
knowledge”).
For instance, courts often must decide whether
to issue a warrant to authorize the search of a home
of a suspect known to sell drugs. In determining
whether a warrant should issue—whether there is a
fair probability that contraband or evidence will be
found at the suspect’s home—courts rely on numerous
circumstantial facts to guide their determination.
Thus, for example, courts upholding warrants issued
in such circumstances have emphasized that a recent
drug sale took place within a close vicinity of the
suspect’s home, United States v. Jones, 159 F.3d 969,
974 (6th Cir. 1998); that officers had a reasonable
belief that a suspect had just left his home and was
en route to a drug sale, United States v. Aguirre, 664
F.3d 606, 611 (5th Cir. 2011); or that the suspect
attempted to hide his residence from the police by
driving “erratically” on the way back from a sale,
United States v. Dessesaure, 429 F.3d 359, 368 (1st
Cir. 2005). See generally LaFave § 3.7(d) (collecting
cases). By geographically and temporally tying the
suspect’s conduct to his residence, these additional
facts—over and above the suspect’s history as a drug
dealer— make it more likely that the contraband or
evidence will be found in the place the government
seeks to search.

67a
By contrast, when insufficient information
“links the criminal [drug] activity to the defendant’s
residence”—for example, when the affidavit fails to
describe the storage of drugs at the residence, the
“geographic relationship” between the area of drug
sales and the residence, or temporal proximity
between evidence of drug activity at the residence and
the proposed search—then the affidavit is “devoid of
any basis from which the magistrate could infer that
evidence of drug activity would be found at [the
residence].” United States v. Lalor, 996 F.2d 1578,
1582–83 (4th Cir. 1993). Even when a magistrate
“might have been able to draw an inference from the
proximity of the drug sales to the [the defendant’s]
residence,” if the government fails to include
proximity evidence in a warrant application, then the
magistrate has “no basis” for finding probable cause.
Id. at 1583.
Additional facts circumscribing the universe
of possible explanations for potentially unlawful
conduct prove especially important when, as here, the
facts are consistent with an innocent explanation for
the conduct. Although the Fourth Amendment’s
probable cause requirement “does not depend on the
elimination of all innocent explanations for a
situation,” courts must consider the “existence of
countervailing probabilities” as part of their probable
cause analysis. United States v. Jackson, 415 F.3d 88,
94 (D.C. Cir. 2005). Otherwise, nothing would prevent
the government from presenting only the “most
incriminating interpretation of the circumstances”
and thereby depriving the magistrate of the
opportunity to weigh the likelihood that contraband
or evidence will be found against the likelihood that
contraband is absent. Id. at 94–95.

68a
For example, in United States v. Gary—an
opinion the government relied on in its briefing to the
district court, J.A. 44–45—this Court upheld a search
warrant for a home that had its genesis in an
anonymous tip that someone was selling drugs from
that home. 528 F.3d 324, 328 (4th Cir. 2008).
Following the tip, the police removed several tied
trash bags from two cans “directly behind” the home.
Id. at 326. The bags contained drugs and drug
distribution paraphernalia, including foil and baggies
with cut corners. Id. at 326. This Court recognized
the innocent possibilities that “another person placed
the offending bags [containing drugs] in the trash
cans, or that some other person moved the unmarked
can from its correct spot behind someone else’s home
to a place behind [the individual’s] home.” Id. at 327.
Nevertheless, those “mere possibilit[ies]” did not
defeat probable cause to search the home. Id.
In reaching that conclusion, we emphasized
several case-specific facts that rendered those
innocent alternative explanations unlikely. The
proximity between the trash cans and the home—the
police found the trash cans directly behind the
house—reduced the likelihood that contraband in the
trash can was unconnected to the adjacent home
because generally “trash cans placed directly behind
a home are used by those who live there” and trash
inside those trash cans is “usually generated by the
house closest to those cans.” Id. at 327–28 (emphasis
added). Other evidence further tightened the
connection between the trash can and the home—a
letter addressed to the house was found inside one of
the trash cans, and one of the cans bore the house’s
street number. Id. These facts, considered together,
established probable cause because they rendered

69a
“too slight” the possibility that the tied trash bags did
not come from the house. Id. at 328. Importantly,
unlike the majority opinion’s failure to meaningfully
consider the myriad ways someone using Defendant’s
IP address could have clicked on the File Sharing Site
URL without encountering the Bulletin Board A post,
the Gary Court did not dismiss out of hand potential
“innocent reasons” weighing against the likelihood
that drug evidence would be found in the home.
Instead, this Court looked at the totality of the
circumstances and cited specific facts that made those
possibilities unlikely.
By contrast, in United States v. Lyles, we held
that a single trash pull “revealing evidence of three
marijuana stems, three empty packs of rolling papers,
and a piece of mail, standing alone” did not justify
a search warrant for an adjacent home. 910 F.3d at
793. In reaching that conclusion, we highlighted
several case-specific facts that rendered the case
distinguishable from Gary. Whereas in Gary the
trash pull revealed drug distribution paraphernalia—
evidence consistent with recurrent or ongoing activity
within the residence, meaning that contraband was
likely still at the residence—the single trash pull in
Lyles revealed only a “tiny quantity of discarded
[marijuana] residue” that provided no evidence of
recurrent or ongoing activity, rendering it possible,
but “not probabl[e],” that drugs would be found in the
home. Id. at 793–94 (citations omitted). Additionally,
whereas in Gary law enforcement officers received a
tip that drug distribution activities were taking place
at the residence, in Lyles the affidavit submitted by
the government in support of the warrant provided no
evidence, beyond the evidence in the trash bag, that

70a
the residence, or individuals living therein, was
involved in drug distribution activities. Id.
The types of corroborative facts present in
Gary—and absent in Lyles—are especially important
in cases, like the instant case, in which the
government seeks to obtain a warrant based on online
conduct, as the Internet significantly expands the
universe of “countervailing probabilities” that courts
must consider in weighing whether the government
has met its burden to show that there is a fair
probability that contraband will be found in the place
it seeks to search. Jackson, 415 F.3d at 94. In other
words, many of the physical, spatial, and temporal
limitations that historically proved invaluable in
assessing probable cause do not apply in the digital
context or apply in meaningfully different ways.
For example, whereas this Court could rely on
geographic proximity in Gary to conclude that there
was a fair probability that contraband would be found
in the residence adjacent to the trash cans, geographic
proximity has little or no relevance in the context of
conduct on the Internet—like the alleged download of
child pornography—because the Internet allows for
rapid dissemination of electronically stored content
throughout the world. That is to say, whereas the
limited number of homes within the physical
proximity of a trash can means that the probability
contraband will be found at any one house near the
trash can is fairly large (because the limited number
of homes renders the denominator of the probability
relatively small), geographic proximity does not serve
to increase the probability that contraband will be
found at a particular location in the Internet context.

71a
2.
That certain facts courts historically have
relied on to assess probable cause lack, or have
diminished, probative value in the Internet context
does not mean that the government will never be able
to surmount its evidentiary burden to obtain a
warrant based on Internet conduct. “Technology is
both a threat and a promise.” Vieth v. Jubelirer, 541
U.S. 267, 312 (2004) (Kennedy, J., concurring in the
judgment). Although new technologies can foreclose
certain avenues for the government to show probable
cause—such as through geographic proximity—“new
technologies [also] may produce new methods” of
demonstrating probable cause. Id. at 312–13. For
example, the ease with which Internet and
telecommunications companies can capture and store
information regarding an IP address’s browsing
behavior and online activities provides a wealth of
additional information for the government to rely on
in seeking to obtain a search warrant for a residence
associated with the IP address.
In the child
pornography context, in particular, courts routinely
rely on such evidence—or the absence of such
evidence—to determine whether the government has
met its burden to show a fair probability that evidence
related to child pornography offenses will be found at
a residence associated with a particular IP address.
For instance, in United States v. Gourde, 440
F.3d 1065 (9th Cir. 2006) (en banc), the Ninth Circuit
found probable cause to search a defendant’s
residence based on facts set forth in affidavit
establishing a fair probability that the suspect
“inten[ded] and desire[d] to obtain illegal images,” id.
at 1070. Those facts included that (1) the suspect

72a
paid for a subscription to a website, Lolitagirls.com,
that “was a child pornography site whose primary
content was in the form of images”; (2) electronic
records from a credit card processing service revealed
that in order to subscribe to the website the suspect
“submitt[ed] his home address, email address and
credit card data, and he consented to have $19.95
deducted from his credit card every month”; and (3)
the suspect “became a member [of the website] and
never looked back—his membership ended because
the FBI shut down the site” several months later. Id.
at 1070–71. The Court reasoned that these facts
established that the defendant “could not have
become a member by accident or by a mere click of a
button[.]” Id. (emphasis added). The Court relied on
the circumstantial evidence regarding the defendant’s
Internet
conduct
to
determine
that
the
“countervailing probabilit[y]” that the defendant
innocently visited the website was low. Jackson, 415
F.3d at 94; see also, e.g., United States v. Martin, 426
F.3d 68, 78 (2d Cir. 2005) (finding probable cause to
search a residence when electronic records revealed
that an individual with a particular email address
“joined . . . voluntarily and never cancelled his
membership” to a child pornography website and that
the user of the email address lived at the residence for
which the warrant was sought).
In contrast, courts have declined to find
probable cause when the government fails to put
forward supporting facts that diminish the likelihood
that a child pornography website was accessed
innocently or unintentionally.
For example, in
United States v. Falso, the Second Circuit held that a
forensic analysis of a child pornography site’s server
revealing that a suspect—who the affidavit reported

73a
had been charged 18 years earlier for sexually
abusing a seven-year-old girl—had “either gained
access or attempted to gain access” to a child
pornography website did not establish probable cause
to search the suspect’s home, 544 F.3d at 114. Writing
for the court, then-Judge, now-Justice Sotomayor
held that those facts were insufficient to establish
probable cause because, unlike Martin, the affidavit
included “no allegation that [the suspect] in fact
gained access to the [child pornography] website,
much less that he was a member or subscriber of any
child- pornography site.” Id. at 124.
The Second Circuit pointed to several types of
information that the government could have—but did
not—adduce in preparing its warrant application that
may have allowed it to satisfy the “fair probability”
standard, including that the suspect (1) took actions
“tend[ing] to negate the possibility that his
membership or subscription was unintended,” such as
being a member of multiple child pornography sites or
having provided personal information to join a child
pornography site; (2) used an “e-mail address[] or
screen name[] suggestive of an interest in collecting
child pornography”; or (3) had a “criminal history
relating to child pornography.” Id. at 120 (collecting
cases). The court further suggested that, to show it
was more likely that contraband would be found at
the suspect’s residence, the government “could have
monitored the traffic of [the child pornography]
website and ascertained whether [the suspect] (and
others) actually downloaded pornography from the
site.” Id. at 124 n.20.
The majority opinion’s resolution of this case
puts this Court at odds with Gourde, Martin, and

74a
Falso8 and other circuit decisions requiring the
government to adduce additional facts—over and
above the single click of a URL that provides for
download of child pornography—to establish probable
cause to search a residence associated with the IP
address responsible for the click. Unlike in Gourde,
Martin, and Falso—and notwithstanding that the
warrant application had its genesis in the
government’s monitoring of Bulletin Board A—the
government concedes that its warrant application
never established that someone using Defendant’s IP
address ever had visited Bulletin Board A, let alone
consciously joined that site.
Nor does the affidavit establish any of the other
types of facts Falso recognized courts use to
The majority opinion attempts to distinguish Falso on
grounds that “there, the affidavit contained no allegation that
the defendant in fact gained access to a website containing child
pornography, nor any allegation that images of child
pornography were downloadable from the site.” Ante at 17
(internal quotation marks and alterations omitted). According to
the majority opinion, the affidavit in this case is materially
different because it “alleged that [Defendant]’s IP address
accessed a URL” containing child pornography. Id.
8

But under the majority’s reasoning, that difference is
irrelevant. The majority opinion holds—and I agree—that to
establish probable cause based on a “single click,” the affidavit
must establish a fair probability that “someone using
[Defendant]’s IP address clicked the link knowing that it
contained child pornography.” Ante at 8. Under that rule, the
“access[ing of] a URL” containing child pornography does not, by
itself, establish probable cause.
Rather, there must be
“knowing” accessing of illicit content. Id. at 8–9. As explained
above, the affidavit failed to establish that someone using
Defendant’s IP address navigated to the URL through the
Bulletin Board A post, and therefore failed to establish that the
person “knowing[ly]” sought to access child pornography.

75a
circumscribe the universe of potential explanations
for an IP address clicking on a URL linked to child
pornography.
The affidavit did not aver that
Defendant, or someone likely to be using his IP
address, used an email address or Internet
screenname suggestive of an interest in child
pornography; had a criminal history relating to child
pornography; or ever had visited or joined other child
pornography sites. Put another way, the affidavit
establishes solely that someone using Defendant’s IP
address clicked on a URL hosted on File Sharing
Site—in short, the “mere click of a button” rejected by
the Ninth Circuit in Gourde. See also United States
v. Coreas, 419 F.3d 151, 156 (2d Cir. 2005) (Rakoff, J.)
(rejecting the theory that the naked “clicking [of] a
button” was sufficient to establish probable cause).
The majority opinion nevertheless contends
that its decision is consistent with these out-of-circuit
decisions because here, the “abbreviated time frame”
alone suffices as an additional fact “lessen[ing] the
likelihood that [Defendant’s] IP address accessed the
link independently of Bulletin Board A.” Ante at 18.
But, as explained above, the affidavit does not
establish that someone using Defendant’s IP address
accessed the File Sharing Site URL after the Bulletin
Board A post. And the additional facts relied upon by
other circuits—such as whether the IP address paid
for a child pornography website subscription;
submitted personal information to a child
pornography website; or was a member of a child
pornography website—establish a much closer nexus
between the suspect’s IP address and a child
pornography website than the purported relationship
by the facts set forth in the affidavit here, which show
only that the Bulletin Board A post appeared on the

76a
same day that someone using Defendant’s IP address
clicked on a URL to a different website.
3.
Comparing this case to Gourde, Martin, and
Falso also puts in sharp relief the types of information
omitted from the affidavit, but which the government
may have been able to include in the affidavit to
reduce the “countervailing probabilit[y]” that
someone using Defendant’s IP address navigated to
the File Sharing Site URL via some pathway other
than the Bulletin Board A post. For instance, the
affidavit may have been able to provide the
timestamp of the Bulletin Board A post, and thereby
rule out the possibility that someone using
Defendant’s IP address clicked on the URL before the
post appeared on Bulletin Board A. Or, the affidavit
may have been able to state whether Defendant’s IP
address actually downloaded the child pornography
hosted by File Sharing Site—meaning that the
contraband was more likely stored on a computer
in Defendant’s residence—rather than simply
“attempt[ing]” to do so. Or, the affidavit may have
been able to state, based on the government’s
monitoring of Bulleting Board A, whether Defendant,
or someone using his IP address, ever had posted to
Bulletin Board A. Or, the affidavit may have
addressed whether someone using Defendant’s IP
address had clicked the File Sharing Site URL
another time. Or, the affidavit could have stated
whether the IP address had clicked another URL on
File Sharing Site or some other website containing
child pornography. Or, the affidavit may have been
able to state whether Defendant, or someone likely to
be using his IP address, had committed prior offenses

77a
indicative of a potential interest in child pornography.
Or, the affidavit may have been able to state, based
on the records the government obtained from File
Sharing Site, how many different IP addresses
downloaded or attempted to download the content
accessible through the URL, thereby providing some
indication as to how widely the URL was
disseminated.
Any one of these facts would have provided the
magistrate with greater clarity as to whether there
was a fair probability that someone using Defendant’s
IP address clicked on the URL knowing that it would
likely lead to the download of child pornography, and
therefore that contraband was likely to be found in
Defendant’s residence. Importantly, the government
never has stated, either in the affidavit or in briefing,
that it could not have learned of some or all of these
facts before submitting the warrant request.
By allowing the government to obtain a
warrant to rummage through Defendant’s residence
and effects based on the single click of a URL
navigating to a website not devoted to child
pornography, File Sharing Site, the majority opinion
invites the government to submit similar bare-bones
affidavits in the future. That is to say, the approach
taken by the majority opinion—which relies on those
representations in the government’s briefing that do
not find support in the affidavit submitted in support
of the warrant—sends a message to government that
any ambiguities or omissions in the evidence it
submits in support of a warrant application will inure
to its benefit.

78a
That is precisely the wrong message for the
judiciary to send to the government. As explained
above, in order to assess whether there is a fair
probability that contraband or evidence in a place the
government seeks to search, courts need facts—we
need to know “what precisely the facts show.” Lyles,
910 F.3d at 793. And it is the government’s burden to
put forward those facts necessary for courts to
make that determination. Accordingly, rather than
rewarding the government for submitting a warrant
application
with
glaring
inadequacies
and
omissions—like the time of the Bulletin Board A
post—this Court should require the government “to
comply with the well-known duty to spell out the
complete factual basis for a finding of probable cause
within the affidavit’s four corners” and thereby
advance the “preeminently worth goal” of “deterring
police from submitting (and magistrates from
accepting) affidavits that completely omit crucial
factual allegations.” Virgin Islands v. John, 654 F.3d
412, 420 (3d Cir. 2011).
4.
The conspicuous absence of facts circumscribing
the universe of countervailing probabilities also
fatally undermines the efforts by my colleagues in the
majority to analogize the online conduct at issue to
analytical frameworks developed by courts prior to
the advent of the Internet. Analogical reasoning
follows a familiar four-step framework: “(1) Some fact
pattern A has a certain characteristic X, or
characteristics X, Y, and Z; (2) Fact pattern B differs
from A in some respects but shares characteristics X,
or characteristics X, Y, and Z; (3) The law treats A in
a certain way; (4) Because B shares certain

79a
characteristics with A, the law should treat B the
same way.” Cass R. Sunstein, On Analogical
Reasoning, 106 Harv. L. Rev. 741, 745 (1993). It is
“readily app[arent]” from this framework that
“analogical reasoning does not guarantee good
outcomes or truth.” Id. Rather, “[f]or analogical
reasoning to operate properly, we have to know that
A and B are ‘relevantly’ similar, and that there are
not ‘relevant’ differences between them.” Id. at 745.
In cases involving new technology like the Internet,
therefore, analogical reasoning is valid only if the new
technology is “‘relevantly’ similar” to the technology
employed in the cases in which the rule or framework
was developed or previously applied.
To be sure, there are cases in which new
technology is “‘relevantly’ similar” to technology
considered in earlier cases, rendering analogies
between cases involving the two types of technology
valid. For instance, in determining whether social
media websites constitute public forums for purposes
of the First Amendment, the Supreme Court has
described such sites as “the modern public square.”
Packingham v. North Carolina, 137 S. Ct. 1730, 1737
(2017).
That analogy is “‘relevant[ly]’ similar”
because, at least in certain circumstances, social
media sites “bear the hallmarks of a public forum” by
constituting a space for unfettered “public discourse.”
Davison v. Randall, 912 F.3d 666, 682 (4th Cir. 2019);
see also, e.g., City of Richmond v. S. Bell Tel. & Tel.
Co., 174 U.S. 761, 776–77 (1899) (analogizing the
telephone to the telegraph in deciding whether a
telephone company’s business was within the purview
of a congressional act relating to telegraph
companies).

80a
But there are also cases in which analogical
reasoning has proved faulty as a result of “‘relevant’
differences” between the facts at issue and the cases
to which courts seek to draw an analogy. For
example, several courts once held that law
enforcement officers could conduct a warrantless
search of an arrestee’s cell phone on grounds that cell
phones are analogous to “container[s]”—like cigarette
packs, wallets, or purses—which may be searched
incident to arrest. See, e.g., United States v. Wurie,
612 F. Supp. 2d 104, 109–110 (D. Mass. 2009)
(collecting cases), rev’d 728 F.3d 1 (1st Cir. 2013). In
Riley v. California, the Supreme Court rejected that
reasoning, highlighting the numerous ways in which
cell phones differ from other objects arrestees keep on
their person, rendering the analogy between cell
phones and containers inapt. 573 U.S. at 393 (“Cell
phones differ in both a quantitative and a qualitative
sense from other objects that might be kept on an
arrestee’s person.”). According to the Supreme Court,
one crucial “‘relevant’ difference” between cell phones
and the type of “containers” law enforcement officers
may search incident to arrest is the “immense storage
capacity” of modern cell phones, which allows for the
storage of a vast trove of highly personal information
that, prior to the advent of modern electronic storage,
could not be stored in “a container the size of [a]
cigarette package.” Id. at 393–95. Riley, therefore,
stands for the general proposition that because
“[c]yberspace is different from the physical world,”
courts “should proceed circumspectly” in analogizing
analog case law to the digital context. Packingham,
137 S. Ct. at 1743–44 (Alito, J., concurring in the
judgment).

81a
Here, in appealing to the purported “temporal
proximity” between the Bulletin Board A post and the
click on the URL hosted by File Sharing Site, the
government advances—and the majority opinion
embraces—an unstated analogy to the evidentiary
rule providing for authentication of a writing,
communication, or other form of evidence based on
“[a]ppearance, contents, substance, internal matters,
or other distinctive characteristics, taken in
conjunction with circumstances.” Fed. R. Evid.
901(b)(4). Rule 901(b)(4) codifies and generalizes the
common-law “reply-letter doctrine,” which provides
for authentication of a writing or communication
“where it can be show that the [writing or
communication] was sent in reply to a previous
communication.” Winel v. United States, 365 F.2d
646, 648 (8th Cir. 1966); see also Charles Alan Wright
& Victor James Gold, Federal Practice & Procedure:
Evidence § 7109, at 83 (2000).
The majority opinion reasons that because the
click (possibly) occurred soon after the Bulletin Board
A post—and because the URL was composed of a
distinctive string of letters and numbers—the person
using Defendant’s IP address who made the click
must have encountered the URL on Bulletin Board A.
In a nutshell, the majority opinion rests on the
determination that due to temporal proximity and the
unique content of the URL there is a fair probability
that the click was made “in reply to” the Bulletin
Board A post.
But there are “‘relevant’ differences” between
the factual scenario in which courts have applied
the reply rule and the Internet context to which
the majority opinion seeks to extend it. Most

82a
significantly, unlike with the items typically
authenticated
under
Rule
901(b)(4)—letters,
telephone calls, or even emails—URLs can be easily
copied, disguised, and shared rapidly and widely—
preserving no indication of their provenance—
meaning that there are potentially millions of
pathways through which someone using Defendant’s
IP address could have encountered and navigated to
the File Sharing Site URL. See supra Part II.A.
That difference materially undermines the
analogy to authentication under Rule 901(b)(4), which
is premised on the notion that the “distinctive
characteristics” of a writing make it sufficiently likely
that an item of evidence is what a proponent purports
it to be. Wright & Gold, Fed. Prac. & Proc.: Evid.
§ 7109, at 74–87 (emphasis added); see also
McQueeney v. Wilmington Trust Co., 779 F.2d 916,
930 (3d Cir. 1985) (authenticating record based on
distinctiveness of information contained therein
because “[a]lthough we do not know precisely how
many people had the information contained in the
proffered evidence, we suspect . . . that the number is
small” (emphasis added)). When thousands or even
millions of copies of a URL can exist on the Internet—
and the government provides no factual basis for
circumscribing that universe to a “small” number of
relevant copies, McQueeney, 779 F.2d at 930—one
cannot reasonably determine that someone using
Defendant’s IP address clicked on that URL in reply
to one posted copy of the URL—here, the Bulletin
Board A post.
Notably, commentators have recognized that
new technology allowing for easy replication and
duplication of documents—akin to the easy

83a
duplication of URLs—has forced courts to reconsider
which characteristics of a writing render it
sufficiently distinctive to establish its provenance.
Wright & Gold, Fed. Prac. & Proc.: Evid. § 7109, at
80–81 (“[W]hile earlier cases often assumed that the
use of letterhead paper is sufficient to establish
authenticity, that conclusion is now undermined by
the current widespread availability of photocopy
machines, scanners, and computer software capable
of forging any letterhead.”). Accordingly, the ease
with which URLs can be copied and shared renders
inapt the analogy upon which the majority opinion
implicitly relies.
Or consider another proposed analogy
advanced by one of my colleagues in the majority
during oral argument:
If a package is being sent through the
mail to a residence and that package
contains cocaine . . . and [law enforcement
officers] go and say they want a search
warrant for that house because the
package is being delivered there, there is
probable cause to search that house,
right. We recognize though that it could
well be and, in fact, we actually know
that often . . . drug dealers will send
packages to their next door neighbor, for
example, and try to pick them up before
they are gathered. So there are always
possibilities that that package could be
sent to an innocent neighbor instead of
the actual drug dealer. But throughout
the case law we say that that may well
be true—that is a possible explanation—

84a
that the receiver doesn’t know that it
was coming, but that doesn’t destroy
probable cause.
Oral Argument at 41:40–43:46; see also, e.g., United
States v. Lawson, 999 F.2d 985, 988 (6th Cir. 1993)
(reasoning that the possibility that the addressee of
package containing drugs was an “innocent
receiver[]” was “extremely remote, especially in the
context of a controlled delivery of a quantity of drugs
presumptively sufficient to constitute possession for
resale.”). Again, several aspects of this analog analogy
do not map well onto the digital context.
To begin, as in the trash pull example at issue
in Gary, see supra Part II.B.1, the limited number of
houses “neighbor[ing]” the house to which the
package of cocaine is delivered allows courts to place
a lower bound on the probability that the house to
which the package was delivered was, in fact, the
package’s intended recipient. By contrast, because
URLs can be copied myriad times and rapidly
disseminated to an infinite number of IP addresses
around the world, geographic proximity provides no
assistance to courts in assessing the probability that
electronically disseminated contraband will be found
in any particular location.
Second, contraband disseminated over the
Internet is not subject to the same physical
constraints as the package of cocaine in my
colleague’s hypothetical. A URL, and the content to
which it navigates, can be replicated, stored, and
reposted with little or no cost or effort. By contrast, a
package of cocaine cannot be replicated and obtaining
additional packages of cocaine is costly. Due to the

85a
cost and complexity of obtaining packages of cocaine,
someone is not likely, for example, to send a package
of cocaine to a large swath of innocent persons as part
of an extortion scheme, as has occurred with child
pornography disseminated electronically. See Levin,
supra.
Third, there are more ways to disguise the
content to which a URL navigates than a package of
cocaine. As explained above, there are virtually an
infinite number of ways that one can mask a URL,
through methods such as link shortening or
disguising. To be sure, there also are ways to disguise
a package of cocaine—the sender, for example, can
use a false return address or use a box that suggests
the contents of the package are innocuous. But the
methods for disguising cocaine are more limited—a
given quantity of cocaine takes up a certain amount
of space and has a certain weight, meaning any effort
to mask a package of that quantity of cocaine is
necessarily subject to certain physical limitations.
Fourth, the cocaine package can be delivered
by limited means—the postal service, a commercial
service like FedEx or UPS, or a private individual or
group. By contrast, as explained above, the IP address
could have encountered and navigated to the URL in
myriad ways, only some of which provide any
indication of the nature or origin of the content to
which the URL navigates.
That the bare-bones facts provided in the
affidavit—a single click of a random alphanumeric
URL leading to a widely used file sharing website
hosting downloadable child pornography on the same
day as a copy of the URL appeared on a different
website devoted to child pornography—render the

86a
analogies my colleagues in the majority seek to draw
inapt does not mean, however, that courts can never
rely on analogical reasoning to assess probable cause
in the Internet context. Rather, it means that the
government must put forward sufficient facts in an
affidavit to establish that the online conduct at issue
is “‘relevant[ly] similar” to the facts of prior cases such
that the analogy the government wishes the court to
draw is valid. The government simply failed to do that
here.
5.
The majority opinion’s resolution of this case
also opens the door to the government obtaining the
general warrants the Framers feared. In particular,
it opens the home—“first among equals” when it
“comes to the Fourth Amendment”—to sweeping
governmental searches based on a single click of a
URL by an Internet user, regardless of whether the
government adduces facts indicating that the user
intended to navigate to the URL’s illicit content.
Jardines, 569 U.S. at 6. Several hypotheticals
illustrate the dangerous scope of the majority
opinion’s holding.
Suppose, for example, that a businessperson is
conducting Internet research related to her business
when a pop-up suddenly appears stating that her
computer has a virus and that she should “Click here”
to start the computer’s clean-up process. Thinking
the pop- up window was generated by her computer’s
anti-virus program, she clicks the link and navigates
to a URL hosted by a widely used file sharing service,
like File Sharing Site, where, upon entry of a
password, a user can download child pornography.

87a
Or consider that Grandma receives an email
from what appears to be a close friend. The email
contains the following sentence “Click HERE for my
favorite knitting website.” The word “HERE” is a
hyperlink, appearing to direct Grandma to that
knitting website. Grandma hovers her mouse over
the word “HERE,” which reveals the URL. But given
the URL’s random alphanumeric string, it reveals
nothing about its content. Believing that the URL
navigates to the knitting website, Grandma clicks
“HERE” and is redirected to the same file sharing
service URL encountered by the businessperson.
Or consider a teenager who clicks an online
post that purportedly links to the latest viral
YouTube video. Unbeknownst to the teenager, the
link has been spoofed to appear to look like a YouTube
link. Clicking the link in fact takes the teenager to
the same file sharing service URL encountered by the
businessperson and Grandma.
Or consider a college student who regularly
visits a popular website devoted to adult
pornography. A post in a discussion forum on the
website includes a random alphanumeric URL, which
the post says navigates to additional free
pornographic images. The student clicks the link,
which navigates the student’s browser to the same file
sharing URL encountered by the businessperson,
Grandma, and the teenager.
In each of these hypotheticals, also suppose
that the same day, independently of each individual’s
innocent navigation to the URL, a post on a known
child pornography site, like Bulletin Board A,
included that same URL. The timing of the post on

88a
the child pornography site is irrelevant—it could have
appeared before or after the businessperson,
Grandma, the teenager, or the college student
navigated to the File Sharing Site URL.
Under the majority’s opinion, in each of these
hypothetical scenarios, the government would be able
to obtain a search warrant to conduct an invasive
search of each individual’s home and electronic
devices for evidence of wrongdoing. Like the instant
case, no additional fact in these hypotheticals
demonstrates the businessperson’s, Grandma’s, the
teenager’s, or the college student’s intention either to
access the child pornography site or child
pornography, and no limiting fact reduces the
countervailing innocent probabilities.
Contrary to the majority’s wholly unsupported
speculation that the “likelihood that a specific
filesharing page containing child pornography
would find its way to somebody uninterested
in such contraband . . . is probably quite
low,” these hypotheticals are not far-fetched.
Ante at 13; see, e.g., Robert Siciliano, Why Is
Child Pornography on Your PC?, HuffPost (Dec.
6, 2017), https://www.huffpost.com/entry/why-ischild-pornography_b_356539? (“When you click a link
in an email or a pop up advertisement in your browser,
you may inadvertently download one of these viruses,
which can then visit child pornography websites
and download files onto your hard drive.”); Viruses
Frame PC Owners for Child Porn, CBS News (Nov. 9,
2009, 12:49 PM), https://www.cbsnews.com/news/
viruses-frame-pc-owners-for-child-porn (describing
an Associated Press investigation into numerous
cases in which child pornography was placed on a

89a
computer through a virus, including one computer
that was “programmed to visit as many as 40 child
porn sites per minute”).
And it takes little
imagination to envision corporate competitors, jilted
lovers, or other bad actors sending unsuspecting
victims disguised links to illicit content, knowing that
if their victims click on that link, the government
could search their homes or businesses.
*****
In sum, taking seriously the nature of the new
and advancing technology at issue, the connection my
colleagues in the majority draw between the Bulletin
Board A post and the click on the File Sharing Site
URL does not find factual support in the
government’s bare-bones warrant application. A
single click of a URL, absent any further factual
evidence circumscribing the universe of paths
through which someone using Defendant’s IP address
could have encountered and navigated to that URL—
nearly all of which have no relation to Bulletin Board
A—is insufficient to establish probable cause. Indeed,
the majority opinion concedes that in a “case based
purely on an IP address connecting with a URL,”
probable cause “may be hard to establish absent other
incriminating evidence.” Ante at 15. Contrary to the
majority’s belief, this is that case.
Physical searches of the home represent the
“chief evil against which the wording of the Fourth
Amendment is directed.” United States v. U.S. Dist.
Court (Keith), 407 U.S. 297, 313 (1972).
The
majority’s
unquestioning
acceptance
of
the
government’s probable cause theory—that, “by [the]
act of clicking a button,” an individual opens the doors

90a
of his home and the electronic devices stored therein
to a sweeping search by government agents—is
“utterly repellent to core purposes of the Fourth
Amendment.” Coreas, 419 F.3d at 156. Therefore, I
dissent from the majority opinion’s conclusion that
the magistrate judge had a substantial basis for
finding that there was a fair probability that
contraband would be found at Defendant’s residence.
III.
Defendant next argues that even if probable
cause existed to search his residence in November
2015—when someone using Defendant’s IP address
sought to download child pornography from File
Sharing Site—probable cause no longer existed when
the government obtained the warrant and searched
his residence six months later. I agree.
Defendant’s argument rests on the wellestablished rule that a valid search warrant “may
issue only upon allegations of facts so closely related
to the time of the issue of the warrant as to justify a
finding of probable cause at that time.” United States
v. McCall, 740 F.2d 1331, 1335–36 (4th Cir. 1984)
(internal quotation marks omitted). To that end, the
information in the affidavit supporting the warrant
must not be “too stale to furnish probable cause.” Id.
at 1336. Staleness is “not resolved by reference to pat
formulas or simple rules.” Id. Rather, “we must look
to all the facts and circumstances of the case,
including the nature of the unlawful activity alleged,
the length of the activity, and the nature of the
property to be seized.” Id.
Child pornography cases present “unique”
staleness questions. United States v. Raymonda, 780

91a
F.3d 105, 114 (2d Cir. 2015) (internal quotation
marks). As the majority correctly recognizes, when
assessing claims of staleness in child pornography
cases, courts distinguish between categories of
suspects. The first category encompasses suspects—
often referred to as “collectors”—for whom
“circumstances suggest[] [they] had accessed those
images willfully and deliberately, actively seeking
them out to satisfy a preexisting predilection.” Id. at
114–5. The second category encompasses those
suspects for whom there is an absence of evidence of
willful or deliberate interest in child pornography—
suspects who may have encountered child
pornography in a “purely negligent or inadvertent”
manner. Id. at 115.
In cases involving collectors, “courts have
largely concluded that a delay—even a substantial
delay—between distribution and the issuance of a
search warrant does not render the underlying
information stale.” United States v. Richardson, 607
F.3d 357, 370 (4th Cir. 2010) (rejecting that a period
of four months between the defendant’s email of an
image depicting child pornography until the warrant
was issued); see also United States v. Burkhart, 602
F.3d 1202, 1206 (10th Cir. 2010) (noting that the
“‘passage of time alone’ cannot demonstrate
staleness” in child pornography cases). Such an
approach is warranted because collectors “value their
sexually explicit materials highly, rarely if ever
dispose of such material, and store it for long periods
in a secure place, typically in their homes.”
Richardson, 607 F.3d at 370 (citations and internal
quotation marks omitted); see also United States v.
Sassani, 139 F.3d 895 (4th Cir. 1998) (unpublished)
(collecting cases).

92a
But as the Second Circuit has recognized, “the
value of [these] inference[s] in any given case depends
on the preliminary finding that the suspect is a person
‘interested in’ images of child pornography”—that the
suspect is, in fact, a collector. Raymonda, 780 F.3d at
114. Put simply, “the ‘alleged proclivities of collectors
of child pornography’ . . . ‘are only relevant if there is
probable cause to believe that [a given defendant] is
such a collector.’” Id. (quoting Coreas, 419 F.3d at
156).
In determining whether an affidavit submitted
in support of a warrant establishes a fair probability
that a child pornography suspect is a collector, courts
have looked to “a suspect’s admission or other
evidence identifying him as a ‘pedophile,’” a suspect’s
paid access or subscription to child pornography, or a
suspect’s “extended history of possessing or receiving
pornographic images.” Raymonda, 780 F.3d at 114–
15 (collecting cases). Here, the affidavit is devoid of
evidence that the individual using Defendant’s IP
address to click on the URL was a “collector,” as
courts have construed that term. The affidavit
presents no evidence: that Defendant, or anyone
likely to be using his IP address, was a pedophile; that
Defendant’s IP address had ever subscribed to or paid
for access to child pornography; or that someone likely
to be using Defendant’s IP address had ever possessed
or received child pornography. The affidavit does not
even aver that a device connected to Defendant’s IP
address downloaded—let alone opened—the child
pornography stored on File Sharing Site prompting
the warrant request.
In certain cases, courts have inferred that a
suspect was a collector “on the basis of a single

93a
incident of possession or receipt”—when, “for
example, the suspect’s access to the pornographic
images depended on a series of sufficiently
complicated steps to suggest his willful intention to
view the files” or when the defendant “subsequently
redistributed that [single] file to other users.” Id. at
115 (emphasis added). But in such cases the inference
that the suspect was a “collector” “did not proceed
merely from evidence of [] access to child pornography
at a single time in the past.”
Id.
Rather, the
inference rested on “circumstances suggesting that
[the individual] had accessed those images willfully
and deliberately, actively seeking them out to satisfy
a preexisting predilection.” Id.
The government argues—and the majority
opinion agrees—that the circumstances described in
the affidavit surrounding the attempt to download
child pornography from File Sharing Site on
November 2, 2015, established a “fair probability”
that “whoever clicked on the link did so willfully and
deliberately because he was interested in images of
child pornography.” Ante at 21. In support of that
conclusion, the majority opinion relies entirely on its
determination that the information set forth in the
affidavit established that it was fairly probable “that
somebody saw the description and video thumbnails
on a website devoted to child pornography, Bulletin
Board A, and then deliberately sought out the video
by clicking that link.” Id.
But the affidavit fails to establish a fair
probability that someone using Defendant’s IP
address ever visited Bulletin Board A, let alone
navigated through the November 2, 2015, post on
Bulletin Board A to the child pornography stored by

94a
File Sharing Site. See supra Part II. And the
affidavit’s averments bearing on whether Defendant’s
IP address was used by a collector materially differ
from the cases in which this Court and other courts
have rejected staleness arguments in child
pornography cases.
In Richardson, for example, this Court
concluded that a delay of four months did not render
the probable cause finding stale “in light of the other
information supplied by [the federal agent], including
the previous instance in which [the defendant] used
an AOL account to send such images [.]” 607 F.3d at
370 (emphasis added); see also United States v. Lacy,
119 F.3d 742, 745 (9th Cir. 1997) (holding that tenmonth-old information is not stale where the affidavit
provided evidence that the defendant downloaded
at least two GIFs depicting minors engaged in
sexual activity); United States v. Ramsburg, 114 F.
App’x 78, 82 (4th Cir. 2004) (unpublished) (concluding
that evidence was not stale when it showed the
defendant had previously transmitted an image of
child pornography was a member of two e-groups
that regularly distributed child pornography).
Accordingly, the majority errs in rejecting
Defendant’s staleness argument.
IV.
Finally, the majority holds that even if the
search warrant was constitutionally deficient—either
due to lack of probable cause or staleness—the district
court did not reversibly err in refusing to suppress the
evidence obtained during the search because the
officers reasonably relied on the warrant in executing
the search. Ante at 18. Again, I disagree.

95a
Under the so-called “good faith” exception to
the exclusionary rule, “evidence obtained pursuant to
a search warrant issued by a neutral magistrate does
not need to be excluded if the officer’s reliance on the
warrant was ‘objectively reasonable.’” United States v.
Doyle, 650 F.3d 460, 467 (4th Cir. 2011) (citing United
States v. Leon, 468 U.S. 897, 922 (1984)). Defendant
argues that the government is not entitled to invoke
the good faith exception for two reasons: the materials
submitted to the magistrate in support of the warrant
application were (1) materially misleading and (2) “so
lacking in indicia of probable cause as to render
official belief in its existence entirely unreasonable.”
Id. (quoting Leon, 468 U.S. at 922–23).
As to the first reason, the government may not
seek relief under the good faith exception if “the
magistrate or judge [] issuing the warrant was misled
by information in an affidavit that the affiant knew
was false or would have known was false except for
[her] reckless disregard of the truth.” Id. (citation
omitted). One situation in which this Court has found
an affidavit is sufficiently misleading to establish
an absence of good faith is when the affidavit
includes “puffing”—i.e., irrelevant or inapplicable
information—in an apparent “attempt[] to endue the
affidavit with the appearance of genuine substance.”
United States v. Perez, 393 F.3d 457, 465 (4th Cir.
2004) (quoting United States v. Wilhelm, 80 F.3d 116,
123 (4th Cir. 1996)).
Here, whereas only two paragraphs of the
affidavit address allegedly unlawful conduct of
someone using Defendant’s IP address—attempting
to download child pornography from File Sharing
Site—the vast majority of the content in the

96a
affidavit— nearly twenty paragraphs—relates to the
government’s investigation into Bulletin Board A and
the behavioral characteristics of “collectors” of child
pornography. By including that information, the
government sought to paint a picture of Defendant as
a collector of child pornography who downloaded child
pornography from a website, Bulletin Board A,
devoted to child pornography. Yet, none of the
evidence set forth in the affidavit establishes a fair
probability that Defendant ever visited Bulletin
Board A, let alone navigated through the Bulletin
Board A post to the File Sharing Site URL. See supra
Part II. And, the affidavit fails to establish a fair
probability that Defendant was a “collector” of child
pornography. See supra Part III. Accordingly, unless
the affidavit established any nexus between Bulletin
Board A and Defendant’s IP address—which it did
not—the affidavit’s description of Bulletin Board A
and the contents of the post is not at all “crucial to
understanding why the government believed
[Defendant’s] home would contain evidence of
criminal activity.” Ante at 23.
By devoting the vast majority of the affidavit to
information untethered from Defendant—or even
Defendant’s IP address—the government made the
affidavit appear as if it had “genuine substance,”
Wilhelm, 80 F.3d at 123, when in fact the information
in the affidavit pertaining to Defendant established
only that someone using Defendant’s IP address
clicked on a link to a widely used File Sharing Site
around the same time, but not necessarily after, a
post regarding the content of the link appeared on a
wholly unrelated website devoted to child
pornography.
Accordingly, the inclusion of the
Bulletin Board A and collector information was

97a
materially misleading. See Raymonda, 780 F.3d at
124 (Chin, J., concurring in part and dissenting in
part) (“Without any evidence that [the suspect] was a
collector of child pornography, it was inappropriate—
and heedlessly indifferent—for [the affiant] to rely on
boilerplate language regarding the proclivities of
collectors.”); Reece, 2017 U.S. Dist. LEXIS 220176, at
*28–30 (finding misleading an affidavit’s inclusion of
extensive information regarding the Bulletin Board A
investigation and “the general characteristics shared
by collectors of child pornography” when the affidavit
failed to establish a fair probability that the suspect
ever visited Bulletin Board A or was a collector of
child pornography); cf. Coreas, 419 F.3d at 156
(rejecting the use of “unparticularized allegations” to
justify an otherwise inadequate warrant application).
Importantly, evidence indicates that the
government knew that the inclusion of “boilerplate”
language regarding collectors, in particular, is
materially misleading when, as here, the affidavit
does not establish that a suspect is a collector: the
template for search warrants in child pornography
cases used by law enforcement officers in the Bulletin
Board A investigation directs affiants that they
should include boilerplate “collector” information in
an affidavit “ONLY if” the affiant can “tie [collector]
characteristics to the specific offender.” Reece, 2017
U.S. Dist. LEXIS 220176, at 22.
An affidavit also is misleading when affiants
“omit material facts with the intent to make, or in
reckless disregard of whether they thereby made, the
affidavit misleading.” United States v. Colkley, 899
F.2d 297, 300 (4th Cir. 1990) (citations and internal
quotation marks omitted). In seeking to avoid

98a
application of the good faith exception on the basis of
a material omission, a defendant must show “(1) that
the officer deliberately or recklessly omitted the
information at issue and (2) that the inclusion of this
information would have defeated probable cause.”
United States v. Andrews, 577 F.3d 231, 238–39 (4th
Cir. 2009).
Here, the affidavit includes at least one
material omission—evidence regarding the time of
the Bulletin Board A post. Although the district court
denied Defendant’s request for a Franks hearing—
meaning the record is largely devoid of evidence
regarding what information the government chose to
leave out of the affidavit—the affidavit provides some
indication that the affiant knew when the post
occurred. In particular, the affidavit states law
enforcement officers began “observ[ing] various
postings” and “captur[ing] content” on Bulletin Board
A in October 2015, before the November 2, 2015,
Bulletin Board A post at issue. J.A. 164. Given that
the government was engaged in ongoing monitoring
of Bulletin Board A, one can reasonably infer that the
government knew—or at least should have known—
the time of the November 2, 2015, post. In short, the
omission of the time of the Bulletin Board A post from
the affidavit was at least reckless, if not deliberate.
See United States v. Jacobs, 986 F.2d 1231, 1234–35
(8th Cir. 1993) (concluding that an “omission occurred
at least with reckless disregard with its effect upon
the affidavit” when “[a]ny reasonable person would
have known that this was the kind of thing the
[magistrate] judge would wish to know”).
Because the government’s probable cause
theory—which the majority opinion embraces—relies

99a
exclusively on the temporal relationship between the
Bulletin Board A post and the click on the File
Sharing Site URL, the conspicuous omission of the
time of the Bulletin Board A post from the affidavit
“casts substantial doubt on the probability” that the
click in fact occurred after the Bulletin Board A post.
Gourde, 440 F.3d at 1076 (Reinhardt, J., dissenting).
That the government repeatedly has represented in
briefing to both the district court and this Court that
the click occurred after the post—notwithstanding the
absence of evidence to that effect in the affidavit, see
supra Parts I, II.A—renders the omission of the
timestamp all the more problematic. And if the click
in fact occurred before the Bulletin Board A post—and
the government had disclosed that information in the
warrant application—the government could not have
established probable cause. In such circumstances,
the warrant application would lack the “critical fact”
upon which the majority opinion largely relies. Ante
at 8.
Second, the good faith exception does not apply
because the affidavit was “so lacking in indicia of
probable cause as to render official belief in its
existence entirely unreasonable.” Doyle, 650 F.3d at
467. Although “[m]ere insufficiency of the affidavit to
support probable cause” will not preclude application
of the good faith exception, when the “deficiencies in
the affidavit . . . [are] so great as to render it
objectively unreasonable” to rely on the warrant, it
will. Id. at 470.
Here, it was objectively unreasonable for the
law enforcement officers conducting the search to rely
on the warrant application because, at the time of the
search, it was well- established that a magistrate

100a
could not issue a warrant based on evidence “too stale
to furnish probable cause.” McCall, 740 F.2d at 1336
(internal quotation marks omitted). And it was wellestablished at that time that in cases involving child
pornography, months- old evidence that a suspect
sought to access or download child pornography—like
the click of the File Sharing Site URL—is too stale to
establish probable cause, absent evidence that the
suspect is a “collector.” See Doyle, 650 F.3d at 474 &
n.15; see also Raymonda, 780 F.3d at 117 (holding
that evidence that suspect had “accessed thumbnails
of child pornography” nine-months earlier was too
stale to establish probable cause when affidavit failed
to establish suspect was a collector). And it was
likewise well-established at that time that an
affidavit establishes a fair probability that a suspect
is a collector child pornography only if the affidavit
sets forth “circumstances suggesting that [the
suspect] had accessed those images willfully and
deliberately, actively seeking them out to satisfy a
preexisting predilection.” Raymonda, 780 F.3d at 115.
As explained above, the bare-bones facts set
forth in the affidavit failed to establish that someone
using Defendant’s IP address had sought the File
Sharing Site URL “willfully and deliberately” in an
effort to “satisfy a preexisting predilection.” See supra
Part III. That deficiency rendered it objectively
unreasonable for a law enforcement officer to believe
that the otherwise stale facts set forth in the affidavit
were sufficient “to justify a finding of probable cause
at that time.” McCall, 740 F.2d at 1335–36. That is
particularly true given that the government’s
warrant template should have put the affiant on
notice that it is improper to include boilerplate
collector information absent evidence in the affidavit

101a
“t[ying] [collector] characteristics to the specific
offender.” Reece, 2017 U.S. Dist. LEXIS 220176, at 22.
Other deficiencies in the affidavit also
rendered any belief in the existence of probable cause
unreasonable.
Most glaringly, given that the
government’s theory of probable cause relied entirely
on the “crucial fact” that the click on the File Sharing
Site URL occurred soon after the Bulletin Board A
post, it was objectively unreasonable to rely on the
affidavit when it failed to even establish that
sequence of events. See,e.g., J.A. 61.
V.
When, as here, an unlawful search reveals
evidence of suspected criminality, we must not apply
unsupported inferences to bend the law to ensure that
a guilty person does not go free. And though the
vileness of the crime in child pornography cases often
presents a strong incentive to take liberties with the
protections the Constitution affords to criminal
defendants, we must guard our roles as judges to
resist even that temptation. See Coreas, 419 F.3d at
151 (“Child pornography is so repulsive of a crime
that those entrusted to root it out may, in their zeal,
be tempted to bend or even break the rules.”).
Because when courts give in to that temptation, “they
endanger the freedom of all of us.” Id.; cf. United
States v. Clayton, 68 M.J. 419, 428 (C.A.A.F. 2010)
(Ryan, J., dissenting) (lamenting that the majority
opinion “appears to champion the idea that there is
something
de
minimis
about
the
Fourth
Amendment’s requirements when the thing sought by
a search authorization or warrant is child
pornography”). Because our Constitution does not

102a
provide individuals suspected of committing certain
crimes with less fulsome protections than individuals
suspected of committing other crimes, the majority
opinion’s approach to analyzing the contours of
constitutional rights in the digital context extends
beyond cases that involve suspected distribution of
child pornography. That’s because cases involving
alleged malfeasance committed electronically—which
test the boundaries of our Fourth Amendment
jurisprudence—will only increase in the coming
years, as it is irrefutable that “[t]ime works changes,
brings into existence new conditions and purposes.”
Olmstead v. United States, 277 U.S. 438, 472–73
(1928) (Brandeis, J., dissenting). “Therefore a
princip[le] to be vital must be capable of wider
application than the mischief which gave it birth. This
is peculiarly true of Constitutions.” Id.
With great respect for my colleagues in the
majority, I must conclude that today’s holding belies
its claim to be “sensitive to the privacy interests at
stake here.”
Ante at 25. Instead, it clings to
analog technology from the internet dark age, uses
unsupported
inferences,
and
eviscerates
constitutional rights for this brave new world of
digital technology.
In sum, the majority’s closing statements best
illustrate why our disagreement is a matter of
“judicial choice” rather than “judicial duty.” Surely,
we all agree that we “cannot ignore that many crimes
are committed with just a few clicks of a mouse.” Ante
at 25. We also agree that the download of child
pornography presents a particularly troubling result
that can arise from a “single click.”

103a
But we disagree with the “judicial choice” that
confronts us. That much is revealed in Part IV of the
majority opinion:
In cases like this, our job is to ask
precisely what “a single click” reveals
under the circumstances presented, and
whether that information justifies
searching a person’s most private places
for evidence of a crime.
Id. Here, the majority says that the “circumstances
presented” indicate temporal proximity between the
Bulletin Board A post and the URL click. Based on
that circumstance alone, the majority claims that the
“single click” of a URL demonstrates an intent to
navigate to the URL’s illicit content. But in this brave
new world of digital technology, it’s just not that
simple.
Instead, our “judicial duty” is to guard against
infringements on our constitutional rights.
Unfortunately, the majority’s “judicial choice” to use
layers of unsupported inferences that do not
meaningfully grapple with the technology at issue
diminishes the constitutional rights of those who use
the Internet—I say woe unto all users of the Internet.
Respectfully, I dissent.

104a
HOME > DIGITAL > NEWS
DECEMBER 8, 2018 11:02AM PT
‘Avengers: Endgame’ Trailer Smashes 24-Hour
Video Views Record
By TODD SPANGLER

CREDIT: COURTESY OF MARVEL STUDIOS
With the Marvel fandom’s anticipation leading up to
“Avengers: Endgame,” it’s no surprise that the trailer
drop set a new record for most views in its first 24
hours.
The “Avengers: Endgame” trailer was viewed 289
million times in its first 24 hours, after it was released
around 5 a.m. PT Friday, according to Marvel Studios.
That blasted past the previous record of 230 million
views, set a little over a year ago by the studio’s
“Avengers: Infinity War.” Behind that was Disney’s
“The Lion King” teaser, which racked up 224.6 million
views.

105a
The views for the “Avengers: Endgame” trailer were
tabulated across multiple platforms, including
YouTube, Facebook and Twitter.
“Avengers: Endgame,” the fourth Avengers movie and
the sequel to “Infinity War,” is set to hit theaters April
26, 2019.
Marvel announced the record on social media
Saturday, extending thanks to “the greatest fans in
the world”:
To the greatest fans in the world, thank
you for being there from the beginning til
the endgame and making Marvel Studios’
#AvengersEndgame the most viewed
trailer in history with 289M views in
24 hours! Pic.twitter.com/Fe0MA2Gfqy
— Marvel Entertainment (@Marvel)
December 8, 2018
“To the greatest fans in the world, thank you for being
there from the beginning til the endgame and making
Marvel Studios’ #AvengersEndgame the most viewed
trailer in history with 289M views in 24 hours!” the
studio said.
The trailer also set a record for Twitter conversation
for a movie trailer in the first 24 hours — with
549,000 mentions — soaring past previous record
holder “Avengers: Infinity War” (389,000) and “Black
Panther” (349,000).
The upcoming “Avengers: Endgame” picks up where
“Infinity War” left off: Thanos has just wiped out half
of all life in the universe. Seemingly facing certain

106a
doom, Iron Man (Robert Downey Jr.) joins forces with
Captain America (Chris Evans) and Black Widow
(Scarlett Johansson) — and other members of the
superhero crew — to rise up and fight Thanos.
Watch the “Avengers: Endgame” trailer:

https://variety.com/2018/digital/news/avengers-endga
me-record-trailer-worldwide-24-hour-views-1203085
074

107a
TECH
A Japanese billionaire now has most retweeted
tweet ever after offering a $923,000 prize
PUBLISHED MON, JAN 7 2019 • 7:36 AM EST
Choe Taylor
KEY POINTS

SHARE
z

A tweet from Japanese billionaire
Yusaku Maezawa has become
the most retweeted message in
history.

x

Maezawa offered followers an
incentive of almost $1 million to
share his tweet.

x

He is the founder of Japanese
online clothing retailer Zozo Inc.

Japanese billionaire entrepreneur Yusaku Maezawa
speaks at SpaceX’s headquarters in Hawthorne,
California.
Michael Sheetz | CNBC

108a
A message from Japanese billionaire Yusaku
Maezawa has become the most retweeted tweet of all
time.
Maezawa took to Twitter on Saturday to give 100
randomly selected retweeters the chance to win a
share of 100 million Japanese yen ($923,000).
Twitter users were given until Monday to follow
Maezawa’s account and retweet the promotion to be
in with a chance of scooping the prize. His tweet has
now been shared almost 5 million times.
Maezawa, the founder of Japanese online retailer
Zozo Inc, sent the tweet after his website Zozotown
posted sales of 10 billion yen in its New Year’s sale.
He previously gained international attention after
securing a seat aboard SpaceX’s inaugural tourist
flight to the moon. The mission from Elon Musk’s
transportation company is expected to launch in 2023.
Maezawa’s tweet overtook a plea from to gain enough
retweets to persuade fast food chain Wendy’s to award
him a year’s worth of free chicken nuggets.
A spokesperson for Zozo Inc was not immediately
available for comment when contacted by CNBC.
https://www.cnbc.com/2019/01/07/yusaku-maezawahas-most-retweeted-tweet-ever-after-offering-923000
.html

109a
The Intersect • Analysis
I can’t believe this is why people are tweeting
fake celebrity news
By Abby Ohlheiser
October 18, 2018
This is part of an occasional series in which we explain
what’s behind a popular meme. We like to call it
memesplaining; you might call it meme-ruining.
Regardless, if you just chanced upon a joke, tweet,
image, app or GIF you don’t understand, we have the
answers — insofar as answers can be had.
The Meme: Vote Rickrolling
Rickrolling is one of the Internet’s oldest memes:
Trick people into clicking on a link expecting one
thing but instead lead them to a video of Rick Astley
singing “Never Gonna Give You Up.” That’s probably
why the official video for the song has more than 487
million YouTube views.
In recent weeks, Rickrolling has been reborn. But
instead of tricking people into listening to a song,
people are using the bait of celebrity gossip to trick
young people into visiting a voter registration site.
Here’s an example:
Wow I can’t believe this is why Ariana
Grande and Pete Davidson split up
https://t.co/WQrbEBV6uD
pic.twitter.com/Dc8b9azhua
— Tim (@cigelske) October 14, 2018

110a
How did this meme grow?
The idea of tricking people with link shorteners like
bit.ly, as used in this meme, is not at all new.
However, this particular version emerged as part of a
larger viral campaign to increase voter registration
and participation for the 2018 midterms, particularly
among younger voters.
The activist and writer Ashlee Marie Preston tweeted an
early, super-viral version of the current meme format.
“Welp . . . it’s official . . . Kim Kardashian finally
decided to divorce Kanye West . . .” she tweeted. The
trick went viral: the original tweet has more than
60,000 retweets and 140,000 likes.
Welp...it’s official...Kim Kardashian finally
decided
to
divorce
Kanye
West...
https://t.co/C2p25mxWJO
— Ashlee Marie Preston (@AshleeMPreston)
October 12, 2018
But that doesn’t quite capture the full spread of her
tweet. Others, appreciating the trick, quote tweeted
her and expanded on the weaponized clickbait.
This is actually insane. Is this really how she
ended it or is this fake?? https://t.co/TT5V27Djnk
— Chris Kelly (@imchriskelly) October 13,
2018
Soon, others were making their own versions. Tim
Cigelske, whose clickbait tweet about the Ariana
Grande and Pete Davidson split is quoted above, was
also amplified by a number of big accounts, including
some celebrities. Ashton Kutcher, Colin Hanks and

111a
James Corden all retweeted his tweet to their millions
of followers.
I normally don’t care for
about breakups but this
https://t.co/gwgXXtBkM5

celeb gossip
is so sad

— Colin Hanks (@ColinHanks) October 16,
2018
Did it work?
Well, according to data from Bit.ly, the link shortener
used for these memes, quite a few people clicked on
the links. Cigelske examined the aftermath of his
tweet in a Medium post that he’s continually updating
with data on the tweet’s reach. He wrote that
“honestly at this point i’m not sure how many more
notifications my iphone can take but we’re at 1.4
MILLION CLICKS.”
The tweet that inspired his clickbait — Preston’s
fake-out about Kanye West getting divorced — is
approaching 3 million clicks.
Obviously, that doesn’t necessarily translate into
actual registrations, although it appears to have
inspired at least a few. Cigelske has been collecting
tweets from those who say the viral trick prompted
them to register.
Okay this was smart. You got me. I registered
https://t.co/sYG7NkL1S4
— azari' (@azarian_delaney) October 16,
2018

112a
We reached out to vote.org for comment on whether
this viral meme has resulted in a corresponding spike
in registrations through its site. Its answer was
inconclusive, but the site is optimistic about the
effect of conversations about voter registration in
general.
“Since the vote rolling memes started, we have seen
more than 100K people under 30 register to vote.
While we can’t suggest they caused all the
registrations, we can say all of the cultural
conversations surrounding voting certainly correlate
to spikes in young voters engagement,” a
spokeswoman said in a statement.
How can I use this meme as if I know what I’m
doing?
Should you decide to participate — we’ll get to the
“should” later — setting up a vote rickroll is pretty
easy. First, create a link to vote.org (or whatever else
you want to trick people into visiting) using a link
shortener such as bit.ly. Bit.ly works pretty simply:
You enter in a URL, and the site spits out a shorter
version. It’s a relic from a time when URL length
counted toward characters on Twitter but is now used
to hide the original source of links. Then, choose the
right piece of gossip. Cigelske capitalized on the
emerging news of the Grande-Davidson split, while
Preston timed her tweet to Kanye West’s visit to the
White House.
However, there are good reasons not to use this
meme.

113a
Please be a buzzkill on this meme for me.
Okay, sure. On Thursday, Elle magazine decided it
was their turn to rickroll people into voting.
Kim Kardashian and Kanye West are splitting
up
https://t.co/epwKG7aSBg pic.twitter.com/
u7qqojWVlR
— ELLE Magazine (US) (@ELLEmagazine)
October 18, 2018
The tweet is a perfect encapsulation of why this
meme, no matter its good intentions, is wading into
tricky territory.
First, while this meme certainly is an effective way to
get people to click on a link that leads to a call for civic
engagement, the meme seems to promote an
assumption that the people who are interested in
celebrity gossip — particularly young people — are
not interested in voting or democracy. Just months
after a bunch of teens responded to mass shooting at
their high school by launching into full-time political
activism, this seems like a bit of a cynical and
outdated way of viewing how younger voters
understand their role in democracy.
In 2015, the Atlantic’s Megan Garber identified this
phenomenon as attention policing — the idea of
shaming someone for liking a frivolous or unimportant
topic or meme (as, in her example, #TheDress) when
the world is full of tragic or important moments. But
attention spent on, say, celebrity gossip is not
necessarily at the expense of an important story.
Giving attention and amplification to each serves
different purposes in building online community,

114a
Garber argues. Getout-the-vote efforts can go viral
because of the interconnectedness of Internet culture
that was built, in part, by a bunch of people caring
about dumb gossip or arguments for an hour.
And, some celebrities — Ariana Grande specifically,
to use one of the names taken for this meme — are
already aware of the power they have to drive people’s
attention to important topics and movements. Grande,
whose 2017 show in Manchester, England, was the
target of a bombing that killed 22 people, was one of
several celebrities who participated in the March for
Our Lives in Washington, D.C., earlier this year.
In conclusion, fake news for a good cause is still fake
news. Particularly in this Elle tweet, which comes
from a publication that covers both celebrity news and
politics, the virality of this meme is dependent on
saying that sometimes it’s okay to spread
misinformation on purpose — a weird thing to assert
in 2018. Plus, creating and spreading a deceptive link,
and encouraging people to click through to a hidden
domain of unknown safety or ownership, is not a good
online hygiene practice.
more reading:
Welcome to the online search for a cursed
sarcophagus that will finally end it all
By age 35, you should have saved up enough
despair to understand this meme
How a man’s viral Instagram ode to his ‘curvy’
wife went from ‘required reading’ to mocking
meme

115a
Abby Ohlheiser Abby Ohlheiser covers digital
culture for The Washington Post. She was previously
a general assignment reporter for The Post, focusing
on national breaking news and religion. Follow
https://www.washingtonpost.com/technology/2018/10/
18/i-cant-believe-this-is-why-people-are-tweeting-fakecelebrity-news/?utm_term=.e9c493b7234d

116a
The 5 Deadly Clicks: The Links You Should
Never Touch
By COLUMN BY ADAM LEVIN, CREDIT.COM
Oct. 6, 2013

Here are some links to be wary of when surfing the
internet.
intro: Here’s a scary scenario. You’re innocently
surfing the Web, maybe on an unfamiliar site, not
paying close attention. Suddenly your computer
screen fills with illegal pornographic images of
minors. You try to navigate away, but a warning
screen branded by the National Security
Administration’s Internet Surveillance Program pops
up with the message: “Your computer has been locked
due to suspicion of illegal content downloading and
distribution.”
You are then offered a sort of Hobson’s choice: Pay a
fine immediately, or face prosecution for downloading
child pornography.
The folks behind that scam were actually based in
Russia, SC Magazine reported, not NSA headquarters.
The number of people entrapped by this type of scam
has been increasing exponentially. In a recent report

117a
from McAfee, an Internet security company, there
were fewer than 25,000 samples of ransomware
catalogued per quarter in the first half of 2011. In the
second quarter of 2013 alone, the number of new
samples multiplied to more than 320,000, (which was
double the number in the first quarter of this year).
“During the past two quarters we have catalogued
more ransomware than in all previous periods
combined,” MacAfee found. “This trend is also
reflected by warnings from law enforcement and
federal agencies around the globe.”
If you think the most common cyber scam still
involves deposed Nigerian royalty eliciting your help
to extract fortunes from African banks, your time
machine has stalled. Cyber ninjas have become far
more creative, sophisticated and inscrutable. With
that in mind, here are five links you should never,
ever click.
quicklist: title: Mobile Apps That Are Unfamiliar to
You text:
It's easy to think of spam and phishing as email-based
scams. But with the rise of mobile devices, scammers
have added mobile apps to their repertoire. Malware
attacks on Android phones grew by 35 percent to
nearly 18,000 new samples in the second quarter of
2013, according to McAfee.
11 Dumb Things You do With Your Emails
It appears the onslaught will only grow worse. While
the number of attempted mobile device hacks
increased by just over a third, the total number of new
malware applications discovered by McAfee
researchers in the second quarter was double the

118a
number found in the first. This trend suggests that
cyber scam artists are honing their craft.
Mobile malware takes many forms. It could purport
to come from your bank. It could trick you into paying
for a fake dating app. Some scammers even
“weaponize” legitimate apps, turning real programs
into spying machines that siphon your location,
contact and other data away from legal enterprises
and funnel it into the black market.
How to Avoid It: Control the impulse! Don’t just
click on any app no matter how cool it seems at first
blush. And just because you see it in the app store
doesn’t mean it's safe. Do the research to make sure
it’s the real deal before you download.
quicklist: title: Remote Access text:
In the latest and most popular iteration of this scam,
con men pose as employees of Microsoft. They send
emails, instant messages or texts with warnings that
your computer has contracted a virus, and provide a
link that you can click so a “Microsoft employee” can
fix the problem. The thieves claim to work for
different divisions of Microsoft such as Windows
Helpdesk and the Microsoft Research and
Development Team.
What’s a Bad Credit Score?
Once the scammers gain access, they “can install
malicious software, steal personal information, take
control of the computer remotely or direct consumers
to fraudulent websites where they are asked to enter
their credit card information,” according to the Better
Business Bureau.

119a
How to Avoid It: Never trust an unsolicited contact.
Only provide personal information or agree to a
remote
access
session
when
you
initiate
communication. If, for some reason, you are contacted
by anyone representing an institution with which you
have a relationship, always confirm the authenticity
and contact information of the organization before
you respond and then only to the appropriate
department.
quicklist: title: Porn text:
While you mindlessly surf the Internet, you may
accidentally click on sketchy ads or spam. Or perhaps
you get an email with a tantalizing picture or link,
which ultimately sends you to a site rife with illegal
pornographic images. Such despicable lures are just
one part of the larger epidemic of ransomware.
9 Things You Need to Do When Your Email Is Hacked
How to Avoid It: Pay attention! Absentminded
clicking can land you in a world of pain. Also, deal
with businesses that are security minded. These
businesses have their websites tested at least
annually for vulnerabilities, then fix the security gaps
before you get trapped in them. Intentionally clicking
on illegal sites, however, will (and should) entitle you
to a one-way ticket to a federal sleep-away camp for a
not inconsequential period of time.
quicklist: title: Authority Scams text:
Email, texts or phone calls alerting us to issues with
our checking accounts, tax returns and credit cards
tend to elicit knee-jerk instant responses (and are
designed to do so). A natural tendency is to
immediately provide whatever personal information

120a
is required to identify ourselves and make the
problem go away.
This is not lost on scammers, which is what makes
“authority scams” so appealing to those on the dark
side. From May 2012 through April 2013, 102,100
Internet users globally received phishing attacks
every day, twice the number of recipients the previous
two years, according to a report by Kapersky Lab, an
Internet security company. Of those attempts, 20%
involved scammers impersonating banks. Of all fake
and deceptive websites, 50% of those discovered by
Kapersky attempted to impersonate banks, credit
card companies and other financial services such as
PayPal.
How to Avoid It: Before clicking any links, entering
any username or password information or flinging
any kind of precious personal information into the
ether, stop, take a breath and think. No reputable
financial institution, or government entity, would
ever ask you to provide such data via email; nor would
they cold-call potential victims of fraud and request
sensitive personal data. If you receive an email
alerting you to fraud and requesting that you verify
by email your account username and password, it is –
by definition – a scam.
quicklist: title: Drug Spam text:
For nearly as long as there’s been email, there’s been
spam. Creative criminals have used lures of all stripes
to entice people into clicking on links in their emails.
Email has become the “carrier” for malware. The
email subject may be about a job, travel, shopping
discounts, sex, news, or, the most popular, drugs.
McAfee’s research team has found that about 20

121a
percent of all spam emails sent to recipients in the
U.S. referenced drugs in the subject line. It's no
wonder with the cost of healthcare in the U.S. that
this is a particularly effective subject line. Delivery
service notification, in which fraudsters claiming to
be from UPS or FedEx say they could not deliver a
package, came in a distant second.
How to Avoid It: Don’t take the bait. Why would you
buy drugs from anyone who contacts you blindly over
the Internet? Your health, your bank account, or both
will suffer. And, if you’re expecting a package, contact
the shipper directly.
These scams will continue as long as people will fall
for them. It’s all about fear, carelessness, curiosity or
distraction -- any of which can lead to financial issues,
health implications or being labeled a criminal —
even a sexual predator. The convenience and access of
the Internet creates vulnerabilities, opportunities
and also requires personal responsibility. Before you
click, weigh each against the other and do the smart
thing.
This work is the opinion of the columnist and in no
way reflects the opinion of ABC News.
Adam Levin is chairman and cofounder of Credit.com
and Identity Theft 911. His experience as former
director of the New Jersey Division of Consumer
Affairs gives him unique insight into consumer
privacy, legislation and financial advocacy. He is a
nationally recognized expert on identity theft and
credit.
https://abcnews.go.com/Business/links-click/story?id=
20461918

122a
Successful Con
Tricking people out of sensitive information online is
far too easy.
QUINN NORTON
SEP 12, 2018

In The Sting, Robert Redford plays a con artist who
built a fake reality to get his mark. On the internet,
phishing attacks are a similar kind of trickery.
(GETTY)
In the classic 1973 heist movie The Sting, two con
men—played by Robert Redford and Paul Newman—
build a fictitious world in a Depression-era Chicago
basement to defraud a corrupt banker. They make an
offtrack-betting the finest movies in the genre, well
written and funny, but also because the duo’s work is
so meticulously detailed.
The con has changed since then, both short and long.
In this age, the online equivalent of The Sting is a
phishing site: a fake reality that lives online, set up to
capture precious information such as logins and

123a
passwords, bank-account numbers, and the other
functional secrets of modern life. You don’t get to see
these spaces being built, but—like The Sting’s betting
room—they can be perfect in every detail. Or they can
be thrown together at the last minute like a clapboard
set.
This might be the best way to think about phishing: a
set built for you, to trick information out of you; built
either by con men or, in the case of the recent spearphishing attack caught and shut down by Microsoft,
by spies and agents working for (or with) interfering
governments, which seems a bit more sinister than
Paul Newman with a jaunty smile and a straw hat.
But perhaps it should not seem so sinister, because
phishing is profoundly easy to do. So easy, and
comparatively cheap, that any country that isn’t
using it as part of its espionage strategy should
probably fire its intelligence agency.
Computer security often focuses on malware:
software that attacks faults in your computer to take
control of it and give that control to someone else.
Malware is often sophisticated software that can
quietly take over a computer without being detected—
from there, it can do anything, from copying every
keystroke you type, to watching every page you open,
to turning your camera and microphone on and
recording you, to encrypting your hard drive and
ransoming your computer’s contents back to you. But
novel malware is difficult to write, and can take many
paid hours for some of the most talented
programmers, in addition to finding or buying a
security flaw that allows you to get your malware onto
someone’s computer undetected. It’s painfully

124a
expensive, and often ends up leaving a trail back to
the authors.
Phishing doesn’t attack computers. It attacks the
people using computers.
Setting up a phishing website is something a summer
intern can do in a couple of weeks, and it works. If you
were to try to create a phishing version of this article,
you could start by saving the complete webpage from
your browser—that would get you the picture, text,
and code that makes the page you’re reading now. If
this article contained an account login, you could put
it on a server you control, and maybe register another
domain, something like http://tehatlantic.com. If you
enticed someone to try to use their TheAtlantic.com
username and password on tehatlantic.com, you
would then have that information.
This kind of phishing started out mainly as a moneystealing scheme, delivered en masse. “Phishing has
changed a lot. A decade or so ago it was a mass
phenomenon of people looking for passwords to bank
accounts, PayPal, eBay … anything they thought
would be easily monetizable,” says Cormac Herley, a
principal researcher at Microsoft Research. “I think
that threat has largely been beaten back: Spam filters
have become better at detecting it, browsers have
warning mechanisms built in, banks have become
good at detecting fraud.”
But that’s the untargeted stuff. Enticing someone to
click on a phishing link, in an email or elsewhere, is
where a targeted attack, also known as spearphishing, comes in: learning about someone’s life and
habits to know just what email would get them

125a
unthinkingly to click. A reality built for one person, or
one cohort of people. The con is on, the set is built, and
the actors are hired to make the sting, all from a web
browser.
In early 2016 a phishing email requesting an urgent
payment as part of what’s known as a “fake president”
scam landed on the Austrian aviation-parts maker
FACC’s email servers. The “fake president” is
generally an urgent message from an authority figure
that needs Accounts Payable to send money to a
foreign account at once. In the case of FACC, a
dubious wire transfer followed the email, and the
company lost more than 40 million euros and fired its
CEO.
[ Email hackers are winning. ]
John Podesta, the chairman of the Hillary Clinton
campaign, was famously spear-phished in 2016 by an
email saying someone in Ukraine was attempting to
log into his Gmail account. When he clicked the link
and entered his username and password (instead of
using the Google domain passed along by his own
help-desk person), his account was actually captured.
His emails, along with Democratic National
Committee emails harvested the same way, were
later leaked online, creating chaos in the run-up to
the 2016 election. Most recently, Microsoft found and
shut down six domains it believed were created by a
group known as the Main Intelligence Directorate of
the Russian army, or GRU, targeting conservative
think tanks (the International Republican Institute
and the Hudson Institute) and the U.S. Senate. It’s
not clear what exactly these phishing sites looked
like, or how they worked. As far as Microsoft knows,

126a
no one was compromised by these sites, but they also
don’t know how many more are out there, waiting for
just the right spear-phishing email or bogus phone
call to get someone to click the link.
“The phishing that persists as a real problem today is
the spear-phishing for … credentials,” Herley says.
He has studied the economics of phishing as well as
the efficacy of security advice. “This is still a very
successful vector in getting a toehold on enterprise
networks. It’s low volume, so it’s much harder to
detect.” In the case of political and industrial
espionage, each potential victim is worth researching
and getting to know—building just the right room for
their own personal sting.
Phishing and malware aren’t exclusive options.
Blending phishing with malware can be the most
potent approach, usually in the form of a well-crafted
email with an important, often urgent, document
attached. But it’s not a document, or not just a
document. It’s malware, and when you click on that
attachment you’re telling your computer that you
want to install the software, which you don’t know is
software. The computer obeys you, and in doing so,
invisibly hands itself over to the person who sent you
the software. This approach uses you to get to your
computer. It’s been used against journalists and
activists all over the world, and probably a lot of other
people, but it’s the journalists and activists we hear
about.
More frightening is the fact that, most of the time, a
decent fake website gets an attacker whatever they
need without expensive and detectable malware. You
just followed a link, put in your username and

127a
password, and maybe the page showed an error with
a link that goes to the real site. Just one of those
hiccups on the net that we see and forget moments
later. This can be overwhelming to think about.
Someone, you might reasonably say, should fix this,
and by someone you mean tech companies.
The most Microsoft, Google, or any of the tech
companies can do with their technology is try to detect
malware and phishing sites, and stop them from
talking to the internet—blocking up the door to the
offtrack-betting
basement.
This
is
called
“blackholing.” But because spinning up a hundred
basements on the internet isn’t much harder than
spinning up one, leaving it to tech companies won’t
work. The victims are the weakest link in phishing,
and the tech companies can’t put out reliable updates
to change or prevent user behavior.
“We do invest a lot in technical fixes like better threat
detection, better protection of networks, efforts like
AccountGuard and Defending Democracy, and
encouraging two-factor authentication for high-value
accounts,” Herley says. “But there’s also an education
component; we’d love protection to have zero asks of
the user, but that’s not always possible.”
AccountGuard and Defending Democracy are offerings
from Microsoft aimed at its most vulnerable (and
political) clients, but even then, most of the offerings
consist of recommendations, best practices, webinars,
and notifications: attempts to patch the human.
Many security-professional and media recommendations
exhort eternal vigilance, paying attention to every
detail. This is terrible advice. I’m a professional with
years of experience in this space and I don’t bother to

128a
inspect my emails or carefully read all my URLs: I
have things to do. As a strategy for the constant level
of attacks in modern email, this approach has failed,
even in dealing with the amateurish mass-phishing
attacks we’ve seen over the past 10 years.
Spear-phishing, especially political spear-phishing, is
even harder to catch with vigilance. The inconsistency
of security advice has contributed to the disaster with
ideas that are hard to implement, don’t make sense,
and don’t work, but that security and IT departments
yell at people with all the fury of revivalist preachers.
It’s exhausting.
Developing a few good habits based on how this
computer you’re using works is relatively easy and
more effective than paranoia. Turn on two-factor
authentication where you can, where it’s available on
sites you use. This includes things such as RSA
tokens, Yubikeys, Google Authenticator, and SMS
verification codes, which create something needed to
log in beyond a password and a username so that if
your username and password are stolen or leaked,
attackers still can’t take over your accounts. Apply
software updates. Or, better yet, Herley suggests
letting your computer do it for you. “I’d say use
automatic updates … We invest heavily in [fixes] as
soon as we figure out things are wrong. You want all
that goodness working for you.”
Set up regular backups that require minimal effort
from you. “You don’t have to worry as much about
ransomware [or theft, or disk crashes] … if you know
you can always get your stuff back,” Herley says. Use
long, complex, and unique passwords, but make it
easy on yourself. “Write them down or use a password
manager,” Herley says.

129a
[ How long until the next big ransomware attack? ]
I’d strongly recommend the password manager, but
not directly for security purposes. Password
managers are easy and will autofill your password on
sites you’ve used before—even less effort. There’s
most likely one built into the browser or operating
system you’re using now, but if you want to get fancy,
you can use an online password-management system
that syncs between devices. Don’t reuse passwords,
and go ahead and change your password on the sites
where you know you’ve reused passwords. This is an
hour or two of pain, but only one time. You are not
likely to leak your password onto the internet, but a
site you use almost certainly will at some point. You
can also sign up at Have I Been Pwned to find out
which of your passwords have already leaked onto the
internet.
Don’t follow links you get sent to sites on which you
have an account—you have your own bookmarks and
browser history, which already go to the right site for
sure. If you get an email from your bank or, say,
think-tank employer, log in on your web browser.
You’re going to have to do that anyway, so you might
as well follow your own link. One habit that would
take some work to change but does the most to secure
you from malware is not opening email attachments
on your own computer. Have people put files in a filelocker site, something like Dropbox, and open
documents in a remote service like Google Docs. Make
it someone else’s IT department’s problem.
Don’t try to be perfect. Just try to be expensive for the
con artist. Make them work hard enough, and you’re
not worth the bother. Right now, most computer

130a
users, whether they are political consultants, CEOs,
scientists, or researchers, aren’t very hard to con.
Understanding all of this, the news of phishing
campaigns takes on a different tone. Rather than
asking why there are groups linked to Russia
phishing our politics, the question is: Why aren’t more
governments phishing U.S. companies and agencies?
Perhaps they are, and we just don’t notice. Whatever
the reason, people need to talk about phishing, as
much as they need to update their software. Because
striving to understand complex phenomena is how
humans are updated over time, and it’s how we make
it as expensive and difficult to hack humans as it is to
hack computers.

We want to hear what you think about this article.
Submit a letter to the editor or write to
letters@theatlantic.com.
https://www.theatlantic.com/technology/archive/2018/0
9/phishing-is-the-internets-most-successful-con/569920

131a
The Washington Post
Personal Finance
Can you tell the real TurboTax email from the
scam?
By Jonnelle Marte
March 1, 2016
TurboTax and other tax software companies told
customers this year that they would be sending
more emails and other alerts in an effort to fight tax
fraud.
But they aren’t the only ones sending more emails —
scammers are, too. And in many cases, it’s nearly
impossible to tell the phony emails from the real ones.
The Internal Revenue Service said the number of
reported phishing scams from fraudsters pretending
to be from the IRS or a tax company surged by 400
percent this year from the same time last year. The
1,389 scams reported as of mid-February added up to
about half of the email scams reported for all of last
year, the agency said.
Julie Miller, a spokeswoman for Intuit, the maker of
TurboTax, said the company has seen a spike in the
number of phishing scams from fraudsters pretending
to be TurboTax. The scams generally try to persuade
people to click on malicious links by saying the action
is needed to help users confirm their accounts or
verify the taxpayer’s identity. Others say users could
be blocked from their accounts if they don’t take
action or could pretend to remind people to get started
on their tax returns.

132a
For taxpayers, it can be difficult to tell fact from
fiction. Although some of the emails are barren and
easy to question, some are more sophisticated,
including company logos or other design traits that
look similar to the emails being sent by TurboTax and
other companies.
Take this fraudulent email that TurboTax is warning
people about on its website. It looks strikingly similar
to the reminders taxpayers might receive from
TurboTax, encouraging them to sign in and start
working on their tax returns. The colors and logos are
nearly identical, as is the layout of the page.
Although there are some minor stylistic differences in
font color, they are pretty difficult to notice. And just
because an email has some personal information,
such as your name or employer, doesn’t mean that it’s
legitimate, Miller says.
Some people may be tempted to ignore the emails
altogether, but that could have consequences if it
means missing out on a real warning sign. This year,
for instance, Intuit started alerting customers after
their password or bank account information was
changed — red flags that someone else may have
accessed their account. Intuit is also alerting
customers if a second account is opened with their
Social Security number, which could point to a
criminal using TurboTax to file a fraudulent return in
their name.
For most taxpayers, the best line of defense is to do
research before opening emails and to avoid clicking
on links. Users can hover over a link to see what URL
they are being directed to, Miller says. If the link isn’t
to the website for the company you’re trying to reach,

133a
don’t click on it, she says. The smarter move may be
to go directly to the website of the company you’re
trying to contact by typing its URL (not the one in the
email) into the browser and to look there for a
customer service number.
TurboTax customers can check Intuit’s website to see
if the email matches one of scams that Intuit already
knows about. It’s a pretty long list, but if the email
you received isn’t there, you can also forward the
email to spoof@intuit.com and the company will let
you know whether the email is legitimate.
You might also like:
The IRS says hackers stole data for twice as many
taxpayers as initially expected
Criminals want your tax returns. Here’s what you can
do about it.
Tax Day is coming fast. Test your knowledge here.
Jonnelle Marte
Jonnelle Marte is a reporter covering personal
finance. She was previously a writer for MarketWatch
and the Wall Street Journal. Follow
https://www.washingtonpost.com/news/get-there/wp/
2016/03/01/can-you-tell-which-of-these-turbotax-ema
ils-is-real-and-which-one-is-from-a-scam-artist/?utm_
term=.7ba2976355cb

134a
BUSINESS
CORPORATE
ACCOUNTING

FINANCE

&

Compound Probability
REVIEWED BY JULIA KAGAN | Updated Apr 29,
2019
What is Compound Probability?
Compound probability is a mathematical term
relating to the likeliness of two independent events
occurring. Compound probability is equal to the
probability of the first event multiplied by the
probability of the second event. Compound
probabilities are used by insurance underwriters to
assess risks and assign premiums to various
insurance products.
Understanding Compound Probability
The most basic example of compound probability is
flipping a coin twice. If the probability of getting
heads is 50 percent, then the chances of getting heads
twice in a row would be (.50 X .50), or .25 (25 percent).
A compound probability combines at least two simple
events, also known as a compound event. The
probability that a coin will show heads when you toss
only one coin is a simple event.
As it relates to insurance, underwriters may wish to
know, for example, if both members of a married
couple will reach the age of 75, given their
independent probabilities. Or, the underwriter may
want to know the odds that two major hurricanes hit
a given geographical region within a certain time
frame. The results of their math will determine how
much to charge for insuring people or property.

135a
KEY TAKEAWAYS
x

Compound probability is the product of
probabilities
of
occurrences
for
two
independent events known as compound
events.

x

The formula for calculation of compound
probabilities differs based on the type of
compound event, whether it is mutually
exclusive or mutually inclusive.

Compound Events and Compound Probability
There are two types of compound events: mutually
exclusive compound events and mutually inclusive
compound events. A mutually exclusive compound
event is when two events cannot happen at the same
time. If two events, A and B, are mutually exclusive,
then the probability that either A or B occurs is the
sum of their probabilities. Meanwhile, mutually
inclusive compound events are situations where one
event cannot occur with the other. If two events (A
and B) are inclusive, then the probability that either
A or B occurs is the sum of their probabilities,
subtracting the probability of both events occurring.
Compound Probability Formulas
There are different formulas for calculating the two
types of compound events: Say A and B are two
events, then for mutually exclusive events: P(A or B)
= P (A) + P(B). For mutually inclusive events, P (A or
B) = P(A) + P(B) - P(A and B).
Using the organized list method, you would list all the
different possible outcomes that could occur. For
example, if you flip a coin and roll a die, what is the

136a
probability of getting tails and an even number? First,
we need to start by listing all the possible outcomes we
could get. (H1 means flipping heads and rolling a 1.)
H1
H2
H3
H4
H5
H6

T1
T2
T3
T4
T5
T6

The other method is the area model. To illustrate,
consider again the coin flip and roll of the die. What
is the compound probability of getting tails and an
even number?
Start by making a table with the outcomes of one
event listed on the top and the outcomes of the second
event listed on the side. Fill in the cells of the table
with the corresponding outcomes for each event.
Shade in the cells that fit the probability.

In this example, there are twelve cells and three are
shaded. So the probability is: P = 3/12 = 1/4 = 25
percent.
These Are Your 3 Fiduciary Financial Advisor
Matches
Finding the right financial advisor that fits your
needs doesn’t have to be hard. SmartAsset’s free tool
matches you with fiduciary financial advisors in your

137a
area in 5 minutes. Each advisor has been vetted by
SmartAsset and is legally bound to act in your best
interests. If you’re ready to be matched with local
advisors that will help you achieve your financial
goals, get started now.
Compare Investment Accounts
PROVIDER
NAME

E*TRADE

DESCRIPTION E*TRADE
has $0
commissions
for online
stock, ETF
and options
trades.
Start
trading
today!
LEARN
MORE

Merrill
Edge

Charles
Schwab

300 $0
$0 online
online
stock, ETF,
stock and and options
ETF
commissions.
trades, no It’s time to
minimum trade up.
deposit
required

LEARN
MORE

LEARN
MORE

http://www.investopedia.com/terms/c/compound-prob
ability.asp

138a
Viruses Frame PC Owners for Child Porn
NOVEMBER 9, 2009 / 12:49 PM / CBS / AP
Of all the sinister things that Internet viruses do, this
might be the worst: They can make you an
unsuspecting collector of child pornography.
Heinous pictures and videos can be deposited on
computers by viruses – the malicious programs better
known for swiping your credit card numbers. In this
twist, it’s your reputation that’s stolen.
Pedophiles can exploit virus-infected PCs to remotely
store and view their stash without fear they’ll get
caught. Pranksters or someone trying to frame you
can tap viruses to make it appear that you surf illegal
Web sites.
Whatever the motivation, you get child porn on your
computer – and might not realize it until police knock
at your door.
An Associated Press investigation found cases in
which innocent people have been branded as
pedophiles after their co-workers or loved ones
stumbled upon child porn placed on a PC through a
virus. It can cost victims hundreds of thousands of
dollars to prove their innocence.
Their situations are complicated by the fact that actual
pedophiles often blame viruses – a defense rightfully
viewed with skepticism by law enforcement.
“It’s an example of the old ‘dog ate my homework’
excuse,” says Phil Malone, director of the Cyberlaw
Clinic at Harvard’s Berkman Center for

139a
Internet & Society. “The problem is, sometimes the
dog does eat your homework.”
The AP’s investigation included interviewing people
who had been found with child porn on their
computers. The AP reviewed court records and spoke
to prosecutors, police and computer examiners.
One case involved Michael Fiola, a former
investigator with the Massachusetts agency that
oversees workers’ compensation.
In 2007, Fiola’s bosses became suspicious after the
Internet bill for his state-issued laptop showed that
he used 4½ times more data than his colleagues. A
technician found child porn in the PC folder that
stores images viewed online.
Fiola was fired and charged with possession of child
pornography, which carries up to five years in prison.
He endured death threats, his car tires were slashed
and he was shunned by friends.
Fiola and his wife fought the case, spending $250,000
on legal fees. They liquidated their savings, took a
second mortgage and sold their car.
An inspection for his defense revealed the laptop was
severely infected. It was programmed to visit as many
as 40 child porn sites per minute – an inhuman feat.
While Fiola and his wife were out to dinner one night,
someone logged on to the computer and porn flowed
in for an hour and a half.
Prosecutors performed another test and confirmed
the defense findings. The charge was dropped – 11
months after it was filed.

140a
The Fiolas say they have health problems from the
stress of the case. They say they’ve talked to dozens
of lawyers but can’t get one to sue the state, because
of a cap on the amount they can recover.
“It ruined my life, my wife’s life and my family’s life,”
he says.
The Massachusetts attorney general’s office,
which charged Fiola, declined interview requests.
At any moment, about 20 million of the estimated 1
billion Internet-connected PCs worldwide are infected
with viruses that could give hackers full control,
according to security software maker F-Secure Corp.
Computers often get infected when people open e-mail
attachments from unknown sources or visit a
malicious Web page.
Pedophiles can tap viruses in several ways. The
simplest is to force someone else’s computer to surf
child porn sites, collecting images along the way. Or a
computer can be made into a warehouse for pictures
and videos that can be viewed remotely when the PC
is online.
“They’re kind of like locusts that descend on a
cornfield: They eat up everything in sight and they
move on to the next cornfield,” says Eric Goldman,
academic director of the High Tech Law Institute
at Santa Clara University. Goldman has
represented Web companies that discovered child
pornographers were abusing their legitimate services.
But pedophiles need not be involved: Child porn can
land on a computer in a sick prank or an attempt to
frame the PC’s owner.

141a
In the first publicly known cases of individuals being
victimized, two men in the United Kingdom were
cleared in 2003 after viruses were shown to have been
responsible for the child porn on their PCs.
In one case, an infected e-mail or pop-up ad poisoned
a defense contractor’s PC and downloaded the
offensive pictures.
In the other, a virus changed the home page on a
man’s Web browser to display child porn, a discovery
made by his 7-year-old daughter. The man spent more
than a week in jail and three months in a halfway
house, and lost custody of his daughter.
Chris Watts, a computer examiner in Britain, says he
helped clear a hotel manager whose co-workers found
child porn on the PC they shared with him.
Watts found that while surfing the Internet for ways
to play computer games without paying for them, the
manager had visited a site for pirated software. It
redirected visitors to child porn sites if they were
inactive for a certain period.
In all these cases, the central evidence wasn’t in
dispute: Pornography was on a computer. But proving
how it got there was difficult.
Tami Loehrs, who inspected Fiola’s computer, recalls
a case in Arizona in which a computer was so
“extensively infected” that it would be “virtually
impossible” to prove what an indictment alleged: that
a 16-year-old who used the PC had uploaded child
pornography to a Yahoo group.
Prosecutors dropped the charge and let the boy plead
guilty to a separate crime that kept him out of jail,

142a
though they say they did it only because of his age and
lack of a criminal record.
Many prosecutors say blaming a computer virus for
child porn is a new version of an old ploy.
“We call it the SODDI defense: Some Other Dude Did
It,” says James Anderson, a federal prosecutor in
Wyoming.
However, forensic examiners say it would be hard for
a pedophile to get away with his crime by using a
bogus virus defense.
“I personally would feel more comfortable investing
my retirement in the lottery before trying to defend
myself with that,” says forensics specialist Jeff
Fischbach.
Even careful child porn collectors tend to leave
incriminating e-mails, DVDs or other clues. Virus
defenses are no match for such evidence, says Damon
King, trial attorney for the U.S. Justice Department’s
Child Exploitation and Obscenity Section.
But while the virus defense does not appear to be
letting real pedophiles out of trouble, there have been
cases in which forensic examiners insist that
legitimate claims did not get completely aired.
Loehrs points to Ned Solon of Casper, Wyo., who is
serving six years for child porn found in a folder used
by a file-sharing program on his computer.
Solon admits he used the program to download video
games and adult porn – but not child porn. So what
could explain that material?

143a
Loehrs testified that Solon’s antivirus software wasn’t
working properly and appeared to have shut off for
long stretches, a sign of an infection. She found no
evidence the five child porn videos on Solon’s
computer had been viewed or downloaded fully. The
porn was in a folder the file-sharing program labeled
as “incomplete” because the downloads were canceled
or generated an error.
This defense was curtailed, however, when Loehrs
ended her investigation in a dispute with the judge
over her fees. Computer exams can cost tens of
thousands of dollars. Defendants can ask the courts
to pay, but sometimes judges balk at the price.
Although Loehrs stopped working for Solon, she
argues he is innocent.
“I don’t think it was him, I really don’t,” Loehrs says.
“There was too much evidence that it wasn’t him.”
The prosecution’s forensics expert, Randy Huff,
maintains that Solon’s antivirus software was
working properly. And he says he ran other antivirus
programs on the computer and didn’t find an infection
– although security experts say antivirus scans
frequently miss things.
“He actually had a very clean computer compared to
some of the other cases I do,” Huff says.
The jury took two hours to convict Solon.
“Everybody feels they’re innocent in prison. Nobody
believes me because that’s what everybody says,” says
Solon, whose case is being appealed. “All I know is I
did not do it. I never put the stuff on there. I never

144a
saw the stuff on there. I can only hope that someday
the truth will come out.”
But can it? It can be impossible to tell with certainty
how a file got onto a PC.
“Computers are not to be trusted,” says Jeremiah
Grossman, founder of WhiteHat Security Inc. He
describes it as “painfully simple” to get a computer to
download something the owner doesn’t want –
whether it’s a program that displays ads or one that
stores illegal pictures.
It’s possible, Grossman says, that more illicit material
is waiting to be discovered.
“Just because it’s there doesn’t mean the person
intended for it to be there – whatever it is, child porn
included.”
First published on November 9, 2009 / 12:49 PM
© 2009 CBS Interactive Inc. All Rights Reserved. This
material may not be published, broadcast, rewritten,
or redistributed. The Associated Press contributed to
this report.
https://www.cbsnews.com/news/viruses-frame-pc-own
ers-for-child-porn

145a
Robert Siciliano CSP, Contributor
Personal Security, Privacy, Cyber Safety and
Identity Theft Expert
Why Is Child Pornography on Your PC?
03/18/2010 05:12 am ET | Updated Dec 06, 2017

Anti-virus protection, critical security patches, and a
secure wireless connection have always been
essential processes on my networks. My main concern
has always been to protect my bank account by
keeping the bad guy out.
In my presentations, I’ve always stressed the
importance of making sure your wireless connection
is secured to prevent skeevy sex offender neighbors or
wackos parked in front of your business from surfing
for child porn and downloading it to your PC.
Once a predator uses your Internet connection to go
to into the bowels of the web, your Internet Protocol
address, which is connected to your ISP billing
address, is now considered one that is owned by a
criminal. If law enforcement happens to be chatting
with that a person who is using your Internet
connection to trade lurid child porn, then someone
may eventually knock on your door at 3 AM with a

146a
battering ram. And in another freakish and relatively
new twist, hackers can use a virus to crack your
network and gain remote control access, and then
store child porn on your hard drive.
An AP investigation found plenty of people who have
been victimized in this way. Maybe their PCs were
being used as a virtual server, or maybe they were
being framed by someone with a vendetta against
them, but either way, they had child pornography
planted on their computers. Once that porn is
discovered by a friend, family member, or computer
technician, the victim is arrested.
This is the kind of “breach” that can cost you
thousands in legal fees, your marriage, relationships,
your job, and your standing in society. In one case, a
virus changed the default home page on a man’s PC,
and his seven year old daughter discovered it. The guy
was arrested and eventually lost custody of his
daughter. And you think you’ve got problems.
When you click a link in an email or a pop up
advertisement in your browser, you may
inadvertently download one of these viruses, which
can then visit child pornography websites and
download files onto your hard drive.
It also important to point out that most criminal
investigators will say that “a virus put the child porn
on my PC” is a bunch of hooey and a common defense
used by the presumed innocent until proven guilty.
Simply don’t give anyone a chance to doubt by doing
the following:
Dont be a scumbag child pornographer. Where there’s
smoke there’s usually fire.

147a
Make sure your anti virus up to date and set to run
automatically.
Update your web browser to the latest version. An out
of date web browser is often riddled with holes worms
can crawl through.
Update your operating systems critical security
patches automatically
Lock down your wireless internet connection with the
WPA security protocol.
Invest in Intelius Identity Theft Protection. While
not all forms of identity theft can be prevented, you
can effectively manage your personal identifying
information by knowing what’s buzzing out there in
regards to YOU. “Disclosures”
Robert Siciliano Identity Theft Speaker discussing
viruses on Fox News.

https://www.huffpost.com/entry/why-is-child-pornogr
aphy_b_356539?

148a
[ENTERED: August 1, 2019]
FILED: August 1, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4302
(1:17-cr-00302-LMB-1)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
NIKOLAI BOSYK
Defendant - Appellant
---------------------------------ELECTRONIC FRONTIER FOUNDATION
Amicus Supporting Appellant
JUDGMENT
In accordance with the decision of this court,
the judgment of the district court is affirmed.
This judgment shall take effect upon issuance
of this court’s mandate in accordance with Fed. R.
App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

149a
[ENTERED: May 7, 2018]
AO 245 S (Rev. 2/99)(EDVA rev. 1) Sheet 1 Judgment in a Criminal Case
UNITED STATES DISTRICT COURT
Eastern District of Virginia
Alexandria Division
UNITED STATES OF AMERICA
v.

Case Number
1:17CR00302-001

NIKOLAI BOSYK,
Defendant.
JUDGMENT IN A CRIMINAL CASE
The defendant, NIKOLAI BOYSK,
represented by Mark B. Williams, Esquire.

was

The defendant pleaded guilty to Count 1 of the
Indictment. Accordingly, the defendant is adjudged
guilty of the following count, involving the indicated
offense:
Title &
Section

Nature of
Offense

18 U.S.C. Receipt of
§ 2252(a)(2) Child
Pornography
(Felony)

Date
Offense
Count
Concluded Number
11/18/2015

1

On motion of the United States, the Court has
dismissed Count 2 of the Indictment.

150a
As pronounced on May 7, 2018, the defendant
is sentenced as provided in pages 2 through 8** of this
Judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 1984.
IT IS FURTHER ORDERED that the
defendant shall notify the United States Attorney for
this district within 30 days of any change of name,
residence, or mailing address until all fines,
restitution, costs, and special assessments imposed by
this judgment are fully paid.
Signed this 7th day of May, 2018.
/s/
Leonie M. Brinkema
United States District Judge
IMPRISONMENT
The defendant is hereby committed to the
custody of the United States Bureau of Prisons to be
imprisoned for a term of SIXTY (60) MONTHS, with
credit for time served.
The Court makes the following recommendations
to the Bureau of Prisons:
The defendant to be designated to F.C.I.
Allenwood, Pennsylvania.
The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons as notified by the United
States Marshal. Until he self surrenders, the
defendant shall remain under the Order
**

Page 8 of this document contains sealed information

151a
Setting Conditions of Release entered on
October 24, 2017.
RETURN
I have executed this Judgment as follows:

Defendant delivered on

at
certified copy of this Judgment.
c: P.O. (2) (3)
Mshl. (4) (2)
U.S.Atty.
U.S.Coll.
Dft. Cnsl.
PTS
Financial
Registrar
ob

to

, with a

United States Marshal
By
Deputy Marshal

SUPERVISED RELEASE
Upon release from imprisonment, the
defendant shall be on supervised release for a term of
TEN (10) YEARS.
The Probation Office shall provide the defendant with
a copy of the standard conditions and any special
conditions of supervised release.
The defendant shall report to the probation
office in the district to which the defendant is

152a
released within 72 hours of release from the
custody of the Bureau of Prisons.
While on supervised release, the defendant
shall not commit another federal, state, or local
crime.
While on supervised release, the defendant
shall not illegally possess a controlled
substance.
While on supervised release, the defendant
shall not possess a firearm or destructive
device.
If this judgment imposes a fine or a restitution
obligation, it shall be a condition of supervised
release that the defendant pay any such fine or
restitution in accordance with the Schedule of
Payments set forth in the Criminal Monetary
Penalties sheet of this judgment.
STANDARD CONDITIONS OF
SUPERVISED RELEASE
The defendant shall comply with the standard
conditions that have been adopted by this Court (set
forth below):
1)

The defendant shall not leave the judicial district
without the permission of the Court or probation
officer.

2)

The defendant shall report to the probation
officer and shall submit a truthful and complete
written report within the first five days of each
month.

153a
3)

The defendant shall answer truthfully all
inquiries by the probation officer and follow the
instructions of the probation officer.

4)

The defendant shall support his
dependents
and
meet
other
responsibilities.

5)

The defendant shall work regularly at a lawful
occupation unless excused by the probation
officer for schooling, training, or other acceptable
reasons.

6)

The defendant shall notify the Probation Officer
within 72 hours, or earlier if so directed, of any
change in residence.

7)

The defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use,
distribute, or administer any narcotic or other
controlled substance, or any paraphernalia
related to such substances, except as prescribed
by physician.

8)

The defendant shall not frequent places where
controlled substances are illegally sold, used,
distributed or administered.

9)

The defendant shall not associate with any
persons engaged in criminal activity, and shall
not associate with any person convicted of a
felony unless granted permission to do so by the
probation officer.

or her
family

10) The defendant shall permit a probation officer to
visit him or her at any time at home or elsewhere
and shall permit confiscation of any contraband
observed in plain view of the probation officer.

154a
11) The defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer.
12) The defendant shall not enter into any
agreement to act as an informer or a special
agent of a law enforcement agency without the
permission of the Court.
13) As directed by the probation officer, the
defendant shall notify third parties of risks that
may be occasioned by the defendant’s criminal
record or personal history or characteristics, and
shall permit the probation officer to make such
notifications and to confirm the defendant’s
compliance with such notification requirement.
SPECIAL CONDITIONS OF SUPERVISION
While on supervised release, pursuant to this
Judgment, the defendant shall also comply with the
following additional conditions:
1.

The defendant shall undergo a mental health
evaluation and, if recommended, participate in a
program approved by the United States
Probation Office for mental health treatment
with an emphasis on sex offender treatment. The
defendant shall take all medications as
prescribed and waive all rights of confidentiality
regarding mental health treatment to allow the
release of information to the United States
Probation Office and authorize communication
between the probation officer and the treatment
provider. The defendant to pay all costs as able
as directed by the probation officer.

155a
2.

Pursuant to the Adam Walsh Child Protection
and Safety Act of 2006, the defendant shall
register with the State Sex Offender Registration
Agency in any state where the defendant resides,
is employed, carries on a vocation, or is a student,
according to federal and state Law and as
directed by the probation officer.

3.

The defendant shall have no contact with minors
unless supervised by a competent, informed
adult, and approved in advance by the probation
officer.

4.

The defendant shall not engage in employment or
volunteer services that allow him access to
minors.

5.

The defendant shall comply with the
requirements of the Computer Monitoring
Program as administered by the Probation
Office. The defendant shall consent to the
installation of computer monitoring software on
any computer to which the defendant has access.
Installation shall be performed by the probation
officer. The software may restrict and/or record
any and all activity on the computer, including
the
capture
of
keystrokes,
application
information, internet use history, email
correspondence, and chat conversations. A notice
will be placed on the computer at the time of
installation to warn others of the existence of the
monitoring software. The defendant shall also
notify others of the existence of the monitoring
software. The defendant shall not remove,
tamper with, reverse engineer, or in any way
circumvent the software. Costs are waived.

156a
6.

The defendant shall not use a computer to access
any kind of pornography at any location,
including
employment,
internet
service
providers, bulletin board systems, or any other
public or private computer network.

7.

The defendant shall make a good faith effort to
pay his full restitution obligation during
supervised release with minimum monthly
payments of $200.00, to begin 60 days after
release from custody.

8.

The defendant shall waive all rights of
confidentiality and provide the probation officer
access to any requested financial information.

9.

As directed by the probation officer, the
defendant shall apply all monies received from
tax refunds, lottery winnings, inheritances,
judgments, and any anticipated or unexpected
financial gains, to the outstanding court ordered
financial obligation.

10. Although mandatory drug testing is waived
pursuant to 18 U.S.C §3564 (a)(4), the defendant
must remain drug free and his probation officer
may require random drug testing at any time.
Should a test indicate drug use, then the
defendant must satisfactorily participate in, and
complete, any inpatient or outpatient drug
treatment to which defendant is directed by the
probation officer.

157a
CRIMINAL MONETARY PENALTIES
The defendant shall pay the following total monetary
penalties in accordance with the schedule of
payments set out below.
Count

Special Assessment

Fine

1

$100.00

0.00

Total

$100.00

0.00

FINE
No fines have been imposed in this case.
SCHEDULE OF PAYMENTS
Payments shall be applied in the following order: (1)
assessment; (2) restitution; (3) fine principal; (4) cost
of prosecution; (5) interest; (6) penalties.
The special assessment is due in full immediately. If
not paid immediately, the Court authorizes the
deduction of appropriate sums from the defendant's
account while in confinement in accordance with the
applicable rules and regulations of the Bureau of
Prisons.
Any special assessment, restitution, or fine payments
may be subject to penalties for default and
delinquency.
If this judgment imposes a period of imprisonment,
payment of Criminal Monetary penalties shall be due
during the period of imprisonment.
All criminal monetary penalty payments are to be
made to the Clerk, United States District Court,
except those payments made through the Bureau of
Prisons’ Inmate Financial Responsibility Program.

158a
RESTITUTION AND FORFEITURE
RESTITUTION
TO BE DETERMINED WITHIN 60 DAYS
Payments of restitution are to be made to
Clerk, U. S. District Court, 401 Courthouse Square,
Alexandria, VA 22314.
Restitution is due and payable immediately
and shall be paid in equal monthly payments of at
least $200.00 to commence within 60 days of release,
until paid in full.
Interest on Restitution has been waived.
If there are multiple payees, any payment not
made directly to a payee shall be divided
proportionately among the payees named unless
otherwise specified here:

FORFEITURE
Forfeiture is directed in accordance with the Consent
Order of Forfeiture entered by this Court on May 7,
2018.

159a
[ENTERED: October 9, 2019]
FILED: October 9, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4302
(1:17-cr-00302-LMB-1)
UNITED STATES OF AMERICA,
Plaintiff – Appellee,
v.
NIKOLAI BOSYK,
Defendant – Appellant.
-----------------------------ELECTRONIC FRONTIER FOUNDATION,
Amicus Supporting Appellant.
ORDER

banc.

The court denies the petition for rehearing en

A requested poll of the court failed to produce a
majority of judges in regular active service and not
disqualified who voted in favor of rehearing en banc.
Chief Judge Gregory, Judge Wilkinson, Judge
Niemeyer, Judge Motz, Judge King, Judge Agee,

160a
Judge Keenan, Judge Diaz, Judge Floyd, Judge
Thacker, Judge Harris, Judge Richardson, Judge
Quattlebaum, and Judge Rushing voted to deny
rehearing en banc. Judge Wynn voted to grant
rehearing en banc and filed a separate statement.
Entered at the direction of Judge Diaz.
For the Court
/s/ Patricia S. Connor, Clerk
WYNN, Circuit Judge, statement in the denial of
rehearing en banc:
The Government in this matter leads this
Court to depart from the wisdom of our sister circuits
and endorse an unsustainable approach to evaluating
evolving technology. At the core of this matter is the
Government’s affidavit which states that someone
using Defendant’s IP address was in the wrong place
at a certain time. Not at the wrong time—just at a
certain time.
As I discussed in my dissent, reasoning by
analogy depends on relevant similarity. To many
courts, the internet is abstract and the task of
learning what a URL is—or what a dynamic URL is,
or what a URL shortener does, and what the
implications may be—represents a specialized
undertaking unrelated to legal expertise, that is,
something to approach with a sense of dread. Tools
like analogies that promise to reduce a technical issue
to something susceptible to the intuitive logic of the
familiar become appealing. And retrospective
confirmation, such as when we can look back and see
that an affidavit led to a computer filled with child

161a
pornography, builds trust that the logic that found
probable cause was sound in the first instance.
However, legal commentators have raised the alarm
about indiscriminate use of metaphors in the internet
context. See, e.g., Mark A. Lemley, Place and
Cyberspace, 91 Calif. L. Rev. 521, 542 (2003) (“The
cyberspace as place metaphor can be valuable . . . [but
t]he metaphor will serve its purpose only if we
understand its limitations—the ways in which the
Internet is not like the physical world.”). Sometimes,
the preference to avoid taking the internet on its own
terms, to avoid learning new rules and starting from
logical scratch, leads us to not question basic
assumptions when we should. This is one of those
cases.
I offer a comparison of two analogies to
illustrate the problem. Both start with what seems
like a reasonable general metaphor that describes
how a human user experiences the internet. After
that point, however, based on the initial choice of
metaphor, each analogy naturally takes a different
path, and the two analogies ultimately suggest
opposing conclusions. Both conclusions are “right”
according to their analogy’s logic. But by the time
they reach those conclusions, both analogies have
become somewhat divorced from reality and in
neither case can we go back and “check our work”
without reference to the technology that we are trying
to describe.
In the first analogy, we begin in a building.
This building is the confines of the internet. We are
standing in a room and this room is a section of an
internet forum, Bulletin Board A. We see a door with
a sign that advertises child pornography. The door is

162a
the download link URL that was posted on Bulletin
Board A. We open that door and encounter both a
cache of child pornography and the Defendant. If we
believe the door we used was the only door to that
place—indeed, so long as the number of doors into the
room is a manageable number, or so long as we
speculate on the basis of proximity that only places
like Bulletin Board A have doors that lead here—we
can reasonably conclude that Defendant is seeking
child pornography.
In the second analogy, we begin on a field. That
field is the vastness of the internet. The general area
where we are standing is Bulletin Board A. We see a
sign that points in a direction and advertises child
pornography. That sign is the link posted on Bulletin
Board A. We follow the sign’s instructions and
eventually reach a place, where there is a cache of
child pornography on the ground. We also encounter
Defendant in the immediate vicinity, but we did not
see where he came from. Because there are no walls
in this environment to direct traffic, we cannot
reasonably conclude that Defendant, like us, followed
the sign advertising child pornography.
This second analogy does not seek to explain
the internet, rather, it seeks to explain how a
foundational fault in the Government’s logic skewed
the Government’s conclusion. The Government, the
magistrate judge, the district court, and the majority
in this case read the affidavit using an inapplicable
logic of enclosure.
They assumed limitations—
represented by walls—that do not exist online. That
said, the field analogy is also misleading in its own
way. The field’s openness suggests that we can and
do see exactly where a link will take us, which, as the

163a
amicus curiae in this case explained, is not the case.
The field analogy also risks spiraling into a detailed
and unhelpful geography if used to explain the role of
the File Sharing Site. Every analogy can only go so
far. This is why courts depend on amici curiae and,
more importantly, the parties themselves, to explain
technical issues in cases like this one, and to explain
them well. See, e.g., In re Application of U.S. for an
Order Directing a Provider of Elec. Commc’n Serv. to
Disclose Records to Gov’t, 620 F.3d 304, 306 n.1 (3d
Cir. 2010) (thanking a group of amici led by the
Electronic Frontier Foundation for participating in a
case involving an ex parte application by the
government and an issue of first impression related to
the Stored Communications Act and cell site location
information).
Examining the affidavit in this case, it is
technological error to conclude that “the records
showed that . . . someone using this IP address clicked
that same link.” United States v. Bosyk, 933 F.3d 319,
323 (4th Cir. 2019) (emphasis added). Indeed, the
affidavit does not make this direct causal allegation.
The affidavit represented that some number of hours
before or some number of hours after some
anonymous actor posted a certain link on a certain
website, someone using Defendant’s IP address came
into contact with some link that was perhaps found on
some website.
The affidavit does not say that the Defendant’s
IP address had ever been associated with any child
pornography activity in the past. The affidavit does
not say the person using Defendant’s IP address
actually downloaded any of the password-protected
files. The affidavit does not even say that the person

164a
with Defendant’s IP address arrived at the URL in
question after the suspect link was posted on the
monitored website—a bar so low that it is alarming
that the affidavit tripped over it. We know from other
cases in other circuits that such facts are relevant to
finding probable cause. See, e.g., United States v.
Gourde, 440 F.3d 1065 (9th Cir. 2006). These kinds of
facts, however, are all missing here.
In the digital age, the ubiquity of link
shortening services and randomly generated URLs
renders browsing the Internet a great exercise in
trusting strangers. The average internet user does
not—indeed, cannot—know with certainty that all
the links they follow will take them where they
expect. The system works because we follow links on
faith. What, then, should a court assume when an
affidavit alleges nothing more than that a single click
occurred? Very little, if anything.

